<html>
<title> - OVERSIGHT HEARING ON STELLER SEA LIONS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





                 OVERSIGHT HEARING ON STELLER SEA LIONS

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                      MAY 20, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-28

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
       Committee address: http://www.resourcescommittee.house.gov

                             -----------

                   U.S. GOVERNMENT PRINTING OFFICE
58-051                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado         RUSH D. HOLT, New Jersey

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ENI F.H. FALEOMAVAEGA, American 
JAMES V. HANSEN, Utah                    Samoa
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         PETER A. DeFAZIO, Oregon
WALTER B. JONES, Jr., North          NEIL ABERCROMBIE, Hawaii
    Carolina                         SOLOMON P. ORTIZ, Texas
MARK E. SOUDER, Indiana              FRANK PALLONE, Jr., New Jersey
ROBIN HAYES, North Carolina          CARLOS A. ROMERO-BARCELO, Puerto 
MIKE SIMPSON, Idaho                      Rico
                                     ADAM SMITH, Washington
                    Harry Burroughs, Staff Director
                     Dave Whaley, Legislative Staff
               Jean Flemma, Democratic Legislative Staff


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held May 20, 1999........................................     1

Statement of Members:
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................
         Prepared statement of...................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, Prepared statement of.............     3

Statement of Witnesses:
    Burch, Al, Executive Director, Alaska Draggers Association...    86
        Prepared statement of....................................    89
    Jacobsen, Hon. Dick, Mayor, Aleutians East Borough, Alaska, 
      Prepared statement of......................................    65
    Kelty, Hon. Frank V., Mayor, City of Unalaska, Alaska........    78
        Prepared statement of....................................    80
    Lavigne, Dr. David, Executive Director, International Marine 
      Mammal Association.........................................    21
        Prepared statement of....................................    23
    Marks, Rick, Steller Sea Lion Caucus.........................    36
        Prepared statement of....................................    39
    Owletuck, George, Anchorage, Alaska..........................    96
        Prepared statement of....................................    98
    Pereyra, Dr. Walter, Vice Chairman, North Pacific Fishery 
      Management Council.........................................     4
        Prepared statement of....................................     7
    Rosenberg, Dr. Andrew, Deputy Assistant Administrator for 
      Fisheries, National Marine Fisheries Service...............    10
        Prepared statement of....................................    12
    Stewart, Beth, Natural Resources Director, Aleutians East 
      Borough, Alaska............................................    63
    Van Tuyn, Peter, Trustees for Alaska.........................   100
        Prepared statement of....................................   102
    Wynne, Kate, Marine Mammal Specialist, Alaska Sea Grant 
      Marine Advisory Program....................................    17
        Prepared statement of....................................    18

Additional material supplied:
    Backgound Memorandum.........................................   109
    Boyd, I.L., Prepared statement of............................   118
    Marks, Rick, Response to questions...........................   122
    Swetzof, Simeon, Mayor, and John R. Merculief, City Manager, 
      City of Saint Paul, Pribilof Islands, Alaska, Prepared 
      statement of...............................................   125

 
                 OVERSIGHT HEARING ON STELLER SEA LIONS

                              ----------                              


                         THURSDAY, MAY 20, 1999

              House of Representatives,    
            Subcommittee on Fisheries Conservation,
                               Wildlife and Oceans,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:05 p.m. in 
Room 1334 Longworth House Office Building, Hon. Jim Saxton 
[Chairman of the Subcommittee] presiding.
    Mr. Saxton. The Subcommittee on Fisheries Conservation, 
Wildlife and Oceans will come to order.
    Good afternoon.
    Today, we will discuss the National Marine Fisheries 
Service's research program on Steller sea lions in the Bering 
Sea. We are here because there is apparently a great deal of 
distrust about whether NMFS has an adequate scientific basis 
for making adjustments to the pollock and mackerel fisheries 
off Alaska.
    We will hear the agency's presentation on the research 
program, and we will listen to the concerns of a number of 
witnesses who have legitimate, unanswered questions. It seems 
to me that the major questions for this hearing are:

          One, do we know what caused the decline in Steller 
        sea lion populations in the Bering Sea?
          Two, do we know enough about Steller sea lions and 
        their life history to determine what is preventing 
        their recovery?
          Three, has there been a physical change in the Bering 
        Sea which has altered the ecosystem? If that has 
        occurred, could that be the cause of the decline and, 
        therefore, be an impediment to the recovery?
          And finally, four, has the Federal Government 
        adequately completed its scientific research 
        responsibilities so as to convince the fishing 
        community that the proposed changes to the fisheries 
        will actually make a difference, or is there so much 
        uncertainty that we really don't know what we are 
        doing?
    I believe that the last question is the most important. If 
you can clearly identify a problem and a solution, then 
everyone will work together to accomplish the goal. If there is 
scientific uncertainty, distrust and animosity, then the 
process of cooperatively working together to find a solution is 
doomed and will fail.
    I would like to recognize others who might have statements. 
Mr. Gilchrest, do you have any opening statement? Thank you for 
coming. I ask unanimous consent that all Subcommittee Members 
be permitted to include their opening statement in the record.
    [The prepared statements follow:]

  STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE 
                          STATE OF NEW JERSEY

    Good afternoon. Today we will discuss the National Marine 
Fisheries Service's research program on Steller sea lions in 
the Bering Sea. We are here because there is apparently a great 
deal of distrust about whether NMFS has an adequate scientific 
basis for making adjustments to the pollock and mackerel 
fisheries off Alaska.
    We will hear the agency's presentation on its research 
program and we will listen to the concerns of a number of 
witnesses who have legitimate, unanswered questions. It seems 
to me that the major questions for this hearing are:

        <bullet>Do we know what caused the decline of Steller sea lion 
        populations in the Bering Sea?
        <bullet>Do we know enough about Steller sea lions and their 
        life history to determine what is preventing their recovery?
        <bullet>Has there been a physical change in the Bering Sea 
        which has altered the entire ecosystem? If that has occurred, 
        could that be the cause of the decline and, therefore, be an 
        impediment to the recovery? And,
        <bullet>Has the Federal Government adequately completed its 
        scientific research responsibilities so as to convince the 
        fishing community that the proposed changes to the fisheries 
        will actually make a difference, or is there so much 
        uncertainty that we really don't know what we are doing?
    I believe the last question is the most important. If you can 
clearly identify a problem and a solution, then everyone will work 
together to accomplish the goal. If there is scientific uncertainty, 
distrust and animosity, then the process of cooperatively working 
together to find a solution is doomed to fail.
                                 ______
                                 
  STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM THE 
                            STATE OF ALASKA

    We are here to discuss Steller sea lions in the Bering Sea and the 
Gulf of Alaska, the lack of science and general information about this 
animal, and the inability of the agency charged with responsibility for 
conserving this species to answer basic questions.
    Let me briefly summarize the situation we now find ourselves in. 
For years, the National Marine Fisheries Service (NMFS) has 
consistently determined that the pollock fishery did not jeopardize the 
recovery of Steller sea lions.
    It is my understanding that NMFS made this determination, either 
formally or informally, not once or twice, but 39 times. Now, because 
of the filing of a lawsuit by various environmental groups, NMFS has 
done a 180-degree turn and finds that the pollock fishery does indeed 
pose a risk to the recovery of the Steller sea lion. How remarkable! I 
am really curious how the agency made this determination when no new 
science has been presented which makes that break-through discovery.
    Let me see if I've got the situation properly in perspective:
        <bullet>No one has debated that the western population of 
        Steller sea lions has been declining. Unfortunately, the agency 
        does not seem to know, and does not seem to care, why the 
        western stock has declined so rapidly in the last twenty years.
        <bullet>The agency has not requested an increase in its Steller 
        sea lion research budget in at least six years, and probably 
        longer than that, even though Congress increased the funding 
        for Steller research in Fiscal Year 1998.
        <bullet>Since 1992, the agency has had a research plan, which 
        was developed by the Steller Sea Lion Recovery Plan Team, yet 
        many of the research recommendations have still not been 
        funded.
        <bullet>The agency has ignored or rejected research projects 
        conducted by scientists outside the agency (and, in fact, some 
        of the research conducted by scientists within the agency) 
        because the conclusions didn't match the agency's latest 
        theory.
        <bullet>The agency completed no new research projects between 
        its decision in 1996 that the pollock fishery did not pose a 
        jeopardy to the recovery of the western population and the 1998 
        decision that the fishery did indeed pose a threat to the 
        recovery.
        <bullet>The agency declared in a report to Congress, as late as 
        October 1998, that ``Given the current understanding of the sea 
        lion/fishery prey interactions, additional research is 
        warranted prior to establishing revised management actions.''
        <bullet>The agency drafted and circulated Reasonable and 
        Prudent Alternatives (or RPAs) concluding that there needed to 
        be changes to the pollock fishery even before it had released a 
        draft Biological Opinion.
        <bullet>The agency appears to have had no intention of 
        including the North Pacific Fishery Management Council in any 
        decision about potential changes in the management of the 
        pollock fishery.
    This appears to be a situation where the agency had a theory, but 
not enough science to either prove or disprove it, and once its bluff 
had been called by a lawsuit, hid behind the ``precautionary 
principle'' and the ``best available science'' excuses to attack the 
pollock fishery in the hope that the lawsuit would go away. I am 
convinced that the agency has neither best available science nor knows 
whether the management changes in its proposal will have any positive 
effect on the Steller populations. While NMFS has no clue whether these 
measures will be good for sea lions, it certainly will have negative 
effects on fishermen and the communities that depend on this resource.
    The North Pacific Fishery Management Council and the Alaskan 
fishing industry have always been proactive when dealing with potential 
resource problems. They took action to change management of the Atka 
mackerel fishery when presented with credible evidence that changes 
were needed for sea lions. They have taken action to prevent a targeted 
forage fish fishery in the Gulf of Alaska. They constantly take action 
to minimize bycatch, to close specific areas when necessary for 
conservation reasons, and have always set conservative harvest levels. 
In this case, if they had been presented with credible science in time, 
they could have taken proactive action to help Steller sea lions. 
Unfortunately, they were constantly told by the agency that there was 
not a problem with the pollock fishery.
    This is a typical response from this agency. It cannot control the 
environmental changes occurring in the ocean, will not control 
predators, but the one area it can control is the fishing fleet. What 
will happen--based on the closed areas and proposed closed areas I have 
seen--is that small boat fishermen are going to be forced to fish in 
seas that are unsafe for that vessel size. The agency is responsible 
for these people and should consider the effect the closed areas will 
have on small vessels. Instead, the agency will do whatever it takes to 
save the Steller sea lion, without having the proper science, and will 
risk the lives of fishermen because it has the power to do so. This is 
unacceptable and I am tired of having the lives of my constituents used 
as barter to stop lawsuits, most of which have no merit anyway!
    I am deeply concerned with the actions of the agency in this case. 
NMFS has more questions than answers and doesn't seem to care that its 
actions have consequences for fishermen and fishing communities.
                                 ______
                                 
STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM 
                        THE STATE OF NEW JERSEY

    Thank you, Mr. Chairman, for holding this hearing to discuss the 
dramatic decline of the Steller sea lion in the north Pacific Ocean. As 
a coastal district Member, I have always been supportive of protecting 
our Nation's splendid marine resources. I am also well aware of the 
complex dynamic that exists when managing marine mammals. I am eager to 
learn more about the reasons for the Steller sea lion population 
decline and the role the commercial fishery may play in the depletion 
of pollock, the principle prey of sea lions.
    An alarming decline in the abundance of Steller sea lions has 
occurred throughout their range over the past 30 years. The estimated 
population has dropped from about 280,000 non-pups in the early 1960's 
to approximately 52,200 in 1994. This represents a decline of about 
232,000 sea lions, or about 70 percent of the population, in just 34 
years. As a result, Steller sea lions were afforded protection as a 
threatened species under the Endangered Species Act in 1990, and the 
Aleutian stock is now under consideration for endangered status.
    The National Marine Fisheries Service (NMFS) has implemented a 
Steller sea lion recovery plan and designated areas as critical 
habitat. NMFS has also restricted commercial fishing activity in 
Steller habitat in an attempt to stop deleterious impacts on Steller 
feeding activity. Regrettably, despite these conservation efforts, the 
Steller population continues to decline.
    Uncertainty continues to surround the reasons for this downward 
trend. Disagreement centers on whether commercial exploitation of 
pollock and the associated reduction of a food supply are having as 
significant an impact to the sea lions as some suggest.
    The Steller population crash has indeed coincided with intensified 
commercial fishing in and around rookeries and haul-out sites. Flagrant 
overfishing of roe-bearing pollock during the winter spawning season, 
and a decrease in the abundance of young pollock of the size preferred 
by juvenile sea lions have undoubtedly played a role in sea lion 
decline. Yet some reports estimate that pollock numbers in the Bering 
Sea have been at an all time high during this time period. These 
ambiguities must be addressed if we are to effectively reverse the 
species decline.
    While it is true that fishery exploitation in Steller habitat took 
place in the 1980's, it is far too convenient to lay blame solely on 
overfishing. What other contributing factors could be causing 
nutritional stress and be preventing a full Steller recovery? Has a 
change in the Bering Sea ecosystem played a role in prey availability? 
Has direct mortality from commercial fishing, rather solely 
overfishing, played an additional role in the sea lions' decline?
    I applaud National Marine Fishery Service efforts to amend 
groundfish management plans in the north Pacific Ocean to ensure that 
Federal actions do not jeopardize the Steller sea lion. However, in 
order to ensure the species' full protection, we must minimize any 
human-induced activity that may be detrimental to the survival of the 
species. I hope that today's hearing will help identify such 
activities, clarify actions needed to reverse this unfortunate decline, 
and define action needed to restore the Steller sea lion to a healthy 
level.
    There is an urgent need to take immediate steps to ensure that 
future generations can enjoy this wonderful animal. I look forward to 
learning to what extent the issues I have raised contribute to the 
necessary protection of the Steller sea lion.

    Mr. Saxton. I would like now to introduce our witnesses on 
Panel I. We have Dr. Walter Pereyra, Vice Chairman of the North 
Pacific Fishery Management Council; Dr. Andy Rosenberg, Deputy 
Assistant Administrator for Fisheries, National Marine 
Fisheries Service; Ms. Kate Wynne, Marine Mammal Specialist, 
Alaska Sea Grant Marine Advisory Program; Dr. David Lavigne, 
Executive Director, International Marine Mammal Association; 
and Mr. Rick Marks, Steller Sea Lion Caucus.
    Would you all take your places, please, at the table, and 
let me remind you, while you are doing so, that under our 
Committee rules your statements are limited to five minutes, 
but your entire statement will be made a part of the record.
    Dr. Pereyra, you may begin when you are ready and in your 
place. Thank you.

 STATEMENT OF DR. WALTER PEREYRA, VICE CHAIRMAN, NORTH PACIFIC 
                   FISHERY MANAGEMENT COUNCIL

    Dr. Pereyra. Thank you, Mr. Chairman. My name is Dr. Walter 
Pereyra. I am a former NMFS scientist, and I am presently 
chairman and part owner of Arctic Storm, which owns and manages 
two catcher processors in the Bering Sea fishery for pollock 
and also a couple of catcher boats which participate in that 
same fishery. I am also vice chairman of the North Pacific 
Fishery Management Council, which is responsible, together with 
NMFS, for the conservation and management of the fishery 
resources in the Federal waters off Alaska. This is my ninth 
and final year on the council, and I could say something about 
that but I won't.
    Mr. Gilchrest. I would like to hear that part.
    Dr. Pereyra. You might not.
    Mr. Chairman, members of the Subcommittee, I am pleased to 
appear before you today to comment on the issue of the decline 
of the Steller sea lion populations in certain areas off 
Alaska. As requested, I will focus my attention on the 
perceived and actual deficiencies in the Steller sea lion 
research and management program and also how the National 
Marine Fisheries Service could improve or expand on its current 
research program. I will also offer some comments on other 
research areas that could be pursued to better understand the 
reasons for the current decline in the western population of 
Steller sea lions.
    I have taken the liberty to review the extensive comments 
and recommendations of the Council's Scientific and Statistical 
Committee, but I want to emphasize that the SSC's comments 
notwithstanding, the conclusions that I have drawn and the 
recommendations that I have put forth here before you are 
really my own.
    Now, with regard to the decline of the Steller sea lion 
populations in the Bering Sea and Aleutian Islands and the Gulf 
of Alaska, there has been a considerable amount of literature 
on this particular subject, and I think it is pretty well-known 
that this decline has been quite substantial; but despite the 
research and scientific inquiry into the factors that have led 
to this decline, these factors remain poorly understood at 
best. Moreover, there has been no conclusive evidence that the 
pollock fishery is the causative factor, either directly or 
indirectly, in the sea lion's decline, and I would like to 
note, if I may, that the independent review panel which was 
established to review the biological opinion and the jeopardy 
decision, that review panel just issued their report this week, 
and that report concluded, and I would quote, ``The relative 
importance of environmental changes in the carrying capacity 
versus the effects of commercial pollock fisheries in the 
Bering Sea and the Gulf of Alaska on hypothesized food 
shortages to Steller sea lions is unknown.''
    Now, in my mind the difficulty with which we find ourselves 
today was created by the listing of the western population of 
Steller sea lions as endangered under the ESA in June of 1997 
together with our poor understanding of the dynamics of the 
Bering Sea and Gulf of Alaska ecosystems and their relationship 
to the Steller sea lion population. This endangered listing 
immediately put the Council and NMFS in a difficult position of 
having to take the so-called precautionary management actions 
to the pollock fishery without the benefit of an adequate 
understanding of the relationship between the fishery and the 
Steller sea lion population.
    Without such an understanding, we have no assurance that 
despite our good intentions we, in fact, will be doing anything 
to benefit the recovery of the Steller sea lion population. We 
do know, though, that these remedial management measures will 
negatively impact the economics of the important pollock 
fishery in waters off Alaska. Furthermore, there is some 
suggestion that certain of the reasonable and prudent 
alternatives could actually be hindering the recovery of the 
sea lion population itself.
    Now, in gaining an appreciation of the considerable 
research required to adequately understand this complex 
subject, it is helpful to note that the National Marine 
Fisheries Service concluded in their opinion from the Section 7 
consultation that the decline in the sea lion population was 
due most likely to decreased juvenile survival, with reduced 
availability of prey identified as the underlying cause.
    In response to this conclusion, the National Marine 
Fisheries Service recommended the RPA's, consisting principally 
of additional fishery exclusion zones around rookeries and 
haulouts and so-called time-area restrictions on the pollock 
fishery, as a means of buffering the sea lions from possible 
fishery-induced localized depletion of prey stocks. These 
management measures have been invoked despite the fact that 
there has been no conclusive proof that the pollock fishery is 
responsible for any localized depletion of the prey species or 
that if such localized depletion does in fact occur, that 
foraging ability of sea lions is compromised in any way.
    Now, in looking at the deficiencies that we have in these 
Steller research and management programs, I feel that the lack 
of funding, the need to invoke the new measures to manage the 
fishery following a listing and the narrow focus of the inquiry 
into the basic reasons for the sea lion's decline appear to be 
responsible for these deficiencies, and I will go through, I 
think, some of the areas where I think these deficiencies 
exist.
    The first is localized depletions--the underlying 
hypothesis driving the finding of jeopardy and the RPA 
principles is a notion that the pollock fishery is responsible 
for the localized depletion of pollock within the Steller sea 
lion's critical habitat and, furthermore, that this localized 
depletion has negatively impacted the sea lions. Attempts to 
measure localized impacts of fishing on the population density 
of pollock by tracking temporal changes in catch per unit 
efforts in the fishery and the abundance of pollock within the 
critical habitat have been unsuccessful. Therefore, fishery 
independent surveys in conjunction with the fishery I feel are 
going to be required to quantitatively assess the relationship, 
if there is any at all, between fishing and localized 
depletion.
    Along with studies of fishery-induced localized depletion, 
there is a need to determine the degree to which localized 
depletions, if they are occurring, negatively impacts the sea 
lion's ability to forage successfully, and we have no knowledge 
of this important relationship either. If the pollock fishery 
impairs the foraging success, then we need to know more about 
the relationship between foraging success and the sea lions' 
overall condition and fitness.
    The next area where I think there is a need for expanded 
research is in the time-area distribution of the pollock. The 
proposed RPAs involving these time-area regulations of the 
pollock fishery are premised on an understanding of this 
distribution and abundance.
    Mr. Saxton. Dr. Pereyra, could you summarize or give us an 
outline of the balance of your testimony? That would be 
appreciated. Thank you.
    Dr. Pereyra. Certainly, Mr. Chairman. I think that there is 
a need to expand the winter surveys in the Bering Sea. There is 
also a need to expand the summer surveys. If we don't do that, 
we are not going to know whether we are, in fact, helping or 
hindering the Steller sea lions by the way we are managing the 
fishery.
    We also have put in a number of closure areas around 
rookeries since the early nineties. These have never been 
studied to determine whether or not they, in fact, are helping 
the Stellers recover at all.
    Predator studies--there have been lots of reports on killer 
whales, so-called orcas. I think these really have never been 
looked at in a critical manner. There have not been any studies 
done on orca distribution or abundance levels of orcas and that 
needs to be done because they could, in fact, be hindering the 
recovery of the Stellers entirely just by the pressure that 
they put on the population from their predation.
    And lastly, I think very important are ecosystem studies. 
There has been a lot of information that has been gathered 
recently on the so-called Pacific Decadal Oscillation, which is 
a regime shift as in the seventies when we had a major change 
in the Bering Sea ecosystem. This now seems to be going back 
the other way. This can have an effect upon the very important 
small fish populations, the capelin, the herring, the smelts 
and so forth, that seem to be, based upon some other studies 
that are being done, seem to be very important to the overall 
health of the sea lions.
    So, in summary, Mr. Chairman, I think there is need, 
probably somewhere in the neighborhood of $10 to $15 million a 
year, of additional research money appropriated for these very 
important studies in the Bering Sea, Gulf of Alaska.
    Thank you very much.
    [The prepared statement of Dr. Pereyra follows:]

   STATEMENT OF DR. WALTER T. PEREYRA, VICE CHAIRMAN, NORTH PACIFIC 
        FISHERY MANAGEMENT COUNCIL, CHAIRMAN, ARCTIC STORM, INC.

    My name is Dr. Walter T. Pereyra. I am a former National 
Marine Fisheries Service (``NMFS'') fisheries scientist. 
Presently I am Chairman and part owner of the Arctic Storm, 
Inc. (``Arctic Storm''). Arctic Storm owns and/or manages two 
catcher processors, one of which is in partnership with the 
Bristol Bay Economic Development Corporation, and two catcher 
vessels, all of which participate in the Bering Sea and 
Aleutian Island fisheries for Alaskan pollock. I am also Vice 
Chairman of the North Pacific Fishery Management Council 
(``Council'') which is responsible together with NMFS for the 
conservation and management of the fishery resources in the 
Federal waters off Alaska. I am serving my ninth and final year 
on the Council.
    Mr. Chairman and Members of the Subcommittee: I am pleased 
to appear before you today to comment on the issue of the 
decline of the Steller sea lion populations in certain areas 
off Alaska. As requested, I will focus my attention on 
perceived and actual deficiencies in the NMFS' Steller sea lion 
research and management program, and how the agency could 
improve or expand on its current research program. I will also 
offer some comments on other research areas that could be 
pursued to better understand the reasons for the current 
decline in the western population of Steller sea lions. In 
developing my thoughts on this subject I have taken into 
consideration the extensive comments and recommendations of the 
Council's Scientific and Statistical Committee (``SSC''). The 
SSC not withstanding the conclusions drawn and recommendations 
put forth in this statement are my own.

Decline of the western population of Steller Sea Lions

    The decline of the Steller sea lion populations in Bering 
Sea and Aleutian Islands (``BSAI'') and the central and western 
areas of the Gulf of Alaska (``GOA'') has been well chronicled. 
Despite considerable research and scientific inquiry into the 
factors that have led to this decline, these factors remain 
poorly understood at best. Moreover, there has been no 
conclusive evidence that the pollock fishery is the causative 
factor either directly or indirectly for the sea lions' 
decline. Despite this scientific uncertainty, though, the NMFS 
concluded in their Biological Opinion (``BO'') following an 
extensive Section 7 consultation under the Endangered Species 
Act (``ESA''), that the pollock fishery as proposed for 1999-
2002 was ``likely to jeopardize the continued existence of the 
western population of Steller sea lions and adversely modify 
its critical habitat.''
    The roles of the Council and its SSC in regards to this 
Section 7 consultation have been minimal. While we were able to 
comment at length on the content of the BO and conclusions 
drawn, the BO itself was exclusively the domain of the NMFS--
they had the responsibility for producing the BO and they alone 
arrived at the conclusion of jeopardy. Also they alone 
established the Reasonable and Prudent Alternative (``RPA'') 
principals by which the Council had to shape its suite of 
recommended RPAs to NMFS for management of the pollock fishery. 
For the 1999 pollock fishery NWS rejected the Council's RPA 
recommendations for the summer/fall portion of the fishery. We 
will meet next month in Kodiak to revise our recommendations 
for the remainder of this year, and for the year 2000 and 
beyond.
    In my mind the difficulty in which we find ourselves today 
was created by the NMFS' listing of the western population of 
Steller sea lions as endangered under the ESA in June 1997 
together with our poor understanding of the dynamics of the 
BSAI and GOA ecosystems and their relationship to the Steller 
sea lion population. This endangered listing immediately put 
the Council and NMFS in the difficult position of having to 
take so-called precautionary management actions to the pollock 
fishery without the benefit of an adequate understanding of the 
relationship between the fishery and the Steller sea lion 
population. Without such an understanding we have no assurance 
that despite our good intentions we in fact will be doing 
anything to benefit the recovery of the Steller sea lion 
population. We do know, though, that these remedial management 
measures will negatively impact the economics of the pollock 
fishery. Furthermore, there is some suggestion that certain 
RPAs could actually be hindering the recovery of the Steller 
sea lion population.
    In gaining an appreciation of the considerable research 
required to adequately understand the complex subject of the 
Steller sea lion decline and RPAs, it is helpful to note NMFS' 
concluding opinion from their Section 7 consultation and the 
BO. They concluded that the decline in the sea lion population 
was due most likely to decreased juvenile survival with reduced 
availability of prey identified as the underlying cause. In 
response to this conclusion NMFS recommended RPAs consisting 
principally of additional fishery exclusion zones around 
rookeries and haulouts, and time-area restrictions on the 
pollock fishery as a means of ``buffering'' sea lions from 
possible fishery-induced localized depletion of prey stocks. 
These management measures have been invoked despite the fact 
that there has been no conclusive proof that the pollock 
fishery is responsible for any localized depletion of prey 
species or that if such localized depletion does in fact occur, 
that foraging ability of sea lions is compromised in any way.

Deficiencies in NMFS' Steller sea lion research and management 
programs

    Certain deficiencies can be identified in NMFS' Steller sea 
lion research and management programs. These deficiencies 
appear to be due to a lack of funding, the need to invoke new 
measures to manage the pollock fishery following the listing of 
the Steller sea lion as endangered, and the narrow focus of the 
NMFS' inquiry into the basic reasons for the sea lion's 
decline. Some of these deficiencies have been known for more 
than 10 years but remarkably little has been invested in 
research to answer the questions raised. A discussion of the 
more important research deficiencies follows.
    (1) Localized depletion--the underlying hypothesis driving 
the finding of jeopardy and the RPA principals is the notion 
that the pollock fishery is responsible for localized depletion 
of pollock within the Steller sea lion's critical habitat 
(``CH''); and furthermore, that this localized depletion has 
negatively impacted the sea lions. Attempts to measure 
localized impacts of fishing on the population density of 
pollock by tracking temporal changes in catch-per-unit-effort 
in the fishery and abundance of pollock within the CH have been 
unsuccessful. Therefore, fishery independent surveys in 
conjunction with the fishery are going to be required to 
quantitatively assess the relationship, if any, of fishing to 
localized depletion.
    Along with studies on fishery-induced localized depletion 
there is a need to determine the degree to which localized 
depletion, should it be occurring, negatively impacts the sea 
lions' ability to forage successfully. We have no knowledge of 
this important relationship. If the pollock fishery impairs 
foraging success, we then need to know more as to the 
relationship between foraging success and the sea lions' 
overall condition and fitness.
    (2) Time-area distribution of pollock--The proposed RPAs 
involving time-area regulations on the pollock fishery are 
premised on an understanding of the distribution and abundance 
of the pollock population at the time of the fishery. Due to 
the lack of winter surveys and the timing of the summer 
surveys, time-area RPAs have had to be established in a 
speculative manner. This has put the conduct of the pollock 
fishery in jeopardy and raised the possibility of the pollock 
fishery being forced to operate disproportionately to the 
distribution of pollock, a situation that would be contrary to 
the intent of the RPAs themselves.
    To reduce the potential risk to both the pollock fishery 
and the Steller sea lions, there is an immediate need for NMFS 
to conduct winter surveys to determine the winter distribution 
of pollock relative to the CH prior to the start of the 
fishery. There is also a need to expand and alter the timing of 
the summer survey to determine the distribution of pollock 
relative to the CH and the eastern and western portions of the 
eastern Bering Sea. Both the winter and summer surveys need to 
be conducted annually, synoptic in nature (multi-vessel) and 
include surveys of both the on-bottom and off-bottom components 
of the pollock population.
    (3) Efficacy of trawl exclusion zones--Trawl exclusion 
zones around certain sea lion rookeries have been in place 
since 1992. To date there have been no experiments or analyses 
conducted by the NMFS to test the efficacy of these no trawl 
zones. This lack of experimental studies is disturbing 
considering that in May, 1997 when it reclassified the western 
population from threatened to endangered, NMFS stated that it 
was premature to propose changes to the Steller sea lion 
protective measures, because ``(1) more time is required to 
assess what, if any, benefit has been derived from the actions 
currently in place [a reference to the no trawl zones adopted 
in 1992 and 1993]; and (2) given the limited knowledge of the 
sea lion/fishery prey interaction and the effect of human 
disturbance, it is difficult to identify meaningful management 
actions in addition to those already in place.'' Recently an 
industry analyst examined NMFS' site-by-site sea lion count 
data and demonstrated that rookery sites open to trawling had 
experienced improving population trends as opposed to those 
sites closed to trawling. NMFS has refuted this finding but has 
not offered any research to counter these conclusions. It is 
imperative that NMFS design and conduct a controlled experiment 
to directly test the efficacy of the no trawl zones. Only in 
this manner will it be possible to determine whether the trawl 
exclusion zones around rookeries are beneficial (or adverse) to 
the Steller sea lions. It should be noted that the closure this 
year of the Aleutian Islands to all directed pollock fishing 
can not substitute for a controlled efficacy experiment of the 
trawl exclusion zones due to the importance of Atka mackerel as 
forage for sea lions in this area and the lack of a suitable 
control to the Aleutian Island closure.
    (4) Predator studies--One of the ongoing debates surrounds 
the possibility that predation by killer whales (``orcas'') 
could be impeding the sea lion's recovery. Fishermen have 
reported seeing large pods of orcas in the Bering Sea in recent 
years and observations of killer whales attacking sea lions are 
common. Unfortunately, due to the dispersed nature of the orca 
population, their distribution in pods and survey difficulties, 
our knowledge of the distribution and abundance, and feeding 
ecology of these known sea lion predators is wanting. Attention 
should be given to assessing, the size and distribution of the 
orca population so as to ascertain their potential impact on 
the recovery of the Steller sea lion.
    (5) Feeding studies of captive sea lions by Dr. Andrew 
Trites and his colleagues associated with the University Marine 
Mammal Consortium have revealed some illuminating results. For 
one they have found that pollock may in fact be an unsuitable 
food source for the Steller sea lion which may explain in part 
for the decline of the sea lion population despite an increased 
abundance of pollock. Conversely more oily species such as 
herring and/or a more diverse diet appear to be more suitable 
for sea lions. These studies suggest that diet and lack of 
diversity could be a leading cause for the decline of Steller 
sea lions. These captive studies need to be expanded and 
refined to help answer important questions regarding the 
relationship between the availability of certain species as 
food for sea lions and the robustness of the Steller sea lion 
population.

Ecosystem investigations

    There is a growing realization that quite possibly a major 
regime shift associated with the Pacific Decadal Oscillation 
(``PDO'') may help explain the long-term changes we have 
witnessed in the western population of the Steller sea lion. It 
has been hypothesized that changes in the position and strength 
of the Aleutian low pressure could be largely responsible for 
this regime shift and that this change resulted in fundamental 
changes in the production characteristics of the entire North 
Pacific Basin. One change may have been a reduction in the 
populations of oily forage species such as herring, smelts and 
capelin, all of potential importance in the diet of Steller sea 
lions. This in turn may have reduced the carrying capacity of 
the environment for Steller sea lions, which in turn would have 
resulted in a population decline. Unfortunately our historical 
knowledge of the characteristics of the Steller sea lion 
population is lacking, as is our understanding of the PDO and 
its effect on the Steller sea lion population.
    An examination of the PDO and its possible effect on the 
Steller sea lion population should become a focused research 
endeavor. Such a holistic approach to understanding the reasons 
for long term changes in the sea lion population would be 
consistent with the recommendations by the NMFS Ecosystem 
Principles Advisory Panel in their recent report to Congress 
entitled Ecosystem-based Fishery Management. Research into the 
environmental causes for changes in the sea lion population 
would benefit from the ``Integrated Ocean Observation Plan'' as 
recently recommended to this Subcommittee by the National Ocean 
Research Leadership Council.
    The foregoing comments on deficiencies in the NMFS research 
and management program on Steller sea lions, and ways in which 
the agency could improve or expand its current research program 
are not meant to be critical. I am acutely aware of the 
difficulties and costs involved in conducting research on 
Steller sea lions, particularly ecosystem studies. Our SSC has 
estimated the cost of improved and new research studies in the 
range of $10-14 million annually. They also have stressed the 
importance of improved communications on the part of NMFS so 
that inter-disciplinary and multi-institutional research 
efforts may emerge.
    I hope that my comments may be helpful in moving this much 
needed research regarding Steller sea lions forward on a broad 
front. Certainly if we are ever going to be able to manage our 
fisheries in an adaptive manner, we must gain a better 
understanding of the reasons for the Steller sea lion decline 
and the efficacy of management measures taken to mitigate this 
decline. Without such an improved understanding of the dynamics 
of the Steller sea lion population and its relation to the 
fisheries we risk impacting the recovery of the Steller sea 
lions and the health of the important pollock and other 
fisheries of the North Pacific.
    Thank you.

    Mr. Saxton. Thank you very much, sir.
    Dr. Rosenberg.

      STATEMENT OF DR. ANDREW ROSENBERG, DEPUTY ASSISTANT 
 ADMINISTRATOR FOR FISHERIES, NATIONAL MARINE FISHERIES SERVICE

    Dr. Rosenberg. Thank you, Mr. Chairman and members of the 
Subcommittee. I thank you for inviting me to testify before the 
Committee today on the science supporting NOAA Fisheries' 
recent biological opinion and the conservation measures to 
ensure protection for the endangered western population of 
Steller sea lions. I am Andrew Rosenberg, the Deputy Assistant 
Administrator for NOAA Fisheries, and I am accompanied by 
agency regional and headquarter staff to try to help answer 
your questions.
    NOAA is committed to the sustainable stewardship of marine 
fisheries, as well as to the protection and recovery of 
endangered and threatened marine species, and we recognize this 
dual commitment requires us to find a balance between 
endangered species protection and efficient utilization of 
fisheries for the U.S. fishing industry and the U.S. public.
    Today, I am here to discuss the recent management measures 
developed with the North Pacific Fisheries Management Council 
in response to our biological opinion to reduce the potential 
effects of Alaskan groundfish fisheries on Steller sea lions. 
Developing these measures has been a complex task due to the 
competing statutory responsibilities we have and the complexity 
of the biological, social and economic features of the problem, 
and in fulfilling our responsibilities, we have used the best 
available scientific and commercial information.
    A recent peer review just cited by Dr. Pereyra of the 
supporting science of the biological opinion stated, quote, the 
panel believes that in general the best available data and 
analysis were used in the preparation of the opinion, end 
quote. I would like to point out two features of the actions we 
have taken which we believe are innovative and, though 
controversial, vitally important in working towards prudent 
steps for protecting Steller sea lions in a reasonable manner 
for the fishing industry.
    Compared to many endangered species actions, we have had a 
very high level of public involvement in developing a plan to 
allow the fishery to operate without jeopardizing the sea lion 
population. We have had public meetings which normally is not 
the case with Endangered Species Act actions. We have had open 
meetings with industry and environmental groups. We have had 
direct and open interaction with the councils, and we have 
provided material on our web site prior to the conclusion of 
the biological opinion in order to allow the public to comment.
    Secondly, we have provided substantial flexibility for the 
council to help us address fishery-related concerns by crafting 
a framework of principles for reasonable and prudent 
alternatives, rather than a prescriptive solution to the 
problem. In other words, we have explicitly recognized in our 
biological opinion that there are many possible ways to 
accomplish the goal of protecting sea lions from the indirect 
effects of fishing.
    The western population of Steller sea lions was listed as 
endangered in 1997 because the measures in place to protect 
them have not halted the continued decline of the population, 
and it is vitally important to recognize that at issue in the 
opinion is the continued decline, not the cause of earlier 
declines, although they may be related, but they may not in 
many cases.
    The Endangered Species Act requires that each Federal 
agency ensure that any action carried out is not likely to 
jeopardize the continued existence of an endangered species or 
result in adverse modification of its habitat. That is the 
standard that we are working under, and to engage in that 
action--any action that is viewed as jeopardizing the continued 
existence means to engage in that action would reasonably be 
expected directly or indirectly to reduce appreciably the 
likelihood of both the survival and recovery of a listed 
species in the wild. That is the way the standard that we are 
working with under the Endangered Species Act reads.
    Our consultations focused on groundfish fisheries because 
these fisheries and Steller sea lions target the same prey. We 
have identified indirect interactions with fisheries as one of 
the factors that may have a continued impact on the ability of 
Steller sea lions to recover as well as to halt the decline in 
the first place. The removal of up to 70 percent of the 
pollock, total allowable catch, from critical habitat areas, 
combined with evidence that sea lions are nutritionally 
stressed, that pollock are their most important prey, that 
fishing and sea lion foraging overlap extensively, all indicate 
that fisheries are reasonably likely to compete with sea lions 
and jeopardize their population. This conclusion was confirmed 
by the recent independent peer review of the science.
    ESA requires when an interaction is likely to jeopardize a 
population that the agency prepare reasonable, prudent 
alternatives, and, Mr. Chairman, we are well aware that what is 
reasonable for the fishery and prudent for the sea lions is a 
judgment call that we are required to make, and it will always 
be controversial as evidenced by this hearing and the lawsuit 
in which we are currently engaged, and we believe we have been 
reasonable for many reasons, and I want to mention a few.
    We decided the evidence did not indicate that a reduction 
in overall pollock quota was necessary, and we also worked 
extremely hard, and I want to acknowledge NOAA staff here, to 
ensure that our protection measures were in place so that the 
fishery could open as planned on January 20th and proceed for a 
profitable A season which, in fact, did occur, taking the full 
quota for the A season this past year.
    In December the council voted to approve a motion 
containing a number of conservation measures for the first half 
of 1999, and again, we had the opportunity to allow the council 
to craft those measures as opposed to prescribe a set of 
measures that they had to adhere to. That is the framework 
principles that I described before.
    To be prudent for the sea lions, the reasonable and prudent 
alternatives, disperse the pollock fishery in time and space 
and protect sea lions from competition in waters adjacent to 
rookeries and haulouts.
    Our strategy for research and recovery of Steller sea lions 
is described in the Steller sea lion recovery plan, and that 
plan which is developed by experts from outside of NMFS, with 
one exception on the team, uses the same principles that we 
used in our reasonable and prudent alternatives. Towards this 
end, the recovery team in NMFS has recently completed four peer 
review workshops on different elements of the Steller sea lion 
research effort, and we hope to incorporate those in a revised 
recovery plan, which is our most urgent objective at this 
stage, is to revise the recovery plan.
    In summary, in the highly charged atmosphere dealing with a 
very complex issue, NOAA Fisheries is making an effort to 
strike a balance between the needs of the Alaska groundfish 
fishery and the needs to protect Steller sea lions, while 
fulfilling its various mandates under the law. In achieving 
this balance, the agency has made an unprecedented effort to 
maximize stakeholder input, but, Mr. Chairman, as with the 
terms ``reasonable'' and ``prudent,'' we recognize that one can 
never have enough stakeholder input for such an important 
action to satisfy everyone.
    The agency is prepared to work closely with stakeholders to 
ensure the future research and management plans will improve 
our ability to better evaluate fishery management alternatives 
to minimize impacts on the Steller sea lion population and, of 
course, on the fishery.
    Thank you for the opportunity, and I will try to answer any 
questions the Committee may have.
    [The prepared statement of Dr. Rosenberg follows:]

 STATEMENT OF DR. ANDREW A. ROSENBERG, DEPUTY ASSISTANT ADMINISTRATOR 
FOR FISHERIES, NATIONAL MARINE FISHERIES SERVICE, NATIONAL OCEANIC AND 
        ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to testify before the Subcommittee today on the 
science supporting NOAA Fisheries, recent Biological Opinion 
and the conservation measures to ensure protection for the 
endangered western population of Steller sea lions. I am Dr. 
Andrew Rosenberg, Deputy Assistant Administrator for Fisheries.
    The National Oceanic and Atmospheric Administration is 
charged with and committed to the sustainable stewardship of 
marine fisheries, as well as the protection and recovery of 
endangered and threatened marine species. We at NOAA's National 
Marine Fisheries Service recognize that this dual commitment 
requires us to find a balance that ensures the protection of 
species listed under the Endangered Species Act (ESA) while 
ensuring the optimal utilization of fisheries for the U.S. 
fishing industry. In finding this balance, we must comply with 
a number of legal requirements, including those of the ESA, 
Marine Mammal Protection Act (MMPA), Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act), and the 
American Fisheries Act. Of particular concern to the 
Subcommittee today are the recent management measures developed 
with the North Pacific Fishery Management Council in response 
to our biological opinion to reduce the potential effects of 
groundfish fisheries off Alaska, particularly the pollock 
fisheries, on Steller sea lions. Meeting these various 
requirements has been a complex task, as together they impose a 
number of competing responsibilities that must be met within a 
relatively short period of time. We believe we have fully 
complied with all of our statutory responsibilities in managing 
these fisheries, using the best scientific and commercial 
information available in the process. Furthermore, we have done 
this with a high level of public involvement for an ESA action, 
and we have provided substantial flexibility in the 
recommendations of the Biological Opinion to accommodate 
fishery concerns. Both of these features of the action, we 
believe, are innovative and helped us work through a very 
contentious issue.

Requirements of the Endangered Species Act

    The ESA requires that each Federal agency shall insure that 
any action authorized, funded, or carried out by such agency is 
not likely to jeopardize the continued existence of any 
endangered species or threatened species or result in the 
destruction or adverse modification of their habitat. Under the 
ESA, the term ``jeopardize the continued existence of'' means 
to engage in an action that reasonably would be expected, 
directly or indirectly, to reduce appreciably the likelihood of 
both the survival and recovery of a listed species in the wild 
by reducing the reproduction, numbers, or distribution of that 
species. The term ``destruction or adverse modification'' means 
a direct or indirect alteration that appreciably diminishes the 
value of critical habitat for both the survival and recovery of 
a listed species. Such alterations include, but are not limited 
to, alterations adversely modifying any of those physical or 
biological features that were the basis for determining the 
habitat to be critical.
    When Federal actions may result in an adverse effect, 
either on these species or their habitat, the agency 
responsible for the action must consult with either the U.S. 
Fish and Wildlife Service or NOAA Fisheries and develop 
reasonable and prudent alternatives (RPAs) to minimize or 
eliminate the adverse effect. NOAA Fisheries, as the agency 
responsible for authorizing the pollock fisheries as well as 
for protecting Steller sea lions, is both the ``action agency'' 
and the ``consulting'' agency in this case.
    On December 3, 1998, NOAA Fisheries completed an ESA 
Section 7 consultation on the pollock fisheries of the Gulf of 
Alaska and Eastern Bering Sea, and the Atka mackerel fisheries 
of the Bering Sea/Aleutian Islands region following an 
interactive process with the public and the North Pacific 
Fishery Management Council. The consultation considered the 
best scientific and commercial information available, including 
input received during two public meetings and a North Pacific 
Fishery Management Council meeting in the autumn of 1998 on 
possible alternatives to current fishing practices that would 
reduce the effects of the pollock fisheries on Steller sea 
lions. That consultation was summarized in a Biological 
Opinion, as directed by the ESA.
    The Biological Opinion contained a description of the 
proposed fishery actions, a review of the status of western 
population of Steller sea lions, and an analysis of factors 
that either may have or are known to have contributed to the 80 
percent decline of the western population of Steller sea lions 
over the past three to four decades. The Opinion recognized 
that commercial sea lion harvests, subsistence harvests, and 
incidental fisheries catch are known to have contributed to 
this decline. The Opinion also recognized that intentional 
shooting, ecosystem changes, killer whale predation, disease, 
and pollutants also have contributed to the decline. For 
example, considerable evidence developed by NOAA Fisheries and 
other scientists indicates that significant oceanographic 
changes have occurred in the Bering Sea and Gulf of Alaska 
ecosystems, with corresponding alteration of prey species 
available to Steller sea lions. As a result, the environment's 
carrying capacity for Steller sea lions may have been changed. 
In short, a number of factors have contributed to the decline 
of the western population of Steller sea lions.
    However, the consultation NMFS conducted last year was 
concerned with the factors contributing to the continued 
decline of Steller sea lions, not the original cause of the 
decline. During the consultation on the 1999 pollock and 
mackerel fisheries, NMFS examined a number of phenomena that 
might explain the continued decline of the Steller sea lion. 
Direct and indirect interactions with fisheries are among those 
factors which may continue to have a significant impact on the 
western population of Steller sea lions. Our consultations 
focused on the groundfish fisheries because these fisheries and 
Steller sea lions target the same prey.
    The potential for competition between the pollock and Atka 
mackerel fisheries and the western population of Steller sea 
lions is difficult to evaluate. The best available evidence 
suggests that Steller sea lions are nutritionally stressed. 
That evidence includes data on animal growth, condition, 
reproduction, and survival (particularly of juvenile sea 
lions). The evidence also indicates that pollock and Atka 
mackerel are major prey for Steller sea lions in both the Gulf 
of Alaska and the Bering Sea regions. In the majority of diet 
studies conducted to date, pollock or Atka mackerel have been 
the most frequently consumed prey.
    The question, then, is whether the removal of potential 
prey by the commercial pollock and Atka mackerel fisheries, as 
proposed, could reduce the foraging success of Steller sea 
lions and compromise growth, condition, reproduction, and even 
survival of individuals to the point that the population 
continues to decline or fails to recover. Scientific analyses 
indicate that the pollock fisheries of the Gulf of Alaska and 
Bering Sea overlap with foraging Steller sea lions in at least 
four important ways.
    First, the pollock fisheries and feeding Steller sea lions 
overlap spatially; that is, they occur in the same place. Since 
the mid to late 1980s, the proportion of the pollock harvested 
from Steller sea lion critical habitat in the Eastern Bering 
Sea has increased from 35 to 70 percent of the total Eastern 
Bering Sea pollock catch. The proportion of the pollock 
harvested from critical habitat in the Gulf of Alaska has 
remained high during the same period, at 50 to 90 percent of 
the total Gulf of Alaska pollock catch.
    Second, the pollock fisheries overlap in time with feeding 
Steller sea lions. Since the mid to late 1980s, large roe 
fisheries have developed on pollock during the winter period, 
when Steller sea lions (particularly juveniles and lactating 
adult females) are thought to be particularly sensitive to 
changes in availability of prey. In addition, these fisheries 
have become concentrated in time, increasing the likelihood 
that they result in localized depletions of prey. For example, 
since 1990, the Bering Sea pollock fishery has become condensed 
from about 10 months to less than 3 months.
    Third, the pollock fisheries and foraging Steller sea lions 
overlap in prey selection and prey size. As noted above, 
pollock is a major prey for sea lions. Furthermore, both adult 
and juvenile sea lions consume pollock of the same size as 
those taken by the fisheries.
    Fourth, the pollock fisheries and foraging Steller sea 
lions overlap with respect to the depth of trawling and 
foraging. While much remains to be learned about the diving 
capabilities of sea lions, the available information is 
sufficient to show that their diving patterns overlap with the 
trawling depths of the fisheries. Furthermore, the pollock 
resource also moves in the water column, from deeper levels in 
the daytime to shallower depths at night.
    Finally, analyses of prey biomass harvested from areas 
important to Steller sea lions indicate that the fisheries may 
remove 40 percent or more of the pollock available to Steller 
sea lions during some seasons. Essentially, the problem is not 
the total amount of pollock harvested from Alaska waters, 
rather the disproportionate amount harvested from critical 
habitat and the resultant potential for localized depletion.
    This extensive removal of pollock from critical habitat, 
combined with the evidence that sea lions are nutritionally 
stressed, that pollock are important prey, and that fishing and 
sea lion foraging overlap extensively, all indicate that the 
fisheries are reasonably likely to compete with the western 
population of Steller sea lions and significantly reduce their 
available prey. Based on this information, the Biological 
Opinion concluded that the pollock fisheries in the Bering Sea 
and Gulf of Alaska, as proposed, are likely to jeopardize the 
continued existence of the western population of Steller sea 
lions and adversely modify its designated critical habitat.
    Concerns about the Atka mackerel fishery were considered by 
the Council early in 1998. The fishery had become concentrated 
in both time and area, and evidence of resultant localized 
depletion of Atka mackerel was observed. In June, 1998, the 
Council recommended a regulatory amendment to spread the Atka 
mackerel fishery harvest over time and space to reduce the 
effects of competition between the Atka mackerel fishery and 
Steller sea lions. The Biological Opinion concluded that 
implementation of these conservation measures reduced the 
effects of the Atka mackerel fishery sufficiently to avoid 
jeopardy.
    The Biological Opinion was based on the best available 
scientific and commercial data, as analyzed by scientists both 
inside and outside of our agency. These scientific data and 
analyses were only part, but an important part, of the 
Biological Opinion and resulting conclusions. The North Pacific 
Fishery Management Council recently convened a review of these 
data and analyses by a panel of internationally known experts 
in marine mammal biology.

Development of a reasonable and prudent alternative with public 
and Council input

    Because Federal agencies cannot take actions that 
jeopardize a listed species or adversely modify critical 
habitat, the ESA requires that jeopardy and adverse 
modification be avoided through development of a reasonable and 
prudent alternative to the proposed action; in this case, 
authorization of the pollock fisheries. Development of the RPA 
was initiated in the fall of 1998, when the analyses of the 
Biological Opinion indicated that conclusions of jeopardy and 
adverse modification were likely. We drafted management 
measures and solicited public and Council input to ensure that 
the fisheries would be able to start in January 1999, as 
planned.
    Early analyses in the Biological Opinion indicated problems 
with the spatial dispersion of the fisheries, their temporal 
dispersion, and their potential to compete with sea lions in 
the waters immediately adjacent to rookeries and haulouts. In 
the fall of 1998, NOAA Fisheries staff began development of 
RPAs that would increase spatial and temporal dispersion, and 
protect prey resources around rookeries and haulouts. It should 
be reiterated that changes in the total amount of pollock 
harvest allowed were considered, but not deemed necessary.
    In October 1998, public workshops were held in Seattle and 
Anchorage. The purpose of these workshops was to enlist input 
from the public on measures to avoid jeopardy and adverse 
modification.
    In November 1998, the RPA was further developed and 
presented to the North Pacific Fishery Management Council. 
Again, input from the Council and from the public was solicited 
on measures to avoid jeopardy and adverse modification.
    In late November and early December 1998, NOAA Fisheries 
developed RPA ``principles'' to be included in the Biological 
Opinion, pending the final decision on jeopardy and adverse 
modification. These principles established the objectives to be 
met by the RPA as a framework, rather than specifying the exact 
measures to achieve those objectives. This provided the Council 
and the industry much greater flexibility in developing 
solutions to this problem than is usual for ESA actions.
    In December 1998, NOAA Fisheries took the framework RPA 
principles in the final Biological Opinion to the Council to 
seek their input on measures consistent with that framework 
that would avoid jeopardy to Steller sea lions and adverse 
modification of critical habitat. On December 13, 1998, the 
Council voted to approve a motion containing a number of 
conservation measures for the first half of the 1999 groundfish 
fisheries.
    On December 16, 1998, NOAA Fisheries accepted the Council 
motion, with some modification, as part of the RPA. We also 
recognized that additional measures would be required during 
the latter half of the 1999 fisheries to avoid jeopardy and 
adverse modification. These additional measures were discussed 
with the Council at its February meeting. Again, the Council 
and public were asked for input prior to the development of an 
environmental assessment for the Steller sea lions conservation 
measures needed for the latter half of 1999 and for the 2000 
fisheries and beyond.
    In April 1999, the Council was asked to review and release 
a draft environmental assessment on Steller sea lion measures 
so that final action could be taken in June 1999.
    In summary, the RPA, as developed to date, disperses the 
pollock fisheries in time and space, and protects sea lions 
from competition in the waters adjacent to important rookeries 
and haulouts. The goals of temporal dispersion were to protect 
portions of the critical winter period by prohibiting fishing 
from 1 November to 19 January, and to disperse the fisheries 
during the remainder of the year to avoid large pulses of 
fishing. The goals of spatial dispersion were to spread the 
distribution of the catch in a manner that mirrored the actual 
distribution of the pollock stocks and, where the stock 
distribution is not known, place a cap on the amount of the 
catch that could be taken from Steller sea lion critical 
habitat. Zones within which pollock trawling is prohibited were 
also established to fully protect sea lions (particularly 
juveniles and lactating females) from the possibility of 
competition for pollock in the waters adjacent to important 
rookeries and haulouts. The combined set of RPA principles 
outlined in the Biological Opinion were developed to achieve 
these goals.

Related litigation

    NOAA's management of the groundfish fisheries off Alaska is 
the subject of litigation in a Federal court. In that case, a 
number of environmental groups are challenging the 
environmental impact statement prepared for the Alaska 
groundfish fisheries, as well as the biological opinion 
addressing the effects of the pollock and Atka mackerel 
fisheries, and the biological opinion considering the effects 
of the other Alaska groundfish fisheries on Steller sea lions. 
Representatives of the groundfish fishing industry and Alaska 
fishing communities have intervened in the case and filed cross 
claims challenging, among other things, NMFS' emergency 
regulations under the Magnuson-Stevens Act that implement the 
reasonable and prudent alternatives identified in one of the 
biological opinions. Oral argument on some of the issues in 
this case was held on May 13th.

Steller sea lions and the American Fisheries Act

    While the RPA was being developed, the American Fisheries 
Act (AFA) became public law. The AFA has changed the structure 
and nature of the pollock fishery in the Bering Sea. The AFA 
has only been in effect since January 1999 and the full effects 
of its measures on the western population of Steller sea lions 
are not yet apparent. Based on the preliminary results, we are 
cautiously optimistic that some provisions of the Act will 
likely further our efforts to avoid jeopardy to the western 
population of sea lions and adverse modification of its 
critical habitat. In 1999, one sector of the pollock fleet, the 
catcher-processors, was able to establish a fishing cooperative 
which helped to avoid the ``race for fish,'' reduce the daily 
catch rates, and better disperse the catch over a longer period 
of time. These are preliminary results from the activities of 
only one of the four fishery sectors fishing during the first 
four months of 1999, but they are positive and encouraging. We 
hope to see similar progress in the other sectors, given the 
shift in allocation of pollock away from the catcher-processors 
towards the inshore and Community Development Quota, or CDQ, 
fleets. Our Alaska Region is working with the North Pacific 
Fishery Management Council to facilitate the full 
implementation of the AFA as soon as possible.

Steller Sea Lion Recovery Plan

    Our strategy for research and recovery of Steller sea lions 
is described in the Steller Sea Lion Recovery Plan (Recovery 
Plan). The first version of the Recovery Plan was completed in 
1992 by NMFS and the Steller Sea Lion Recovery Team. This 
version provided important directions for research into the 
causes of the decline and general management measures for 
facilitating recovery. Considerable progress has been made 
since 1992, and the Recovery Plan is now ready for revision. 
The Recovery Team and NMFS have recently completed four peer-
review workshops on different elements of the Steller sea lion 
research effort. The workshops and their recommendations will 
be used to revise and update the Recovery Plan. The revision is 
expected to be completed by the end of 1999.
    The completion of the revised Recovery Plan is our most 
urgent objective for management efforts related to Steller sea 
lions. The revised Recovery Plan will not only update the 
information on the status of the western and eastern 
populations, but will also incorporate the extensive research 
results obtained since 1992. In addition to direction for 
future research, the Recovery Plan will incorporate explicit 
management strategies to facilitate recovery of the species. 
The Recovery Plan will guide and coordinate the research and 
management activities of the multiple agencies involved with 
Steller sea lion recovery efforts. Finally, the Recovery Plan 
will also define the criteria needed to determine when the 
eastern and western populations have recovered and can be 
removed from the lists of threatened and endangered species.

General research direction and anticipated budget

    Specific research topics or themes will be identified and 
expanded during the revision of the Recovery Plan. Likely 
research themes will include research on population abundance 
and trends, life history, health foraging ecology, habitat, 
fisheries interactions, and environmental effects. NOAA 
Fisheries funding levels for Steller sea lion research in 1998 
was $720,000. In 1999, NOAA Fisheries has a $590,000 base level 
of funding, plus $850,000 for studies on the effectiveness of 
current management measures, and an additional $234,000 for 
recovery studies. When combined with other funding sources, the 
total 1999 funding level for Steller sea lion research is 
$3,604,000.

Summary

    In summary, NOAA Fisheries is making an effort to strike a 
balance between the needs of the Alaska groundfish fishery and 
the need to protect Steller sea lions while fulfilling the 
varying mandates of the Magnuson-Stevens Act, ESA, MMPA, and 
the American Fisheries Act. To achieve this balance, we 
considered the best available scientific information, and hold 
numerous public meetings to discuss possible alternatives with 
the North Pacific Fishery Management Council (, the fishing 
industry, environmental organizations and the public. We have 
used a flexible, innovative approach to meeting the mandates of 
the ESA because of the complexity of the issue and the legal 
mandates and because of the importance of the fishery. Future 
research and management plans will improve our ability to 
respond to our complex mandates, and will allow all 
stakeholders to better evaluate possible fishery management 
alternatives to minimize impacts on the western Steller sea 
lion population.
    Thank you for the opportunity to testify before the 
Subcommittee today. I am prepared to respond to questions 
members of the Subcommittee may ask.

    Mr. Saxton. Dr. Rosenberg, thank you very much for your 
statement.
    Ms. Wynne.

 STATEMENT OF KATE WYNNE, MARINE MAMMAL SPECIALIST, ALASKA SEA 
                 GRANT MARINE ADVISORY PROGRAM

    Ms. Wynne. Thank you, Mr. Chairman. I appreciate the 
opportunity to comment on the adequacy of the National Marine 
Fisheries Service's Steller sea lion research and management 
programs and on how they might be better integrated. My 
perspective is based on nearly 20 years of studying marine 
mammals and their interactions with fisheries, often from the 
deck of fishing boats, often working hand in hand with National 
Marine Fisheries Service on research, advisory and outreach 
projects, and usually, as here, in the midst of conflict.
    The Steller sea lion recovery plan published by NMFS in 
1992 clearly outlined research needs and a direction for the 
NMFS' Steller sea lion research program. I believe NMFS' 
scientists, directly and through collaborative studies, have 
conscientiously followed this direction in seeking to answer 
the question, ``why are Stellers declining and how can we help 
them recover.'' I believe NMFS and other researchers have made 
great strides toward understanding Steller sea lion biology and 
ecology and new techniques and technology give me great hope 
for future breakthroughs, but the causes for continued declines 
remain unclear, and why is that?
    The bulk of Steller sea lion research to date has focused 
on assessing the existence and mechanisms of food limitation. 
These are difficult animals and complex questions to study. The 
environment is dynamic, (and as we know, it is changing) and 
developing statistically reliable sample sizes is very time-
consuming. The research is challenging and understanding 
develops slowly. So, after a decade of concerted effort, even 
some fundamental information is incomplete and lacking.
    These scientific shortcomings become painfully obvious when 
they comprise the best available data used by sea lion managers 
to make decisions that have such hefty social and economic 
impact, decisions that are forced by uncertainty and by law to 
be conservative and risk adverse.
    Now, in the management arena, NMFS is being asked questions 
that are related but very different from those addressed in the 
recovery plan. They may require a very different research 
approach. Rather than seeking ecosystem level mechanisms that 
are limiting sea lion recovery, NMFS is being asked specific 
management-related questions like do humans and sea lions 
compete for the same prey, and what is critical habitat for 
Steller sea lions.
    This situation does beg for a review, not necessarily of 
the science involved but of how NMFS as an agency can better 
integrate the actions of their management and research 
programs. The left hand and the right hand need to be better 
coordinated.
    A case in point was the establishment of protective no-
trawl zones around Steller sea lion rookeries in the early 
1990s. A critical opportunity was lost when no experimental 
design nor follow-up research was incorporated into that 
action. Now, there is no way to assess the effectiveness of 
that measure nor to predict the usefulness and value of 
extending them further to protect haulouts.
    I encourage NMFS to continue monitoring the sea lion 
population and develop technology and studies that will refine 
our understanding of foraging requirements and other critical 
habitat needs of Steller sea lions. But I recommend that NMFS 
encourage its scientists to work more directly with its marine 
mammal and fisheries managers to design research that is 
management-related and hypothesis-driven, to design management 
actions as experiments, and to test the assumptions included so 
we can learn as we go, and most importantly to assure there is 
a means of measuring success built into every significant sea 
lion protective measure that clearly identifies goals and 
benchmarks so the efficacy of the action can be determined.
    Involving stakeholders in the design of such testable 
management actions perhaps in a manner modeled after the MMPA's 
take reduction teams would enhance their acceptance and 
utility, encourage constructive mitigation and reduce the need 
for retrospective analyses such as today's.
    Communication plays an indirect but critical role in 
building trust and, ultimately, reaching Steller sea lion 
research and management goals. Within NMFS and NOAA are gifted 
communicators who could help develop informative sea lion 
research updates and other means of increasing awareness and 
understanding at the grass roots level.
    These additional efforts will, however, require additional 
funding. NMFS' scientists already compete for a shrinking piece 
of the NOAA research budget pie. There are many high profile 
and critical marine mammal fisheries issues nationwide, 
including right whales and harbor porpoise in New England. 
Increased demands on the National Marine Fisheries Service's 
Steller sea lion research and management programs will, 
therefore, require congressional support and commitment.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Wynne follows:]

 STATEMENT OF KATE WYNNE, RESEARCH ASSOCIATE PROFESSOR, UNIVERSITY OF 
                ALASKA SEA GRANT MARINE ADVISORY PROGRAM

Preface

    The endangered western stock of Steller sea lions continues 
to decline but unlike most endangered species, the factors 
initiating their decline and hindering their recovery remain 
uncertain despite years of concerted study. This testimony is 
presented, upon request, to address the adequacy of the 
National Marine Fisheries Service's (NMFS) Steller sea lion 
research program and to comment on potential improvements and 
expansion. More thorough reviews of NMFS' sea lion research 
have been provided by independent reviewers, through a series 
Steller Sea Lion Recovery Plan workshops, and recently by the 
North Pacific Fisheries Management Council.
    The perspective I provide herein is a product of nearly 20 
years studying marine mammals and their interactions with 
commercial fishermen--often with fishermen on their vessels, 
often with NMFS in the field, often seeking understanding in a 
commonly thorny conflict arena. The opinions expressed herein 
are mine and do not necessarily reflect those of the 
institution I represent. [A Disclosure Form summarizing my 
professional experience and recent and proposed NMFS-supported 
projects is appended to this document.]

Background

    The Steller Sea Lion Recovery Plan (SLRP) published by NMFS 
in 1992 outlined research priorities and a clear direction for 
NMFS' Steller sea lion research program. Beyond monitoring 
population trends, the SLRP prioritized the research needed to 
address the question: ``Why are Steller sea lions declining and 
how can their recovery be encouraged?'' Although NMFS has 
management authority for Steller sea lions throughout the U.S., 
they have shared responsibility for SLRP-related sea lion 
research in Alaska with the Alaska Department of Fish and Game 
(ADFG). Additional Federal funding has supported Steller sea 
lion research at the Alaska Sea Life Center, the North Pacific 
Universities Marine Mammal Consortium, and numerous academic 
institutions.
    A number of sources of mortality were identified in SLRP as 
known or potential contributors to the population's historic 
decline but no single causative factor (``smoking gun'') has 
been found to account for continued declines. Consequently, by 
the mid-1990's, much of the research by NMFS and others focused 
on seeking evidence to support a single, common hypothesis: 
that food limitation (in prey quality, quantity, or diversity) 
is reducing survival of juvenile Steller sea lions.

Adequacy of NMFS' science

    Unlike El Nino-induced prey shortages, we are NOT seeing 
classic evidence of acute food shortage in the western stock of 
Steller sea lions (i.e. thousands of carcasses or starvelings 
washing ashore). NMFS and other investigators therefore have 
sought indicators of chronic nutritional stress and its 
potential impact on the population including physiological 
compromise detectable in blood parameters, growth and 
reproductive rates, and foraging effort. By comparing sea lion 
diet and condition over space (stable eastern stock vs 
declining western stock) and time (pre-decline vs post-
decline), researchers have sought to elucidate key changes in 
Steller sea lion habitat and determine the role of food 
limitation in the continued decline. Despite this concerted 
effort, evidence supporting the food limitation hypothesis 
remains weak.
    This has not been for lack of trying however. I believe 
NMFS and others have conscientiously addressed the questions 
they have asked. Our knowledge of Steller sea lion biology and 
ecology has grown tremendously in the past decade. But until 
recently, sea lion questions were asked in a broad ecosystem-
process context, as directed by the SLRP. By seeking sources of 
continued decline, NMFS and others have asked a complex set of 
questions where even the simplest components are logistically 
difficult, expensive, and time-consuming to answer. Hampered by 
these research challenges, even some seemingly fundamental 
questions remain unanswered (e.g. What and where do sea lions 
eat in the winter?) and the ``best available information'' in 
those areas may be suboptimal or incomplete. Such data 
limitations become particularly obvious and confounding when 
they form the basis for management decisions of social and 
economic significance.
    But NMFS is now being asked very different questions. 
Rather than questioning the mechanisms limiting sea lion 
survival, NMFS is being asked specific management-related 
questions: What direct and indirect impacts does a particular 
fishery have on sea lions and/or their prey? Are humans 
competing with or disrupting sea lion foraging behavior? What 
IS critical in a sea lion's habitat? How do fish populations 
respond to sea lion predation and human harvest? These are very 
different from SLRP questions and may require a revised 
research approach.

Integrate research and management

    In many cases, data needed for sound management actions are 
lacking because appropriate questions have not yet been asked. 
This argues for broader integration of NMFS' Steller sea lion 
management and research efforts. Research focused on specific 
management-related, hypothesis-driven questions can be designed 
to generate results with direct management application as well 
as broader ecosystem insights. Although belated, NMFS' recent 
steps to develop hypothesis-driven proposals for assessing the 
impact of commercial fishing pressure on sea lion prey 
distribution are a commendable move in this direction.
    The efficient coordination of NMFS' research and management 
efforts may be limited by NMFS' infrastructure and the vastly 
different timelines upon which research and management programs 
appear to operate. [There is often a multi-year lag in 
procuring research funding whereas management issues are often 
on shorter, more urgent schedules.] But the desirability of 
such coordination is exemplified by NMFS' establishment of 
protective buffer zones (trawl closure areas) around Steller 
sea lion rookeries in the early 1990's. A critical opportunity 
to study the effects of this management measure was lost when 
no experimental design nor follow-up research was incorporated 
into the buffer zone implementation. Consequently there has 
been no way to directly assess the efficacy of this measure or 
predict the efficacy of recently implemented trawl closures 
around haulouts. Such studies could have also been designed to 
shed light on sea lion habitat requirements and other trophic 
interactions.
    I recommend that NMFS' sea lion researchers work directly 
with managers to (1) design management actions as experiments 
and (2) develop a measure of success for all significant sea 
lion-protective measures implemented: identify goals and 
benchmarks so the efficacy of the action can be monitored.
    In addition, I believe stakeholder involvement in the 
design of such testable management actions may increase their 
utility and reduce the need for retrospective negotiations or 
critiques of assumptions and science involved. ``Take Reduction 
Teams'' (TRTs), authorized under the MMPA to develop plans for 
reducing incidental fishing mortality of strategic stocks, may 
provide a model for addressing specific sea lion-fishery 
interactions. Like TRTs, this team could be comprised of 
biologists and stakeholder representatives, have a limited 
focus and tight timeline, and develop with NMFS a fishery-
specific research plan with clear goals and benchmarks for 
success. Unlike TRTS, this proposed team would address 
competitive or indirect interactions between sea lions and 
fisheries, rather than incidental take.

Communication

    The fact this hearing is being held demonstrates that 
Steller sea lion problems go beyond science and that NMFS 
should make a concerted effort to improve communications with 
the public. Misunderstanding and confusion about NMFS' goals 
has spawned grassroot-level mistrust and resistance to 
management actions and led to counterproductive expenditures of 
time and money. I believe we all see Steller sea lions in 
crisis and share common goals for their recovery--albeit for 
different reasons (biological, social or economic). The 
following NOAA communication efforts are suggested as steps to 
enhance public awareness, understanding and cooperation.

        <bullet>NOAA's newly appointed Fishery Ombudsman will likely 
        encourage upper level coordination of marine mammal and 
        fisheries issues.
        <bullet>Outreach at local level: NMFS can facilitate public 
        access to research results through direct mailings of NOAA Tech 
        Memos to affected AK coastal community libraries, and funding 
        should be sought to support NOAA development of a semi-annual 
        newsletter highlighting sea lion research plans and results by 
        NMFS and other researchers.
        <bullet>Alternate Peer Review: consider requesting the Alaska 
        Scientific Review Group (ASRG) to formally review the design 
        and goals of proposed NMFS' sea lion studies. Currently NMFS 
        presents the ASRG with annual updates on funded sea lion 
        research plans and specific sea lion study results upon request 
        but does not request study plan review.

               Comments on NMFS Steller Sea Lion Research

Kate Wynne, Research Associate Professor
University of Alaska Sea Grant Marine Advisory Program
    Research by NMFS and others has made great strides toward 
understanding Steller sea lion biology and ecology but cause(s) 
of continued declines remain unclear.
    The bulk of Steller sea lion research effort this decade 
has focused on assessing the existence and mechanisms of 
potential food limitation. The questions and animals are 
difficult to study and many questions fundamental to management 
needs remain unanswered.
    Research based solely on this single hypothesis may no 
longer be justified.
    Recommendations: NMFS researchers should work more closely 
with the agency's fish and sea lion managers to (1) design 
management-related, hypothesis-driven sea lion research, (2) 
design management actions as experiments and (3) develop a 
measure of success for all significant sea lion-protective 
measures implemented, identifying goals and benchmarks so the 
efficacy of the action can be monitored.
    Communication plays an indirect but critical role in 
affecting Steller sea lion research and management goals. NMFS 
can and should encourage increased awareness and understanding 
of their research and management goals at the grass roots level 
and higher.

    Mr. Young. [presiding.] Thank you, Kate. Dr. Lavigne.

      STATEMENT OF DR. DAVID LAVIGNE, EXECUTIVE DIRECTOR, 
            INTERNATIONAL MARINE MAMMAL ASSOCIATION

    Dr. Lavigne. Thank you, Mr. Chairman. Mr. Chairman, members 
of the Subcommittee, first, thank you for the invitation to 
appear before you today. I would like to begin by providing you 
with a bit of personal background in the history of my 
involvement in the Steller sea lion issue.
    I am the Executive Director of the International Marine 
Mammal Association, a not-for-profit organization concerned 
with the conservation of marine mammals. I am also an adjunct 
professor in the Department of Zoology, University of Guelph, 
where I held a faculty position from 1973 through 1996. I am a 
member of IUCN Seal Specialist Group, and I serve on the 
Pinniped Fishery Interaction Task Force on the Sea Lion/
Steelhead Conflict at Ballard Locks.
    My involvement in the Steller sea lion issue began in March 
of 1991 when I was invited to participate in the Is it Food? 
workshop held at the University of Alaska Fairbanks. Later that 
year I submitted an affidavit in the 1991 sea lion litigation. 
At that time, NMFS acknowledged that the commercial pollock 
fishery may adversely affect Steller sea lions, but concluded 
that no harm was likely because the causal connection had not 
been definitively proven. I argued that NMFS' conclusion was 
scientifically unjustified because the process of science does 
not and cannot prove hypotheses. Rather, it attempts to reject 
them.
    The pollock fisheries continued between 1991 and 1998, and 
in 1997, as we all know, the status of the western population 
of Steller sea lions was upgraded to endangered. In March of 
1999 the Earthjustice Legal Defense Fund asked me to review 
materials related to Steller sea lions, including the latest 
biological opinion, and last month I was invited to make a 
presentation before the Northwest Fishery Management Council's 
panel of independent scientists in Seattle.
    I will now address briefly some of the scientific issues 
about which you have asked witnesses to testify. One, the 
biological opinion. In my opinion, the best available 
scientific and commercial data support a conclusion that the 
pollock fisheries compete with the western population of sea 
lions. This does not mean, I must emphasize, that such 
competition has been demonstrated conclusively. Rather, it 
means that the data and analyses reasonably support the 
conclusion that the pollock fisheries are likely to jeopardize 
the continued existence of the endangered western population of 
Steller sea lions and adversely modify its habitat.
    Two, the reasonable and prudent alternatives. Here, I 
diverge from the views expressed in the biological opinion. In 
my opinion, the proposed RPAs are unlikely to avoid jeopardy 
and adverse habitat modification for the endangered Steller sea 
lions because they do not remedy the factors that led NMFS to 
reach its conclusions of jeopardy and adverse modification.
    Three, the adequacy of NMFS' scientific research program. 
It is my impression that NMFS' scientists have tried to devise 
the best possible research program within the limits of the 
available funding, given the difficulties of working with a 
threatened and subsequently endangered species and the 
logistical realities of working on Steller sea lions in their 
remote northern terrestrial and marine environments.
    I also suspect that they would be the first to admit that 
the program could have been better if they had more research 
funding and additional human resources, and I would agree with 
such an assessment.
    How could NMFS improve or expand its current research 
program? Well, there are a number of areas where additional 
scientific information is required to improve the basis for 
making future determinations on the likely effects of the 
pollock fishery on the endangered Steller sea lions. These 
include, one, as the review panel noted, there is a need for 
additional research to delineate better the critical habitat of 
Steller sea lions.
    There is also a need, I feel, to obtain a better 
understanding of the nature of the, quote, harsh winter period, 
and its potential consequences for Steller sea lions.
    We also need to obtain data on the abundance of pollock in 
specific areas, particularly in sea lion critical habitat and 
at specific times, before, during and after commercial fishing 
in an area to better understand the extent to which the 
fisheries may cause local depletion of pollock and over what 
period of time.
    And finally, four, I think we need to take a more 
experimental approach to fishing to really test the hypothesis 
that the pollock fishery competes with the endangered Steller 
sea lion.
    I would like to end my statement with one additional 
comment. The available scientific information comes in a 
variety of forms. These include peer-reviewed primary 
scientific literature published in independent journals, the 
so-called grey literature, government reports and the like, 
reports from meetings, unpublished reports and anecdotal 
accounts. There is a tendency, particularly among non-
scientists and the media, to give equal weight to claims 
arising from all of these sources. Scientists, on the other 
hand, who are or should be skeptical by their very nature will 
instinctively treat the information in the various sources 
above with increasing vigilance as they proceed from the peer-
reviewed literature at one end of the spectrum to anecdotal 
reports at the other.
    It may be of some use to your Committee to apply a similar 
approach in evaluating the scientific information presented to 
you. This is important, I think, because some of the apparent 
scientific controversy on this issue has been generated by 
unpublished and anecdotal information which has been introduced 
into the scientific debate in unconventional ways.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Lavigne follows:] 

    [GRAPHIC] [TIFF OMITTED] T8051.010
    
     [GRAPHIC] [TIFF OMITTED] T8051.011
    
     [GRAPHIC] [TIFF OMITTED] T8051.012
    
     [GRAPHIC] [TIFF OMITTED] T8051.013
    
     [GRAPHIC] [TIFF OMITTED] T8051.014
    
     [GRAPHIC] [TIFF OMITTED] T8051.015
    
     [GRAPHIC] [TIFF OMITTED] T8051.016
    
     [GRAPHIC] [TIFF OMITTED] T8051.017
    
     [GRAPHIC] [TIFF OMITTED] T8051.018
    
     [GRAPHIC] [TIFF OMITTED] T8051.019
    
     [GRAPHIC] [TIFF OMITTED] T8051.020
    
     [GRAPHIC] [TIFF OMITTED] T8051.021
    
     [GRAPHIC] [TIFF OMITTED] T8051.022
    
    Mr. Young. Thank you, Doctor.
    Mr. Marks.

        STATEMENT OF RICK MARKS, STELLER SEA LION CAUCUS

    Mr. Marks. Mr. Chairman, when you drop that gavel today and 
we all go home, 20 Alaskans will have traveled 80,000 miles and 
spent 20,000 of their own dollars to come here and let this 
Committee know that this is a crisis situation in Alaska. These 
Alaskans are members of the Steller Sea Lion Caucus, which 
includes Unalaska, Akutan, Aleutians East Borough, False Pass, 
King Cove, Kodiak, Kodiak Island Borough and Sand Point. These 
communities, which are in closest proximity to Steller sea lion 
haulouts and rookeries, are heavily dependent on Bering Sea and 
Gulf of Alaska and other groundfish fisheries for employment 
and for municipal tax revenues.
    I would like to preface my remarks by telling you that 
recently we have had some very good discussions with the 
National Marine Fisheries Service regarding research. There is 
a scientist in Kodiak right now working with our folks and that 
we will participate proactively with the agency to develop a 
research program.
    However, Mr. Chairman, I am here to tell you on behalf of 
the caucus that the Steller sea lion management process has 
broken, and I am going to tell you why, but first, I will tell 
you what the council thinks about it, and I quote, ``there is 
considerable scientific uncertainty regarding the relationships 
between pollock fisheries and the western population of the 
Steller sea lions. The uncertainty has placed the industry at 
risk and forced the council to react to ESA concerns in a very 
compressed time frame and make critical decisions based on 
incomplete and conflicting data. This is not acceptable.'' That 
is from the council's December meeting.
    Steller sea lion conservation measures are implemented as 
amendments to council-managed FMPs. The council and the public 
should have had full access through the Magnuson-Stevens Act 
public participation process. Unfortunately, this did not occur 
properly, and I am going to tell you why.
    Greenpeace, et al., filed against the Secretary on April 
15th. NMFS was on notice for at least six months that they were 
in a dogfight with the environmental industry. However, at the 
October council meeting the science and statistical committee 
minutes did not have any reference to the Steller sea lion 
issue. Clearly, as late as October, the scientific arm of the 
council never had any clue it was going to be playing a role in 
such a divisive and time-sensitive issue.
    The draft biological opinion was dated October 22nd, and 
that already included RPAs directed only at the pollock trawl 
fishery before any substantive council or public consideration 
and in advance of the formal jeopardy finding. Since the RPAs 
are only required in cases of jeopardy, the agency had 
predetermined a condition of jeopardy and predetermined that 
pollock trawling was the sole cause of the problem. The council 
was informed by NMFS at the November meeting that it would be 
required to address the RPAs at the December meeting. However, 
NMFS did not provide the 200-plus page biological opinion until 
December 3rd, leaving just three days before the start of the 
council meeting and no time for a substantive review of the 
document by anyone, in particular the public.
    This is clear in that the SSC stated at the December 
meeting, quote, ``The process has hampered the SSC's ability to 
thoroughly review the document, and although the SSC was 
requested to comment on appropriate actions, we were not 
presented with information to complete such a task and there is 
an inadequate understanding of the roles of the council, the 
public, the SSC and in the ESA legal process.''
    Despite the fact that the agency had six months advance 
notice, mitigation measures were still implemented under an 
intolerable time frame as emergency regulations despite the 
council having no scientific information on which to base their 
decisions and that the agency has not provided any indication 
in the fact that the situation was any different from any other 
years when no jeopardy determinations were made. Clearly the 
lawsuit was both the difference and the emergency, and to wait 
six months to do anything suggests that there was not going to 
be an open process to include anyone.
    In addition, the only formal conduit for constituent 
participation is the Steller sea lion recovery team. NMFS' 
staff informed the advisory panel at the December council 
meeting that the recovery team was not consulted at all in the 
development or implementation of the biological opinion or the 
RPAs.
    I would like to comment to Dr. Rosenberg's point about the 
independent review substantiating the agency position. I would 
like to read, the independent review also includes a few other 
things, which I will quote, ``The relative importance of 
environmental changes in carrying capacity versus the effects 
of commercial pollock fisheries in the BSAI, in the Gulf of 
Alaska on hypothesized food shortages to Steller sea lions is 
unknown.'' Ongoing, ``It is not possible to know if RPAs 
specified in the opinion will significantly promote the 
recovery of the western stock of Steller sea lions,'' and 
finally, ``high priority should be given to research.'' But 
here's the nut, Mr. Chairman, we don't have a research program 
and for nearly a decade we have not had one, and we are no 
closer to Steller sea lion recovery.
    To make matters worse the agency has proposed a $1 million 
net reduction in Steller sea lion funding for the year 2000. 
That money was being used to deal with energetics, foraging 
dynamics and Steller sea lion/killer whale interactions. That 
is what that money was going to be for. Clearly, we have got a 
problem, and this process continuing will continue to make the 
agency vulnerable to ESA-driven lawsuits and the industry to 
sudden untested restrictions.
    The Greenpeace staff has already informed the SSC and the 
public at the December council meeting that pollock-style 
litigation on Atka mackerel and Pacific cod are next up on the 
hit parade.
    I will conclude, Mr. Chairman, Steller Sea Lion Caucus 
submits that there is a stronger correlation between 
environmental lawsuits and trawling restrictions than there is 
between Steller sea lions and commercial fishing. The only way 
to insulate the agency in the industry from economy-trashing 
lawsuits is for Congress to build accountability into a 
scientific, administrative and stakeholder process, and this is 
how we can do it.
    Formalizing the agency Steller sea lion research program 
which incorporates a peer review. It requires annual reporting 
of progress and research prioritization. We can also formalize 
and fund a peer-reviewed independent Steller sea lion research 
program based in Alaska that can test all hypotheses, not just 
those of the agency's liking.
    We can create and fund a Steller sea lion position at the 
council, specifically designated to work cooperatively with the 
agency and the public to ensure efficient communication and 
development of an EIS process whereby new information is 
continually rolled into the council's EIS process.
    We can use this year's MMPA reauthorization to implement a 
take reduction team-style program for Steller sea lions in 
Alaska. We can ensure that the agency is accountable and 
responsive to Secretarial Order #3206 with respect to native 
tribal entities, and we can also require the agency to 
reconstitute and reinvigorate the Steller sea lion recovery 
team.
    Mr. Chairman, on behalf of the Steller Sea Lion Caucus, I 
thank you very much for that opportunity.
    [The prepared statement of Mr. Marks follows:] 

    [GRAPHIC] [TIFF OMITTED] T8051.023
    
     [GRAPHIC] [TIFF OMITTED] T8051.024
    
     [GRAPHIC] [TIFF OMITTED] T8051.025
    
     [GRAPHIC] [TIFF OMITTED] T8051.026
    
     [GRAPHIC] [TIFF OMITTED] T8051.027
    
     [GRAPHIC] [TIFF OMITTED] T8051.028
    
     [GRAPHIC] [TIFF OMITTED] T8051.029
    
     [GRAPHIC] [TIFF OMITTED] T8051.030
    
     [GRAPHIC] [TIFF OMITTED] T8051.031
    
     [GRAPHIC] [TIFF OMITTED] T8051.032
    
     [GRAPHIC] [TIFF OMITTED] T8051.033
    
     [GRAPHIC] [TIFF OMITTED] T8051.034
    
     [GRAPHIC] [TIFF OMITTED] T8051.035
    
     [GRAPHIC] [TIFF OMITTED] T8051.036
    
     [GRAPHIC] [TIFF OMITTED] T8051.037
    
    Mr. Young. Thank you, Mr. Marks. I want to thank the panel. 
This is an excellent panel. Mr. Hansen, do you have any 
questions?
    Mr. Hansen. No, Mr. Chairman, I don't have any questions.
    Mr. Young. I will have some questions. Don't act so 
surprised. Because I came in late, I thought I would give you 
the first opportunity. Mr. Gilchrest?<plus-minus>
    Mr. Gilchrest. I don't mind going.
    Mr. Young. Go right ahead.
    Mr. Gilchrest. It probably would help if I went after you, 
Mr. Chairman, but I guess a couple of basic questions. Do sea 
lions or juvenile sea lions eat pollock? I guess, does 
everybody agree that they eat pollock?
    Ms. Wynne. At different times of the year, yes.
    Mr. Gilchrest. Everybody agrees that they eat pollock, and 
are they an important source of nutrients for their diet, a 
major source of nutrients? It seems that some people up here 
disagree how important the pollock are to the sea lions, and I 
guess NMFS had decided that they are an important source so 
there needs to be a reduction in the catch or some type of 
buffer between where the sea lions are and where the pollock 
are, and that is the disagreement that Mr. Marks has with NMFS.
    Dr. Rosenberg. If I may, Congressman, it is clear that sea 
lions eat pollock. It also is clear that pollock is the most 
important prey item currently for sea lions. We are not 
maintaining that there needs to be a reduction in pollock 
fishing but that that fishing needs to be spread out in time 
and space so that it does not overlap with sea lion feeding 
areas quite so much as it currently does.
    Mr. Gilchrest. How would that impact the fishermen?
    Dr. Rosenberg. Well, that, of course, is the difficult and 
controversial part. It impacts different types of fishermen in 
Alaska in different ways. In many cases, the impact, which is--
well, in all cases, the impact is economic, although in some 
cases it relates to safety because it may require fishermen to 
either stay at sea longer or to move to additional areas. That 
is of great concern certainly in the industry and of great 
concern to us.
    What we are trying to do and believe that we have done for 
the first season within Alaska, the first six months of the 
year, is to accomplish those goals but still allow the catch to 
be taken in an economic fashion, and that is our understanding 
of the progress of the first season and not to increase, 
certainly not to increase risk to fishermen by spreading it out 
in as reasonable a way as we can.
    Mr. Gilchrest. If I could just get to Mr. Pereyra.
    Dr. Pereyra. Yes, Mr. Chairman.
    Mr. Gilchrest. Did you call me Mr. Chairman? That might be 
the future, I guess. Not for a while, Don.
    Mr. Pereyra, what part of Mr. Rosenberg's statement will 
you disagree with?
    Dr. Pereyra. Well, I think I can't disagree with the 
statement in that portion of it but I don't think it tells the 
whole story. If you go back in time and even the NMFS' data 
will show that small pelagic schooling species, like smelt, 
herring and capelin and so forth, back in the early seventies 
and so forth, were the principal diet of the Steller sea lions 
and that----
    Mr. Gilchrest. Why are they not?
    Dr. Pereyra. Now, we find them eating pollock. We also find 
them----
    Mr. Gilchrest. Why are they eating pollock now instead of 
the others?
    Dr. Pereyra. It is the only thing that is left.
    Mr. Gilchrest. Why is pollock the only thing that is left?
    Dr. Pereyra. Because of this regime shift which occurred 
back in the seventies. I mean, this seems to be one of the 
hypotheses that has been put forward.
    Mr. Gilchrest. What do you mean regime shift?
    Dr. Pereyra. Well, the Aleutian low pressure system which 
tends to dominate the circulation pattern of the north Pacific 
moved, and that caused the temperature regime in the Bering Sea 
to become much warmer. It also changed the current patterns, 
and that is looked upon as being one of the influencing 
factors, along with the elimination of many of the apex 
predators, like whales, for example. Over 75,000 whales were 
taken out of the north Pacific, also, and those factors have 
changed the actual composition of the resources which were 
available for Steller sea lions and it is sort of similar if 
you had elk eating----
    Mr. Gilchrest. The Steller sea lions didn't move, though?
    Dr. Pereyra. No. Steller sea lions are a land mammal, so 
they are sort of restricted to the land, and that is one of the 
problems we face. We don't have a really, what I would say a 
good picture as to what the causative factors are here, and 
just because they are eating pollock today doesn't necessarily 
mean that, in fact, we have a cause and effect relationship.
    The other thing which I think the NMFS' data shows is that 
the size spectrum of pollock which the juveniles are consuming 
tends to be smaller than those which are found in the 
commercial fishery. Also, the smaller pollock tend to be higher 
up in the water column than where the commercial fishery is 
prosecuted.
    So you have a natural separation just by the way in which 
the different sizes of pollock are distributed. If pollock was 
really and the fishery were really interacting, we would be 
having a serious problem with the pollock fishery intercepting 
Steller sea lions in our nets and we don't. The data shows that 
we don't, and we have observers out on our boats. So that is--I 
don't know if that is satisfactory.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. Young. Thank you. You can ask other questions down the 
line. You all right? Okay.
    Dr. Rosenberg, your testimony implied that the budget for 
Steller sea lions research actually increases in fiscal year 
2000. Mr. Marks says it decreases by $1 million. Where are we 
on the NMFS' study program of good science?
    Dr. Rosenberg. Mr. Chairman, I am sorry if I gave the 
impression that the request increases in the year 2000. There 
has been a substantial increase from '97 to '98 and from '98 to 
'99 in Steller sea lion research. For 2000 the request is lower 
in fact, not the agency's request, I would have to say the 
President's request of course because there are many competing 
interests. The agency has talked with the council and with the 
recovery team, and we have quite a long list of research we 
would like to do, and I think the figure was used before of a 
$10 million research program. That comes from the discussions 
we have had with the recovery team and with the council. We can 
certainly identify $10 million worth of projects, but in the 
overall competing priorities within the budget, the President's 
request does include a decrease in the year 2000. Not far----
    Mr. Young. Specifically for Steller sea lions?
    Dr. Rosenberg. In terms of line items, specifically for 
Steller sea lions.
    Mr. Young. But this is the most crucial area we are dealing 
with right now under NMFS; is that correct?
    Dr. Rosenberg. It is a very important area. There is 
obviously many important areas.
    Mr. Young. If we are to give you some money, you are going 
to go forth with the study or should we give it to Kate?
    Dr. Rosenberg. In fact, Mr. Chairman, we do give money to 
Kate because she does extremely good research. Currently, as 
does the State, we would go forward with research programs 
cooperatively with the State, the Sea Life Center, the North 
Pacific Marine Mammal Consortium if we have the opportunity to 
do so. That depends on the resources available to us in 
addition to our own program, of course.
    Mr. Young. My concern, and I will get back to a couple of 
others here, but NMFS made 39 determinations, 39 of them, 
Bering Sea, Aleutian Island, Gulf of Alaska, pollock fisheries 
does not cause jeopardy to the Steller sea lion's population. 
December 1998 NMFS reversed course about 100 percent and made a 
jeopardy finding that BS and AI and Gulf of Alaska pollock 
fisheries do cause jeopardy. Now what information did you base 
that on it was different prior to 1998 because you don't have 
the science to do that.
    Dr. Rosenberg. Actually, earlier in the year, in 1998, at 
the beginning of the year, in our consultation then, we 
indicated that there was new information related to continuing 
decline of the population and, in fact, overlap of feeding 
areas and fishing areas and that it clearly was cause for 
concern and that we would continue to work on that. In 
addition--so that was at the beginning of the year. It was not 
in--well before October of 1998.
    In addition to that, we were engaged in a consultation on 
the Atka mackerel fishery which the council responded to by 
providing measures to spread out the fishery, exactly the same 
kinds of things we are talking about for pollock, much earlier 
in the year, and we had been discussing the changes in the 
Steller sea lion population that had occurred which were causes 
for concern well before October '98.
    So, yes, we did believe that prior to that time that the 
measures we had in place were working but there was clear 
evidence in late '97 or early '98 that the decline was 
continuing and that we needed to try to find some other means 
of arresting that decline and ultimately reversing it.
    Mr. Young. Well, I have a letter here October 1998 that 
says in conjunction with the listing chase, NMFS indicated it 
was taking steps to reassess the effectiveness of existing 
protective measures. Given the current understanding of sea 
wolf/fishery prey interactions, additional research is 
warranted prior to establishing revised management actions.
    Dr. Rosenberg. Mr. Chairman, I believe you are referring to 
a Marine Mammal Protection Act report. I would certainly say 
that it is correct that we would like to have additional 
research. In fact, I would probably have to return my Ph.D. if 
I didn't always say at the end of every discussion that I would 
like to have more research and better information. We certainly 
believe that that is an important thing to do, but under the 
Endangered Species Act we don't feel that we have the ability 
to simply wait for that conclusive research. The standard we 
are working to is likely to jeopardize the continued existence, 
and the information we have at hand as validated by the peer 
review panel indicates that we are likely to jeopardize the 
continued existence of this stock.
    Mr. Young. Of course, you and I have a great difference of 
opinion on that, and, number one, I don't believe NMFS right 
now is on my blacklist, if you want to know the truth, because 
you are supposed to be an agency that promotes, advises and 
maintains a single yield of fisheries. Now you say you are 
implementing the Endangered Species Act, but you are doing it 
without information scientific, and a number of Steller sea 
lions, whoever established how many should be there I don't 
know, and what basis it was established on. What bothers me 
also, your research has never taken consideration of predator 
problems, and doctor, thank you for bringing that up. You know, 
every time there is a decrease in species, NMFS says it is the 
fault of the fishermen. Now, you cannot convince me of that. 
Not only are there whales that occur in this, there are other 
factors that could be possibly part of the problem. Now you are 
affecting the great many people's lives with danger and, if my 
information is correct, in 1990 we set aside restricted areas 
and no one has done any research in seeing where that has 
improved the sea lion population. Now, if you haven't studied 
that, how do you know what you are imposing, and the doctor 
just explained it very carefully, most of what the sea lions 
consume are at a different level and we have no interdiction or 
bycatch of sea lions by the pollock fisheries. So what do you 
base this on that this causes the problem, the pollock fishery 
causes the problem in the decline of sea lions, when you 
haven't studied the areas you set aside in 1990? That was nine 
years ago.
    Dr. Rosenberg. Mr. Chairman, you indicated that I couldn't 
convince you so I am not sure that I should try.
    Mr. Young. You can try because you are paid for it.
    Dr. Rosenberg. Okay. In that case I would like to try.
    Mr. Young. All right.
    Dr. Rosenberg. First of all, I disagree with the assertion 
that we have not looked at the measures we have in place. We 
have certainly continued to do pub and nonpub surveys in those 
rookery areas. We have done feeding studies in those rookery 
areas. We have done designs for the kinds of experiments that 
people would like to do which are extremely difficult to do; 
that is, to assign to a particular protection area exactly how 
much protection it provides to the population as a whole. We 
have done tagging studies or, if you like, tracking methods to 
monitor trends in individuals for those protected areas and at 
haulout sites and rookeries. So we have done an extensive 
series of studies of what is going on within the rookery areas, 
those areas that we are protecting.
    In addition to that, we have monitored the population, 
which is the ultimate measure of whether those protection areas 
are sufficient. I would say that it is pretty clear that they 
are not sufficient because the population is declining, but 
that does not mean in any sense that they are either 
unimportant or ineffective. We certainly would think that the 
population would have declined much more than it did if we did 
not have the existing protection measures in place around 
rookeries and haulouts.
    Mr. Young. Let me go back to the comment of Dr. Pereyra, is 
it right, the comment where there has been no interdiction of 
sea lions during pollock fishery. Now, where is the scientific 
information available that says the pollock fishery affects the 
sea lion? Apparently, there is availability of fish, you let 
them catch the quota, the quota is out there, and my 
information is there is a huge amount of fish with no decline 
in the population of pollock. Now, how can you relate the 
theory that the fishery is causing the decline? Have you 
considered other predators, not only the whales, but others 
maybe that affect the fish stock itself being part of the 
problem? If you are not catching them in the nets, you are not 
disturbing them by the vessels, where do you get your 
correlation that the fishing is a problem?
    Dr. Rosenberg. While I would agree we are not currently 
catching sea lions in the nets, I believe historically there 
was a much larger incidental take and a direct take of sea 
lions. However, it is very clear and there is ample sighting 
evidence that the fishery is operating in areas where sea lions 
feed. I don't agree with Dr. Pereyra that the depth or size 
composition is different for the sea lions as it is for the 
fishery. I don't agree that that is interpretation of our data 
and our biological opinion doesn't agree with that. So we have 
no question that there is an overlap in terms of the areas and 
an increasing overlap because the fishery has increasingly 
moved into the critical habitat area, such that now in recent 
years, until this year, up to 70 percent of the catch was taken 
within the critical habitat area, which was defined by where 
sea lions feed and live.
    So there is a clear relationship spatially between where 
the fishery operates and where the sea lions are feeding and 
growing. There also is very clear information that indicates 
that the dominant prey item for sea lions is pollock currently. 
It may well be true that in the past they fed on other kinds of 
fish that were more available at the time. Those fish are not 
available to them now. They are currently feeding on pollock.
    Mr. Young. How many square miles does that critical habitat 
encompass?
    Dr. Rosenberg. I don't know that number off the top of my 
head.
    Mr. Young. Is that some more of that scientific information 
you used to make this decision?
    Dr. Rosenberg. Well, I certainly can get you the number. I 
am afraid I just don't know it off the top of my head, Mr. 
Chairman.
    Mr. Young. I have this deep concern in this issue, and I am 
going to try to convince your agency and the Congress to see if 
we can't have more true science involved because I don't think 
you have the true science. I mean, it is not your fault, but 
you are making decisions that it does have a great effect upon, 
not only individuals, but also maybe the fishery itself, as the 
doctor has mentioned.
    I think that, you know, Kate has got a good operation in 
Kodiak. I don't see any reason why there can't be some more 
activities in that arena. I also don't think you can divorce 
the seal problem away from the sea lions problem. They are 
predators. No study has been put into that. I think there is a 
great deal--and your enthusiasm to respond to certain interest 
groups and not using sound science has put into question the 
National Marine Fisheries Service.
    I have been with this outfit for 26 years, and I have 
slowly seen a decline of this branch and not really, I think, 
fulfilling their obligation to the fisheries. You know why you 
were created. If you go back to the history of it, you might 
have a better understanding of why you are sitting at that 
table and I do believe that the fishing and the sea lions are 
compatible, but I don't think in the case that has been 
presented to us has been done scientifically.
    Mr. Gilchrest and I will always agree that good science 
should be the only thing we rely upon. We don't see good 
science especially for cutting back on a million dollars out of 
this year's budget. That is probably--you know, like I say, if 
we can, we are going to try to give the money back to you or 
somebody else.
    Mr. Saxton, do you have any questions? Mr. Marks, you want 
to comment on this?
    Mr. Marks. I have been sitting over here very patiently.
    Mr. Young. Well, you are supposed to appear agitated and 
not patiently. You got to be jumpy a little.
    Mr. Saxton. Just do like the does.
    Mr. Marks. I think you need to be an Alaskan to do that.
    If I may comment to Dr. Rosenberg's comment about 
establishing a correlation between fishing and sea lions, it is 
important to understand that the Steller sea lion decline first 
started in the mid-seventies and that was concurrent with this 
regime shift we are speaking of where we saw the system shift 
from a system dominated by herring, capelin, sand lance to a 
pollock-dominated system. The near shore fishery that Dr. 
Rosenberg is talking about in the quote, ``critical area'' 
unquote, did not really start until perhaps into the mid-
eighties. So we have already seen the Steller sea lion decline 
start even when there was just trace amounts of fish being 
taken in the critical habitat. So the very basis of this 
causation we question significantly.
    Additionally, if you look at the trend data for the 
populations, in the eastern area where arguably most of the 
concentrated fishing is occurring, Steller sea lion populations 
are actually doing the best. If you look in the western where 
the fishery is least concentrated, Steller sea lions are doing 
the worst. So we still don't see this strong correlation, and 
the agency has admitted in some of their documentation the 
correlation is not there but we just have to be cautious, and 
we think this might work, so there we go, and that is a big 
concern to us.
    If I might add to Mr. Gilchrest's question, I was trying to 
get to it before, he was talking about do sea lions eat 
pollock. Certainly they do. However, if you look back into the 
mid-seventies prior to this regime shift 32 percent of their 
diet was pollock. Herring and sand lance and capelins, small 
oily fish was 61 percent of their diet during this same period. 
So they were definitely perhaps preferring, for lack of a 
better word, to eat that particular type of oily fish.
    After the regime shift, '90 to '93, 85 percent of the diet 
is pollock and only 18 percent is herring, capelin and sand 
lance. So we have seen this major shift in what is going on 
with what is available to sea lions. This is one of the 
alternative hypotheses that we have not been able to get anyone 
to look at, that is the appropriate versus the available prey. 
Is a pollock-dominated system the best thing for Steller sea 
lions? We are not certain that it is.
    With respect to the diet overlap, the agency has some 
information that indicates there may be some partial overlap 
between what juvenile sea lions eat and what the fishery takes. 
However, it doesn't necessarily automatically mean that that is 
a bad thing. Someone up front commented there is plenty of 
pollock out there, and there is. If there wasn't, you would see 
a competitive exclusion where sea lions and fisherman would be 
taking completely different pollock because they would be 
competing and that would force that, but there is no 
competitive exclusion because there seems to be enough pollock 
for everybody.
    So there is different ways to look at this. The fact we 
haven't tested these alternative hypotheses is what is really 
frosting our hind parts.
    Mr. Young. Would it be possible that the nutritionally-
stressed sea lion, although his stomach can be full, can't 
really be as strong or as well as he would with a fatter type 
fish? Is that possible? I mean, just because he is eating lots 
of pollock and apparently there isn't interference there, is 
the pollock so lacking in nutritional value that it can stress 
the sea lion?
    Ms. Wynne. Well, as I am sure you know, there are some 
preliminary studies that have been going on with captive 
animals--and are continuing now--to study the dietary 
components and nutritional value of different prey items and 
the effect on the sea lions. Obviously, you are going to have 
to eat more, probably eat more pollock to get the same fat in 
your system as you would herring.
    I guess to elaborate a little bit on the discussion that 
has gone on before here, the questions that everyone's asking 
right here are huge, and to actually determine whether there is 
competition going on is a tremendous investment of time and 
money, and you may never get there. I would suggest that rather 
than belaboring the question of has the environment changed or 
did we as humans change something, that you pick up more 
specific smaller questions, something that, as my testimony 
suggested, is a management-driven question that you can bite 
off a small chunk off and chew on, get an answer and that 
answer may help you figure out what is going on in the big 
system, but it is a moving target and what happens----
    Mr. Young. The reason for concern, of course you are well 
aware of it. You are in Kodiak. The concern here is the impact 
upon the Aleutians Borough, the small communities, the 
fishermen themselves and the danger they risk taking because of 
these new buffer zones being proposed and then no one has 
proved the existing buffer zones work. The concern I have, we 
bite a little piece of that apple, which I agree with you it 
doesn't help those communities, it doesn't help those fisherman 
that face those high seas, and we may be doing something that 
we think is correct but doesn't solve the problem we are faced 
with, and in the meantime I am being honest with you, I haven't 
found a Steller sea lion that votes for me yet. If you give me 
some, I might have a different attitude, but I am just saying 
that it is important that we, in our enthusiasm, do what is 
under the law and under the emotionalism of the Steller sea 
lion to look at the aspect why this problem occurs without 
sacrificing the human factor, too. That is my job, and I hope 
NMFS understands my interest in this, too, but to do it just 
because to say I got to do it, we are using the best science 
available, which I am going to eliminate before I get out of 
this job. Best science available is the weakest crutch that you 
possibly can use. It should be the best science, not what is 
available, the best science.
    So that is really where I am coming from, and I am rambling 
now, Mr. Chairman, I apologize for that. I got the gavel.
    Ms. Wynne. I agree with you entirely. My point is, if you 
look at the entire Bering Sea and try to quantify the changes 
that have gone on and how that might have affected Steller sea 
lions, you will never get to those points that you are saying 
the communities need to know. If you start at the bottom and 
work up towards those questions, you can address some of those 
questions. If you look at a specifically small area 
intensively, you might get some answers. One of the problems 
and most basic things we don't know about Steller sea lions is 
what they eat year round, every month of the year, in different 
areas and how that has changed. We have little snapshots 
because we have spread our effort over a huge area, and my 
contention would be that if you take a smaller piece of the 
picture, focus on it, get more complete information on a small 
scale, have directed management-oriented questions that you 
have from your constituents about the habitat use of those 
animals in a certain area, you will get those answers, plus you 
will have one piece of a huge puzzle that may take years----
    Mr. Young. In the meantime I have to make sure that those 
communities have to survive.
    Ms. Wynne. Absolutely.
    Mr. Young. Not at their cost and that is going to be the 
question.
    Mr. Gilchrest.
    Mr. Gilchrest. Just a quick question for Ms. Wynne. Do you 
have a place that should be studied now to do what you are 
saying should be done, and would you agree or disagree with 
NMFS' management plan doing the process of that study?
    Ms. Wynne. Well, obviously I have a bias. I could tell you 
what that is. I am not sure which part of NMFS' management plan 
you are asking me to compare it to.
    Mr. Gilchrest. Well, the management plan for pollock which 
we are discussing today. The management plan for pollock, I 
guess Dr. Pereyra disagrees with at this point, and Mr. Marks 
disagrees with. I am not sure where Mr. Lavigne is on this, but 
the management plan for pollock which Mr. Marks disagrees, Dr. 
Rosenberg feels that it is necessary at this point. So where is 
the place that you think should be studied? How long would that 
study take, and I hope the regime doesn't change during the 
course of that study, and do you feel that Dr. Rosenberg has an 
adequate management plan for pollock during the course of that 
study? I don't know if I should put you on the spot.
    Mr. Young. Not when he is giving her money.
    Ms. Wynne. No. Again, I have a bias because in my backyard 
not only am I a member of the Kodiak community and subsist 
there and a part of that economy, but I am a biologist in the 
area that I think is the most intriguing place in Alaska for a 
number of reasons. Biologically, not only does it have 
incredible fishing effort, a number of different fisheries. It 
has one of the greatest concentrations of some of the 
piscivorous whales, humpback and fin whales, who are doing 
well, by the way, in light of the fact that the pinniped 
declines (of harbor seals and Steller sea lions) have been 
centered right there in Kodiak.
    So, to me, my personal bias, (and I just happen to be 
living there, too,) is that Kodiak makes for a great study 
area, not to just look at pollock and sea lions, but to look at 
an entire predator-prey relationship--you have to define your 
universe somehow, and that would be a palatable size for 
defining that universe, something you could study, and whether 
that would exclude NMFS' management plan I couldn't say. I 
think it would help refine some of the--or maybe even test some 
of the assumptions that were put into the play with the buffer 
zones, for instance, that you could actually create the study 
to test some of the assumptions that went into that.
    Mr. Marks. Representative Gilchrest, if I may, Mr. 
Chairman?
    Mr. Young. I am going to tell you yes, about one minute 
because I am about ready to excuse this panel and call the next 
panel up, primarily for the recognition of the time is weighted 
and we are going to have a vote in about 20 minutes so I would 
like to get the second panel up as near as possible.
    Mr. Marks. The point I will make is Kodiak could be a 
sensible spot to do this because three of the eight areas that 
the agency is pending to close down, three of the eight haulout 
areas are located around Kodiak Island. They are critical areas 
for the small boat trawl float. They are right there near 
Kodiak. That might be a good place for us to start where we can 
get the biggest bang for our buck to address the pending 
measures that may be coming down into 2000.
    Mr. Young. I want to thank the panel, well done, and we 
will be looking at this issue again.
    Now, I will introduce--bring our second panel up. The 
second panel we have is Ms. Beth Stewart, representing the 
Honorable Dick Jacobsen, Mayor of the Aleutians East Borough, 
who was unable due to weather problems to arrive here in 
Washington, DC, and the fish are running; the Honorable Frank 
Kelty, Mayor of the City of Unalaska; Mr. Al Burch, Executive 
Director of Alaska Draggers Association; Dr. George Owletuck of 
Anchorage, Alaska; and Mr. Peter Van Tuyn, Trustees for Alaska.
    We will start out with Ms. Beth Stewart.

    STATEMENT OF BETH STEWART, NATURAL RESOURCES DIRECTOR, 
                     ALEUTIANS EAST BOROUGH

    Ms. Stewart. Mr. Chairman, panel members, thank you so 
much. My name is Beth Stewart. I am the Natural Resources 
Director for the Aleutians East Borough.
    Mr. Young. Bring that mike in front of you, please.
    Ms. Stewart. In our written comments to you, you will find 
a map of the Aleutians East Borough and with that a second map 
that shows you where the current closures are, where the new 
closures are going to be, and you can see from looking at that 
map that for the villages of King Cove and Sand Point, who are 
actively involved in the pollock trawl fishery, as well as 
other fisheries in the region, this new plan is going to leave 
very little room for people to fish.
    We are home to the smallest of the trawlers that operate in 
the Bering Sea and the Gulf of Alaska. All of our trawlers are 
also limit seiners, and the Alaska limit seine is a 58-foot 
limit. So these are boats that are going to have a very 
difficult time fishing 20 miles offshore. They pack 150,000 
pounds at the maximum. They fish in very dangerous waters. The 
Bering Sea has a fiercer reputation, but having been on the 
Gulf side, I am not sure I understand why.
    I am not going to read my comments to you today. I am going 
to summarize quickly in honor of your time constraints. Five of 
our six villages are Alaska Land Claim Settlement Act villages. 
Four of those villages are the home of the remaining Eastern 
Aleut population. The last village, Akutan, is one of the--it 
is the oldest continuously settled habitation in the Aleutians. 
It is a very small population of western Aleuts. These are 
people who are still harvesting Steller sea lions directly as 
subsistence take for their dietary needs. They are not 
traditionally involved in commercial fishing. They are working 
to develop a P. cod fishery. They don't have a boat harbor. 
They live with very small 16-foot skiffs, but they are tied to 
the land and the sea in the same way that people from Sand 
Point, Cold Bay, King Cove, False Pass and Nelson Lagoon are.
    They noticed about 15 years ago that there was another 
decline, as they call it, of the Steller sea lion population, 
and as they always have, in the face of what was apparent to 
them, they began cutting back on the number of Steller sea 
lions that they take. So that in my conversations with them in 
the last month we believe now that they probably take three a 
year which represents a substantial decline in their personal 
takes of Stellers. So it is important to them that the Steller 
sea lion population return to its healthier levels, but it is 
not the first time they have seen a decline in Steller sea 
lions in the region, and they certainly don't expect it to be 
the last time.
    They associate this decline, as do people in False Pass, 
King Cove and Sand Point, with a decline of, what they call 
locally, candle fish. This would be referred to by scientists 
as capelin. They are called candle fish because when you dry 
them, it just takes a few of them lit by a match to start a 
fire with wet driftwood on the beach. We have no trees in the 
area so you burn whatever it is that floats ashore. Candle fish 
are a high fat item and a prized survival species for people in 
the region. We have noticed a shift and some hopeful sign that 
candle fish are coming back.
    Sand Point and King Cove, although people there will 
sometimes get subsistence meat from relatives in Akutan, 
currently have no active subsistence hunters for Steller sea 
lions. What they do have is a strong desire to be diversified 
fishermen. They have combination vessels. They have learned 
over time not to fish a single species, so they take pollock, 
salmon, herring, halibut to the extent they can with the IFQ 
rules, and crab when they are around. These folks are strongly 
impacted by the measures taken for Steller sea lions and began 
to get involved in this issue in 1990 when Steller sea lions 
were listed as threatened. They became very active in the MMPA 
reauthorization, worked to build coalitions with environmental 
organizations and in our own region ended the practice of 
shooting Steller sea lions.
    I am sure it is not news to the Chairman, but Alaska had an 
attitude about seals and sea lions dating from the 30s and 40s, 
that they were salmon predators, that they were nuisances and 
that they needed to be shot. When I was growing up, we got paid 
three dollars a nose for seals. I hear others made less. There 
was never a bounty on Steller sea lions, probably because if 
you hit one, they generally sink right away, but people were 
encouraged to shoot them, and they grew up thinking this was 
appropriate behavior.
    It became clear in 1990 that that idea had changed, and we 
made extensive efforts to make sure people quit shooting not 
only Stellers but seals, and given the relationships between 
fishermen and small communities someone is always mad at 
someone else, so if this was going on we would hear about it 
today and we don't. We have successfully ended the practice of 
shooting these animals, except for subsistence takes.
    We were hopeful at the time that the National Marine 
Fisheries Service would spend a lot of money and time trying to 
come up with a better way to deal with this situation. I guess 
we are making some progress this week, but we have been largely 
disappointed about the efforts being made to collect more than 
just scant samples of the population status. We strongly 
support the remarks that Kate Wynne made. We believe that you 
have to have some kind of focused scientific investigation so 
that Steller sea lions can recover so that we know what to 
expect and so that everyone can get on with making a living in 
a way that doesn't cost one species or another its ability to 
survive.
    Thank you very much.
    [The prepared statement of Mr. Jacobsen follows:] 

    [GRAPHIC] [TIFF OMITTED] T8051.038
    
     [GRAPHIC] [TIFF OMITTED] T8051.039
    
     [GRAPHIC] [TIFF OMITTED] T8051.040
    
     [GRAPHIC] [TIFF OMITTED] T8051.041
    
     [GRAPHIC] [TIFF OMITTED] T8051.042
    
     [GRAPHIC] [TIFF OMITTED] T8051.043
    
     [GRAPHIC] [TIFF OMITTED] T8051.044
    
     [GRAPHIC] [TIFF OMITTED] T8051.045
    
     [GRAPHIC] [TIFF OMITTED] T8051.046
    
     [GRAPHIC] [TIFF OMITTED] T8051.047
    
     [GRAPHIC] [TIFF OMITTED] T8051.048
    
     [GRAPHIC] [TIFF OMITTED] T8051.049
    
     [GRAPHIC] [TIFF OMITTED] T8051.050
    
    Mr. Young. Thank you, Beth, good job.
    Frank Kelty.

   STATEMENT OF HON. FRANK V. KELTY, MAYOR, CITY OF UNALASKA

    Mr. Kelty. Mr. Chairman, members of the Committee, thank 
you for the opportunity to speak to you today on this very 
important issue. My name is Frank Kelty. I am the Mayor of the 
City of Unalaska, this nation's number one commercial fishing 
port for 10 years in a row in tonnage landed and in dollar 
value. Each year between 500 to 700 million pounds of product 
is processed in my community, and the dollar value of that 
product is well in excess of $100 million. The total value of 
the pollock fishery in Alaska is $1 billion annually.
    The City of Unalaska, I would like to say up front, 
supports Steller sea lion research and has provided funding to 
the North Pacific Marine Science Foundation Consortium. It is a 
consortium of universities, University of Alaska, University of 
Washington, and the University of British Columbia. We have 
been funding, have put it in--earmarking it in our budget 
annually since its inception. The consortium receives its 
funding from the seafood industry, grants, support sector 
businesses and coastal communities.
    The City of Unalaska has also used taxpayers' dollars to 
become interveners in the Greenpeace-National Marine Fisheries 
lawsuit. Why would we use taxpayers' dollars on these issues? 
Because the fishing industry in Unalaska is the only economic 
base we have, and the pollock fishery in our community is the 
most important part of our fishery-based economy, and I will 
say that again. It is the only economic base we have and the 
pollock fishery is the most important part of our fishery-based 
economy.
    In 1997, National Marine Fisheries figures show that 93 
percent of all product landed and processed in Unalaska was 
groundfish. Eighty-three percent of that amount was pollock. 
This shows the importance of the pollock fishery in the Bering 
Sea to our community.
    During my 30 years working in the Alaska seafood industry I 
have seen the crash of the crab and shrimp stocks in the Gulf 
of Alaska in the 70s. I lived and worked in Unalaska during the 
Bering Sea Red King crash in the 80s. I have seen firsthand the 
devastation of coastal communities whose economic base has 
disappeared overnight. Employment in the community will be 
hurt, not just in the local processing plants but in all 
sectors. We have support sector businesses that have invested 
hundreds of millions of dollars--millions of dollars in our 
community. Their revenues would be hurt. The people that they 
employ in the transportation, marine repair, retail stores, 
fuel companies, longshoremen, city work force will all be 
impacted. The City of Unalaska, with a major decline in 
revenues, would have to cut back on our services, programs and 
capital projects that we have would have to be delayed or 
stopped.
    There is a section in the Magnuson-Stevens Act that talks 
about protection for fishery-dependent communities. We should 
remember that section as we review these regulations. The most 
damaging impact will be on the seafood processing industry, 
both onshore and offshore sectors, and the fishing fleets that 
provide products for these operations. They have invested 
hundreds of millions of dollars in their shore plants, factory 
trawlers that process at sea and use Unalaska as their support 
base and in catcher vessels that deliver to these operations.
    I would like to share with you some of the problems the 
seafood industry has encountered because of the recent adoption 
of the RPAs. The roe season was impacted with a 5 percent 
reduction. The roe season is the most important part of the 
pollock fishery and is critical to the bottom line of the 
fishing fleet and processors.
    The Aleutian Island pollock area was closed. This affected 
fishing fleets, our local processing plants, the at-sea 
processors and revenues to the community of Unalaska. That area 
is valued at over $50 million a year.
    The new RPA regulations require a stand down between 
fishing seasons, which is very costly to industry. You are 
geared, you have to stop for a period of time and then restart 
again. You have got your crews, you have bought supplies but 
you have to stop and start again.
    Moving the fishing fleet away from sea lion critical 
habitat areas and reducing the amount of fish taken from these 
areas, as well as other proposed area closures or buffer zones, 
could dramatically reduce the amount of fish available to 
processors and fishing fleets. This could lead to quality 
concerns of the product received by shore plants by our fishing 
vessels who have to fish farther away and have longer running 
time to get their product to the plants. Fishing in these areas 
that the fleet hasn't traditionally fished could lead to 
bycatch problems, gear conflict and could impact all fishery-
dependent communities in the Bering Sea and the Gulf of Alaska.
    National Marine Fisheries has imposed a jeopardy finding. 
My community and other fishery-dependent communities and the 
seafood industry of Alaska that supports these communities are 
the ones facing jeopardy now. I would ask this Committee to 
advise National Marine Fisheries of your concerns with the 
biological opinion, jeopardy finding and the RPAs. Are these 
decisions on good science and research? Do changes need to be 
made to these regulations?
    We would ask for your support for substantial funding for 
independent research with peer review. Continued research for 
this billion-dollar-a-year fishery is critical to the economic 
well-being of the State of Alaska, the community of Unalaska 
and the seafood industry.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Kelty follows:] 
    [GRAPHIC] [TIFF OMITTED] T8051.051
    
     [GRAPHIC] [TIFF OMITTED] T8051.052
    
     [GRAPHIC] [TIFF OMITTED] T8051.053
    
     [GRAPHIC] [TIFF OMITTED] T8051.054
    
     [GRAPHIC] [TIFF OMITTED] T8051.055
    
     [GRAPHIC] [TIFF OMITTED] T8051.056
    
    Mr. Young. You did that well. You timed it just right.
    Mr. Burch.

  STATEMENT OF AL BURCH, EXECUTIVE DIRECTOR, ALASKA DRAGGERS 
                          ASSOCIATION

    Mr. Burch. Boy, he sure don't need a loud speaker.
    Mr. Chairman, before I give my testimony, I would just want 
to acknowledge that we did have a meeting, very good 
discussion, with the Secretary of Commerce about research. I 
would like to thank the Secretary for his willingness to work 
with Alaskans on a research program. We had that meeting 
yesterday afternoon. I was very pleased.
    I appreciate the opportunity to speak before this 
Subcommittee. I am Al Burch, Executive Director of the Alaska 
Draggers Association in Kodiak, Alaska. Most of the trawl 
vessels I represent, including my own two trawlers, the Dawn 
and the Dusk, are small trawlers under 100 feet in length and 
most are owned by Kodiak residents.
    I started fishing shrimp out of Seward with my brother Oral 
in 1960. When our plant was destroyed by the '64 earthquake, we 
moved to Kodiak. During those early years, we did whatever we 
could to keep the boats busy, a little crab, shrimp, salmon, 
halibut, herring, charters, seals and sea lion reduction. In 
those days, there was a bounty on seals and the bounty helped 
put food on the table. Sea lions were considered predators on 
salmon. During World War II, prior to the start of the salmon 
season, the Navy and the Army would strafe the sea lion 
rookeries as a public service.
    In the mid-70s there was a big change in the central 
western Gulf of Alaska. Shrimp and crab started to disappear. 
Fortunately, Alaska Department of Fish and Game had kept two 
bays closed to shrimp fishing as controls. The shrimp in these 
bays disappeared just as fast as the shrimp in the open bays so 
we knew it wasn't the fisheries that caused the decline.
    Without shrimp, we had to look for other opportunities and 
got a job fishing Pacific cod for a Portuguese joint venture 
and went on to fish joint venture pollock in the Shelikof 
straits. When the local processing plants geared up to process 
groundfish, we fished and still fish for the Kodiak shore-based 
plants.
    Mid-70s, during years that the shrimp and the crab 
declined, there were a lot of other things that changed. The 
water warmed up. One summer we had sea lion diving on our trawl 
nets. They could really tear up the net. I think our crews 
spent as much time mending web as they did fishing.
    The other thing that happened was a buildup of pollock in 
Shelikof straits in the spring. In 1977 my brother called NMFS 
and asked them to come out and look at Shelikof straits. The 
director at that time told him there wasn't any pollock in 
Shelikof straits. About two years later, NMFS did look at 
Shelikof straits and figured out that there was more than a 
million metric tons of pollock spawning there. At that moment, 
NMFS decided that all pollock in the Gulf spawned in the 
Shelikof. It wasn't true but a lot of research was done on the 
idea that all Gulf pollock spawned in the Shelikof straits.
    Kodiak is a fishing-dependent community. It is the only 
port in Alaska whose fleet is composed of all gear types, the 
only port that processes all fisheries from pollock to urchins, 
the only port in Alaska that operates year round, and the only 
port in Alaska with a resident processing work force. Our homes 
are here. Our children are raised here.
    Any downturn of Kodiak's economy is hardest on the 
processing plant workers. If there is not work most of the year 
for the processing plant workers, they have to leave. The 
vessels struggle but not all economically survive. When 
survival is difficult, some vessel owners can't afford to 
properly maintain their vessels, and there are more accidents 
at sea, more loss of life.
    When the economy turns sour, small businesses fail. The 
whole community feels the economic stress, and the usual social 
problems that are part of any economic downturn occur. The 
community begins to come apart.
    I know what it is like in an economic downturn. Kodiak went 
through a major downturn in the eighties when the shrimp and 
crab fisheries were lost and the processors had not made the 
investments to buy machinery to process groundfish.
    I have been in jeopardy on the water a few times, but the 
jeopardy I, and many like me, now face is the prospect of 
losing everything we worked for all our lives to protect sea 
lions. We are being closed out of the nearshore waters.
    In the Gulf of Alaska I am not sure we can find much 
pollock offshore, but I am sure that fishing offshore 
represents a real danger to our boats and crews. When nature 
took away the shrimp and crab, it was a trade. Pollock for 
shrimp, cod fish for crab. If National Marine Fisheries Service 
would hire the Kodiak pollock fleet to monitor the sea lion 
haulouts, I would consider that a reasonable trade. Otherwise I 
think mugging probably describes my view.
    Kodiak's pre-state history left Kodiak with a strong 
conservation ethic. The Russians wiped out the fur-bearing 
marine mammals. Whalers wiped out the whales. The Federal 
Government mismanaged salmon. The foreign fisheries wiped out 
the Pacific Ocean perch. All of these species have been 
rebuilt, some at great short-term cost to our community.
    The community of Kodiak has willingly paid the price for 
the rebuilding. All of us want a healthy ecosystem and a 
sustainable fisheries for ourselves today and for all future 
generations. I have been a member of the North Pacific 
Fisheries Management Council's advisory panel for 22 years. 
Every conservation action the advisory panel has ever 
recommended and every conservation measure the council has 
recommended has been based on scientific research and the 
recommendations of the Science and Statistical Committee, 
except for the sea lion protective measures.
    Marine mammal biologists' current theory, as I understand 
it, is that the pollock fisheries which in the Gulf of Alaska 
takes only 7 to 10 percent of the pollock biomass spread out in 
three separate openings, each lasting 3 to 20 days depending on 
the quota, creates localized depletion of pollock. The 
biologists admit that they have no data to show localized 
depletion, but they believe that that is the problem. 
Apparently, the marine mammal biologists' belief carries more 
weight than any research.
    I have kind of lost faith in the ability of the leadership 
in the agency to provide the research we need. There are many 
good scientists in the agency but they are not the leadership. 
I would feel more comfortable if Congress exercised annual 
oversight to include scientists outside the National Marine 
Fisheries Service in the oversight. If there is not a long-term 
coordinated research plan developed that looks at what sea 
lions do every month of the year, we will continue for the next 
25 years hearing there is not enough data or the sample size is 
too small to be meaningful. Our communities will be extinct but 
the Steller sea lion will still be around.
    Thank you.
    [The prepared statement of Mr. Burch follows:] 

    [GRAPHIC] [TIFF OMITTED] T8051.057
    
     [GRAPHIC] [TIFF OMITTED] T8051.058
    
     [GRAPHIC] [TIFF OMITTED] T8051.059
    
     [GRAPHIC] [TIFF OMITTED] T8051.060
    
     [GRAPHIC] [TIFF OMITTED] T8051.061
    
     [GRAPHIC] [TIFF OMITTED] T8051.062
    
     [GRAPHIC] [TIFF OMITTED] T8051.063
    
    Mr. Young. Thank you, Al.
    Mr. George Owletuck.

        STATEMENT OF GEORGE OWLETUCK, ANCHORAGE, ALASKA

    Mr. Owletuck. Thank you, Mr. Chairman, Subcommittee 
members. Thanks for the opportunity to testify today. My name 
is George Owletuck from Marshall, Alaska. I am a lifelong 
Yup'ik Eskimo hunter and commercial fisherman. I hold a 
bachelor's degree from the University of Alaska, and I have 
worked for Senator Stevens for three years in his Alaska 
office. I have worked for Senator Lyman Hoffman in the Alaska 
Legislature for rural issues, and I have worked for the Yukon-
Kuskokwim Coastal Research Service Area on coastal research 
issues for two years, and the past year I had worked for the 
Alaska Inter-Tribal Council as their natural resources director 
representing Alaska Native interests. My individual testimony 
is as a concerned Alaskan Native over the long-term decline of 
animal species in Alaska waters.
    Subsistence uses of land animals, waterfowl, salmon and 
marine mammals have provided for the sustenance of Alaska 
Native families for millennia. Entire indigenous Alaska 
cultures revolve around the harvests, utilization and 
distribution of various plant and animal species. Alaska Native 
societies still depend on this hunting, fishing and gathering 
lifestyle for nutritional, physical and spiritual well-being. 
Immersing oneself in the wilderness of creation instills a 
growing awareness of the creator and the laws of nature over a 
lifetime of living the hunting, fishing and gathering 
lifestyle. This acute awareness conveys the sense that the 
creator has established a balance in nature to sustain the food 
chains in the web of life. Alaska Natives, indeed indigenous 
peoples, maintain cultures that perpetuate lifestyles of living 
in harmony with the environment, creation to preserve this 
delicate balance in nature.
    I am going to summarize this whole statement here.
    The severe declines of animal populations such as sea lions 
suggest that the intense commercial harvests of Alaska waters 
have upset the balance of their delicate ecosystems. The 
declines in Steller sea lions began in the eastern Aleutian 
Islands in the early seventies where a massive trawl fishery 
for pollock was concentrated at the time. Further declines 
occurred in the Gulf of Alaska and along the Aleutian chain as 
large-scale groundfish trawling moved into those regions. No 
declines in sea lions have occurred in southeast Alaska where 
no high volume groundfish trawling occurs. Lack of available 
food is the leading explanation for the declines in sea lions 
and other species.
    The average amount of pollock harvested annually from 
waters of critical habitat where sea lions feed and breed has 
increased from 672 million pounds in 1986 to 1.79 million 
pounds in this decade. The fisheries have also become 
concentrated into the fall and winter when adequate food 
availability is most crucial for sea lions. Thus, the evidence 
suggests that populations of pollock predators have dropped at 
least in part because of an intense and concentrated fishing.
    A National Oceanic and Atmospheric fisheries' recent 
Steller sea lions stock assessment show population declines 
from 110,000 in 1978 to fewer than 40,000 today. Steller sea 
lions were listed as threatened in 1990, and those found in the 
Bering Sea, Aleutian Islands and Gulf of Alaska were 
reclassified as endangered in 1997.
    The problem is not with the conclusions of jeopardy and 
adverse modification. The problem is with the agency's failure 
in the RPA to address the underlying problems or to avoid 
jeopardy to the sea lion or adverse modification of its 
critical habitat. The National Marine Fisheries Service must 
act aggressively to halt the sea lion decline and recover this 
endangered animal. NMFS should prohibit trawling in all 
critical habitats surrounding sea lion rookeries and haulouts, 
should dramatically reduce the catches of pollock, Atka 
mackerel and other fish essential for sea lion survival in at-
sea foraging areas, reduce the overall catches of pollock and 
other groundfish, particularity the catches of spawning pollock 
and spread the remaining catch over the entire year and over 
broader areas of the Bering Sea and Gulf of Alaska, rather than 
allowing the catch to be concentrated in time and space as it 
is now.
    Managers must recover the sea lions over time while still 
protecting the Alaska communities that rely on fishing for 
jobs. For millennia Natives have depended upon these animals 
for cultural, spiritual, nutritional and economic survival. 
Increased involvement of Native elders and leaders in research, 
regulation and enforcement is necessary for effective policy 
making. To date this has not happened. Indeed, at the same time 
NMFS has been reviewing the impacts of fisheries on the sea 
lions, it is also attempting to review the impact of the 
fisheries on the ecosystem as a whole. Yet, it is doing this 
without the involvement of the local people. It rushed through 
the National Environmental Policy Act process apparently 
because it did not want to slow down the commercial fisheries. 
Even the Environmental Protection Agency noted NMFS' failure to 
involve local people. In a letter, they stated that NEPA, 
ANILCA and the Federal trust responsibility requires that the 
supplemental environmental impact statement respectfully 
analyze proposed projects which could potentially conflict with 
Indian tribes, the effects on subsistence uses and needs and 
whether proposed actions are consistent with Federal agencies, 
fiduciary trust responsibility for Native Alaskans. EPA also 
noticed that SCIC lacked and continues to lack a discussion of 
the impacts of the fishing management plan on Native 
subsistence users and should include an analysis of direct, 
indirect and cumulative impacts on subsistence users as 
required by NEPA.
    Another note in the EPA letter was that completely missing 
from the decision-making process was consultation with 
Federally recognized tribal governments in Alaska in accordance 
with general trust responsibility and the recent Presidential 
Executive Order of May 31, 1998, consultation and coordination 
with Indian tribal governments. Tribal governments are uniquely 
qualified to provide knowledge about resource trends and 
potential impacts to people and resources in their homelands.
    I have attached this letter to my testimony, and I would 
like to convey that the use of Alaska Native traditional 
knowledge and wisdom, along with ecosystem-based research, is 
in order. We must ensure that trawl fisheries do not 
overexploit these waters in order to maintain the balance in 
nature necessary to sustain the food chains in the Bering Sea 
and the Gulf of Alaska ecosystems. We must protect this 
delicate balance in nature to preserve sustainable fisheries 
and the Alaska Native hunting, fishing and gathering lifestyle.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Owletuck follows:]

            STATEMENT OF GEORGE OWLETUCK, ANCHORAGE, ALASKA

    Mr. Chairman, and distinguished members of the Subcommittee 
on Fisheries Conservation, Wildlife and Oceans. Thank you for 
the opportunity to testify on the National Marine Fisheries 
Service's (NMFS) scientific research program on Steller sea 
lions and the process used to develop the jeopardy finding, the 
Biological Opinion, and the Reasonable and Prudent Alternatives 
(RPA) for the pollock fishery under the Endangered Species Act.
    My name is George Owletuck, from Marshall, Alaska. I am a 
lifelong Yup'ik Eskimo subsistence hunter and fisherman. I hold 
a 1995 Bachelor's of Education from the University of Alaska, 
Anchorage. I've served under The Washington Center's 1992 
National Minority Leader's Fellowship in the DC office of U.S. 
Senator Ted Stevens and served on his Alaska staff for three 
years. I worked for Senator Lyman F. Hoffman in the Alaska 
State Legislature on rural issues. I served as the Director of 
the Yukon-Kuskokwim Coastal Resource Service Area addressing 
coastal resource issues under the Federal Coastal Zone 
Management Act. I recently served as the Natural Resources 
Director for the Alaska Inter-Tribal Council, a consortium 
representing Alaska Native interests. My individual testimony 
is as an Alaska Native subsistence hunter and fisherman 
concerned over the long-term decline of animal species in 
Alaska waters.
    Subsistence uses of land animals, waterfowl, salmon, and 
marine mammals have provided for the sustenance of Alaska 
Native families for millennia. Entire indigenous Alaska 
cultures revolve around the harvests, utilization and 
distribution of various plant and animal species. Alaska Native 
societies still depend upon this hunting, fishing and gathering 
lifestyle for nutritional, physical, and spiritual well-being. 
Immersing oneself in the wilderness of Creation instills a 
growing awareness of the Creator and the Laws of Nature over a 
lifetime of living the hunting, fishing and gathering 
lifestyle. This acute awareness conveys the sense that the 
Creator has established a balance in nature to sustain the food 
chains in the web of life. Alaska Natives, indeed indigenous 
peoples, maintain cultures that perpetuate lifestyles of living 
in harmony with the enviromnent--Creation--to preserve this 
delicate balance in nature.
    The severe declines of animal populations, such as sea 
lions, suggest that the intense commercial harvests of Alaska 
waters have upset the balance of their delicate ecosystems. The 
National Marine Fisheries Service needs to address the imminent 
extinction of Steller sea lions in Alaska waters. The billion-
dollar groundfish trawl fishery is strongly linked to the 
drastic decline of marine animal populations in Alaska. 
Devastating marine animal population declines coincide with the 
development of high-volume trawl fisheries in the same times 
and areas. Steller sea lions, harbor seals, seabirds and salmon 
feed on the same fish targeted by the groundfish trawl 
fisheries. The population of sea lions has declined 80 percent 
over the last three decades. The sea lions are ``endangered'' 
under the Endangered Species Act. Northern fur seals are 
``depleted'' under the Marine Mammal Protection Act. Returning 
salmon numbers have plummeted so severely that the Yukon-
Kuskokwim River fisheries have been declared a disaster by the 
state of Alaska.
    Drastic population declines suggest that the concentration 
of the fisheries in time and space have detrimental effects on 
sea lions. The declines in Steller sea lions began in the 
eastern Aleutian Islands in the early 1970s, where a massive 
trawl fishery for pollock was concentrated at the time. Further 
declines occurred in the Gulf of Alaska and along the Aleutian 
chain as large-scale groundfish trawling moved into those 
regions. No declines in sea lions have occurred in southeast 
Alaska, where no high-volume groundfish trawling occurs. Lack 
of available food is the leading explanation for the declines 
in sea lions and other species, and all of these species, but 
particularly sea lions, compete directly with the massive 
fisheries for pollock, Atka mackerel, and other groundfish.
    Moreover, these fisheries have become extremely 
concentrated into sea lion critical habitat, which was 
designated based expressly on the need for adequate food in 
these areas. The average amount of pollock harvested annually 
from waters of critical habitat where sea lions feed and breed 
has increased from 672 million pounds in 1986 to 1.79 million 
pounds in this decade.
    The fisheries also have become concentrated into the fall 
and winter, the when adequate food availability is most crucial 
for sea lions. Thus, the evidence suggests that populations of 
pollock predators have dropped, at least in part, because of 
intense and concentrated fishing. A NOAA Fisheries' recent 
Steller sea lion stock assessment show population declines from 
110,000 in 1978 to fewer than 40,000 today. Steller sea lions 
were listed as threatened in 1990, and those found in the 
Bering Sea, Aleutian Islands and Gulf of Alaska were 
reclassified as endangered in 1997.
    For these reasons, I strongly support the conclusions of 
jeopardy and adverse modification. The problem is not with the 
conclusions, the problem is with the agency's failure in the 
RPA to address the underlying problems or to avoid jeopardy to 
the sea lion or adverse modification of its critical habitat.
    The National Marine Fisheries Service (NMFS) must act 
aggressively to halt the sea lion decline and recover this 
endangered animal. NMFS should (1) prohibit trawling in all 
critical habitat surrounding sea lion rookeries and haulouts; 
(2) dramatically reduce the catches of pollock, Atka mackerel 
and other fish essential for sea lion survival in at-sea 
foraging areas; (3) reduce the overall catches of pollock and 
other groundfish, particularly the catches of spawning pollock; 
and (4) spread the remaining catch over the entire year and 
over broader areas of the Bering Sea and Gulf of Alaska, rather 
than allowing the catch to be concentrated in time and space as 
it is now.
    Alaska Native communities are directly affected by the 
drastic declines in Alaska marine species. Managers must 
recover the sea lions over time while still protecting the 
Alaska communities that rely on fishing for jobs. The Alaska 
pollock fishery is worth an estimated $670 million annually. 
For millennia, Natives have depended upon these animals for 
cultural, spiritual, nutritional and economic survival. 
Increased involvement of Native elders and leaders in research, 
regulation and enforcement is necessary for effective policy-
making. To date, this has not happened. Indeed, at the same 
time NMFS has been reviewing the impacts of the fisheries on 
the sea lions, it is also attempting to review the impact of 
the fisheries on the ecosystem as a whole. Yet it is doing this 
without the involvement of local people. It rushed through this 
National Environmental Policy Act (NEPA) process apparently 
because it did not want to slow down the commercial fisheries.
    Even the Environmental Protection Agency (EPA) noted NMFS' 
failures to involve local people:

        Concern with the Supplemental Environmental Impact Statement 
        (SEIS) lacking a discussion of impacts on Alaska 
        Natives'subsistence needs and uses

          Our comment stated that NEPA, Alaska National Interest Lands 
        Conservation Act (ANILCA) and the Federal trust responsibility 
        requires that the SEIS respectively analyze proposed projects 
        which could potentially conflict with Indian tribes (40 CFR 
        1502.16), ``the effects on subsistence uses and needs'' (16 
        U.S.C. Section 3120(a)), and whether proposed actions are 
        consistent with Federal Agencies' fiduciary trust 
        responsibility for Native Alaskans. We also noted that Congress 
        recognizes the importance of subsistence lifestyles even when 
        utilizing threatened or endangered species by granting taking 
        exemptions for the Endangered Species and Marine Mammal 
        Protection Acts at 16 U.S.C. Section 1539(e).
          Our comment was that the SEIS lacked and continues to lack a 
        discussion of the impacts of the Fishing Management Plan (FMP) 
        on Native subsistence users and should include an analysis of 
        direct, indirect and cumulative impacts on subsistence users as 
        required by NEPA (40 CFR 1502.16). We strongly recommend that 
        you consult with subsistence users regarding the impacts of the 
        fisheries. Notably absent from the SEIS is consultation with 
        the tribes that have hunted and fished the region for centuries 
        and depend on it for subsistence . . .
          Another aspect which was completely missing from the decision 
        making process was consultation with Federally recognized 
        Tribal governments in Alaska in accordance with the general 
        trust responsibility and the recent Presidential Executive 
        Order of May 31, 1998, Consultation and Coordination with 
        Indian Tribal Governments (E.O. 13084). Tribal governments are 
        uniquely qualified to provide knowledge about resource trends 
        and potential impacts to people and resources in their homeland 
        areas. The SEIS has not directly consulted tribal governments, 
        and thus cannot provide a complete discussion of significant 
        environmental impacts.
    I have attached this letter to my testimony, and it underscores the 
frustration we have with NMFS.
    The use of Alaska Native traditional knowledge and wisdom along 
with ecosystem-based research is in order. This approach will be an 
effective process for identifying appropriate strategies to address the 
severe declines of animal species in Alaska waters. We must ensure the 
trawl fisheries do not over-exploit these waters in order to maintain 
the balance in nature necessary to sustain the food chains in the 
Bering Sea and the Gulf of Alaska ecosystems. We must protect this 
delicate balance in nature to preserve sustainable fisheries and the 
Alaska Native hunting, fishing and gathering lifestyle.
    Mr. Chairman, and distinguished members of the Subcommittee on 
Fisheries Conservation, Wildlife and Oceans. Thank you for the 
opportunity to testify today.

    Mr. Saxton. [presiding] Thank you very much.
    Mr. Van Tuyn.

        STATEMENT OF PETER VAN TUYN, TRUSTEES FOR ALASKA

    Mr. Van Tuyn. Thank you, Mr. Chairman. I am the litigation 
director of Trustees for Alaska, which is a nonprofit public 
interest and environmental law firm in Anchorage. We are based 
in Anchorage. We, along with Earthjustice Legal Defense Fund, 
represent Greenpeace, American Oceans Campaign and the Sierra 
Club in the pending lawsuit on the North Pacific groundfish 
fisheries.
    My testimony will be directed primarily to NMFS' 
obligations under the Endangered Species Act, the Magnuson-
Stevens Act and NEPA with respect to those fisheries. Before I 
begin, though, I would like to illustrate why we are here. We 
have got three pictures of what was once the largest sea lion 
rookery in the world. The first picture shows that rookery in 
1969. The second picture shows that same rookery in 1979, and 
the final picture shows that rookery in 1986. Those numbers are 
no better today, Mr. Chairman. That is why we are here.
    The United States Supreme Court said in the renowned 
Tennessee Valley Authority case that the Endangered Species 
Act, when passed, was the most comprehensive legislation for 
preservation of endangered species ever enacted by any nation. 
That is still true today. Section 7 of the Endangered Species 
Act requires Federal agencies undertaking actions which may 
impact listed species to consult with an expert agency. This 
consultation is to ensure that that agency's actions are not 
likely to jeopardize the continued existence of a listed 
species or result in the adverse modification of its critical 
habitat.
    It is somewhat unique in the case at hand where the 
National Marine Fisheries Service is both the action agency 
charged by the Magnuson-Stevens Act with implementing and 
managing the fisheries and the expert agency charged by the 
Endangered Species Act with protecting listed species.
    Importantly, under the Endangered Species Act, listed 
species get the benefit of the doubt. Thus, NMFS had to show 
that the pollock fishery was not harming the Steller sea lion 
or its habitat, and its December 1998 biological opinion 
reveals that it could not make this showing.
    The question was raised earlier why NMFS felt over the 
years and through prior consultations that it could make this 
showing. The difference is that the Steller sea lion has 
continued its very drastic decline, being downgraded from 
threatened to endangered in 1997, and throughout all of the 
previous consultations the food stress issue was identified as 
a possible cause, and pointed research was identified as 
something that could change the agency's consultation opinion 
at some later date. That later date concluded in December 1998 
with the jeopardy and adverse modification findings, based in 
part on the new information that concerned localized depletions 
of pollock, information that was not available before that 
time.
    In line with the Endangered Species Act, and as you have 
heard here this afternoon, NMFS then laid out a reasonable and 
prudent alternative that would set the stage for avoiding 
jeopardy and avoiding adverse modification of habitat. It was 
at this point that NMFS took its unprecedented step of asking 
the Council to review the reasonable and prudent alternatives. 
Not unexpectedly, the Council, which is industry-dominated, 
diluted every single management measure which NMFS had said was 
necessary to avoid jeopardy and adverse modification. It moved 
the bar from where the scientists said it should be to a lower 
level.
    NMFS then adopted all of the Council's changes with no 
explanation as to how moving the bar down protected the Steller 
sea lions from jeopardy or adverse modification. This raises 
Endangered Species Act concerns. As the United States Supreme 
Court said, Congress has spoken in the plainest of words, 
making it abundantly clear that the balance has been struck in 
favor of affording listed species the highest of priorities.
    We have also heard today that the Magnuson-Stevens Act 
somehow excuses or gives NMFS the obligation to take the 
Council's thoughts into account when developing the reasonable 
and prudent alternatives. I beg to differ, Mr. Chairman. The 
Magnuson-Stevens Act and the Endangered Species Act are 
actually quite complementary. Both require that NMFS act as a 
careful steward of marine resources. In fact, at the bottom 
line, if there is a conflict between the Endangered Species Act 
and other law, the ESA requires agencies to alter ongoing 
projects to afford listed species the highest of priorities.
    Thus, while it was not necessarily improper for NMFS to 
allow the Council to review the reasonable and prudent 
alternatives, it was improper for NMFS to lower and sanction 
the Council's actions with no regard for what they had to do 
with the Steller sea lions.
    Finally, I will touch on the National Environmental Policy 
Act which, when used correctly, could have avoided the 
situation in the first place. Under that landmark environmental 
law, the twin goals of which are to inform decision makers and 
inform the public participation of agency action, the agency 
should be doing a big picture spot check of the impacts of its 
actions. That means throughout the twenty-odd years of NMFS' 
management of groundfish fisheries in the North Pacific, it 
should have looked at the full impact of its actions. If it 
could have foreseen through that process the problems that were 
coming, we might not be in the crisis situation we are in 
today.
    In conclusion, Mr. Chairman, if you protect the ecosystem 
and analyze it through these NEPA analyses, you are also 
protecting the sustainability of the fisheries. That is a key 
point because as goes the Steller sea lions, so will go the 
rest of the Bering Sea, including the fisheries.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Van Tuyn follows:]

            STATEMENT OF PETER VAN TUYN, TRUSTEES FOR ALASKA

    Mr. Chairman, and distinguished members of the Subcommittee 
on Fisheries Conservation, Oceans, and Wildlife, thank you for 
the opportunity to testify today regarding the National Marine 
Fisheries Service's (NMFS) development of the Biological 
Opinion, jeopardy and adverse modification finding, and 
reasonable and prudent alternatives for the management of the 
pollock fishery in the Bering Sea and Gulf of Alaska. I am the 
litigation director for Trustees for Alaska, a non-profit 
public interest environmental law firm based in Anchorage, 
Alaska. We, along with the Earthjustice Legal Defense Fund, 
represent Greenpeace, the American Oceans Campaign, and the 
Sierra Club in the pending lawsuit against the National Marine 
Fisheries Service over the conduct of the massive North Pacific 
groundfish fisheries and their impact on the endangered Steller 
sea lion. My testimony today will be directed primarily to the 
obligations of NMFS under the Endangered Species Act (ESA), the 
Magnuson-Stevens Act (MSA), and the National Environmental 
Policy Act (NEPA) with respect to the management of those 
fisheries.
    As the Supreme Court noted in TVA v. Hill, the Endangered 
Species Act was, when passed, ``the most comprehensive 
legislation for the preservation of endangered species ever 
enacted by any nation.'' That is still true today. Section 4 of 
the Act sets up a process by which imperiled species are 
designated as either threatened or endangered, and section 9 
prohibits the ``taking'' of any such listed species or its 
habitat.
    Section 7 of the ESA--which is what we are talking about 
today--requires that any Federal agency undertaking an action 
that may affect a threatened or endangered species must engage 
in formal consultation with the expert agency to ``insure'' 
that its actions are not ``likely to jeopardize the continued 
existence,'' or ``result in the destruction or adverse 
modification of'' the critical habitat of that species. That 
consultation process results in a Biological Opinion giving the 
agency's view of whether such jeopardy or adverse modification 
is likely to occur. If the expert agency finds that jeopardy or 
adverse modification is likely to occur then the expert agency 
must ``suggest those reasonable and prudent alternatives which 
[it] believes will'' avoid such jeopardy or adverse 
modification.
    With respect to the endangered Steller sea lion, NMFS is 
the ``action'' agency because it manages the groundfish 
fisheries. NMFS is also the ``consulting'' agency, because it 
is charged with protecting marine mammals such as the Steller 
sea lion.
    The important thing to remember about this consultation 
process is that the species always gets the benefit of the 
doubt. So, in this case, the agency must show that the huge 
pollock fishery does not jeopardize the continued existence of 
the Steller sea lion or adversely modify its critical habitat. 
That proved to be a showing that the agency's experts could not 
make.
    I understand that the focus of today's hearing is on the 
process that resulted in this determination, so I want to back 
up a little bit to discuss the facts that triggered this 
consultation. First, and most importantly, the Biological 
Opinions that governed the Bering Sea and Gulf of Alaska both 
stated on their faces that they would no longer be valid for 
the 1999 fishery, so NMFS really had no choice but to prepare a 
new Biological Opinion. In addition, Congress passed the 
American Fisheries Act and the North Pacific Fishery Management 
Council adopted the Inshore/Offshore Amendments, both of which 
substantially changed the way the pollock fishery was 
prosecuted and would have required new consultation. Moreover, 
the Steller sea lion was downgraded from threatened to 
endangered in 1997, indicating that then-existing conservation 
measures were not stemming its decline. These are just a few of 
the factors that led to the reinitiation of consultation and 
the current opinion.
    As this consultation proceeded, it became apparent to NMFS 
scientists that the massive commercial pollock fishery was 
likely to jeopardize the continued existence of the Steller sea 
lion and to modify its critical habitat. This determination was 
spurred, in part, by new information indicating that the 
fisheries do indeed cause localized depletion of pollock and 
Atka mackerel, the two most important prey species for Steller 
sea lions.
    When NMFS began to realize this, it took--from our 
perspective--the unprecedented and unusual step of asking for a 
special Council meeting to discuss its likely conclusion. The 
Endangered Species Act neither requires nor prohibits NMFS from 
involving the Council in the consultation process. But by 
inviting a political body like the fishery management council 
to weigh into the process, NMFS injected politics into its 
scientific decision. As I will detail, those politics have made 
matters worse for the fishery and for the Steller sea lion.
    The final Biological Opinion was released on December 3, 
1998. Despite the fact that the Endangered Species Act requires 
NMFS to determine the content of the reasonable and prudent 
alternatives, the Biological Opinion contained what the agency 
termed a ``framework Reasonable and Prudent Alternative.'' At 
its December meeting, the Council diluted every single 
management measure that NMFS said in the Biological Opinion was 
required to prevent jeopardy and adverse modification. None of 
these measures were based on maintaining the health of the 
Steller sea lion, but were instead aimed at maintaining the 
profits of the commercial fishing industry. NMFS then adopted 
them without explaining how the sea lion was protected given 
the dilution of the framework alternative.
    This clearly violated both the letter and the spirit of the 
ESA. To quote TVA v. Hill: ``Congress has spoken in the 
plainest of words, making it abundantly clear that the balance 
has been struck in favor of affording endangered species the 
highest of priorities.'' That mandate was not followed in this 
instance.
    So the notion that NMFS failed to involve the Council in 
the development of the Biological Opinion and the Reasonable 
and Prudent Alternative is not supported by the facts. The real 
problem with the process was that NMFS completely failed to 
inform the Council how limited the Council's discretion was in 
this instance. While NMFS was within its rights to ask the 
Council the best way to implement the measures that NMFS 
determined are necessary to protect endangered Steller sea 
lions, NMFS had no authority to allow the Council to lower the 
bar by weakening the effectiveness of the Reasonable and 
Prudent Alternative. This was a complete abdication of its 
authority by NMFS and simply cannot be tolerated under the 
Endangered Species Act.
    Nothing in the Magnuson-Stevens Act changes this 
conclusion, moreover. Rather, the Magnuson-Stevens Act and the 
Endangered Species Act are complementary in that they both 
require NMFS to act as a careful steward of marine ecosystems.
    Although Magnuson-Stevens does not specifically reference 
the Endangered Species Act, it clearly requires that the 
Secretary of Commerce (and thus NMFS) must ensure that proposed 
Fishery Management Plans, Plan amendments and regulations 
comply with ``other applicable law.'' ``Other applicable law'' 
obviously includes the Endangered Species Act. If there is a 
conflict between the ESA and the agency's duties under its 
authorizing statute, the ESA ``require[s] agencies to alter 
ongoing projects'' and ``afford[s] endangered species the 
highest of priorities.'' In sum, Magnuson-Stevens itself 
requires NMFS to comply with ``other applicable law,'' 
including the Endangered Species Act, in managing United States 
fisheries. If there were a conflict between the authorizing 
statute (Magnuson-Stevens) and the Endangered Species Act, the 
Endangered Species Act governs.
    Again, if NMFS wanted to seek input from the Council 
through the Magnuson-Stevens process, that was not necessarily 
impermissible or improper, but the Council process does not 
give NMFS the authority to weaken protections required by the 
Endangered Species Act.
    Better, though, would have been for NMFS to use the well-
established National Environmental Policy Act process for this 
purpose. Indeed, any concerns about public or Council 
involvement in the Endangered Species Act process could have 
been remedied had NMFS complied with the National Environmental 
Policy Act. NEPA requires that agencies strive to coordinate 
their NEPA compliance ``with environmental impact analyses and 
related surveys and studies required by . . . the Endangered 
Species Act.'' NMFS' own Section 7 regulations reinforce this 
requirement, stating that it ``will attempt to provide a 
coordinated review and analysis of all environmental 
requirements.'' The Council on Environmental Quality--the 
special Federal agency charged with implementing the National 
Environmental Policy Act--has regulations which further 
reinforce this duty.
    Despite the law, NMFS expressly avoided a coordinated, 
integrated, review of Steller sea lion issues in its recent 
Environmental Impact Statement, even though the Section 7 
Biological Opinions were being prepared concurrently with the 
Impact Statement. Had NMFS followed the correct process, the 
public and the Council could have submitted comments on the 
Biological Opinion and its consequences for the fishery. 
Indeed, NMFS could have used this process to seek specific 
input from the Council on management alternatives which would 
sustain the necessary protections for the endangered Steller 
sea lion as identified in the Biological Opinion, while at the 
same time minimizing the impact to the fishery of implementing 
such measures. Indeed, NMFS could have, and should have, used 
the NEPA process over the last twenty years to evaluate the 
full effects on the North Pacific of these fisheries--which may 
have helped avoid crisis situations like that with which we are 
now faced. This it did not do.
    NMFS' failure in trying to avoid jeopardy to the endangered 
Steller sea lion and adverse modification of its critical 
habitat was to unnecessarily and improperly politicize an 
already controversial process. Neither the sea lion, nor the 
fisheries, are better off for it.
    Thank you for the opportunity to testify on this important 
subject.

    Mr. Saxton. Thank you very much, Mr. Van Tuyn. Let me just 
begin by saying that all of you gave very, very good testimony. 
I would just like to give each of you a minute or so to reflect 
on what the first panel discussed, and give us your impressions 
of what you heard from the first panel.
    Ms. Stewart. I think it is hard for me to separate what I 
heard from the first panel from what I have been hearing during 
the course of the most current round of Steller sea lion 
discussions at the council level with NMFS' staff and in other 
meetings, but I think that of the scientists that spoke Kate 
Wynne offered the first practical suggestion that has been 
offered by anybody in a long time, and that is, you have to set 
aside some area where you are going to focus and notice what 
happens in that area and then inform yourself about what else 
you might want to be looking at further on out, instead of 
taking this massive but very general view of the interactions 
between those animals and their environment. That is, I think, 
the kind of thing that has been frustrating for folks in our 
area who live every day with Steller sea lions and fish and 
other animals, but these glittering generalities, these big 
from the sky views of what is happening with the resource are 
not helpful, you need daily contact, you need constant 
experience in the area to see what is going on. So that is all 
I think I have to say.
    Mr. Kelty. I would concur with Beth's statements. I think 
it is encouraging the meeting we had with Secretary Daley 
yesterday and National Marine Fisheries officials gave us, I 
think, some encouragement that they are understanding where we 
are coming from and our concerns. I think it is the science and 
the research is critical that we get increased funding. As I 
stated in my testimony, it is a billion dollar a year fishery, 
but you have got communities that are totally dependent on that 
fishery and fishing fleets, people who have spent their lives 
living in that area, and it is critical that we work on good 
research.
    I mentioned in my testimony that crab collapse in 1981. We 
had 150 million pounds a year of Red King crab, and with no 
warning, fishery was gone, went from 150 million pounds down to 
30 million pounds in 1 year. The next year it was gone totally 
and no warning, you know. Our community was almost 5,000 people 
in those days. Within two years it was down to 1,500, 
businesses were closed, plants were closed, and you know, I 
don't want to see problems like that occur again in my 
lifetime, and it is critical that we work off good science and 
have adequate funding, substantial funding for research.
    Mr. Saxton. Thank you.
    Mr. Burch.
    Mr. Burch. Thank you. I agree with the previous two 
speakers. It is difficult to separate what happened today with 
what I have been hearing in the past. I think my frustrations 
are, is the lack of action after the 1990 lawsuit, the recovery 
teams that were created but not used. Encouraged with the 
meeting, again as I stated, with the Secretary yesterday, I 
think if we can carry forward and have more open meetings and 
they can convince us, you know, that their data is adequate, 
and that is going to be very difficult for me to accept 
because, you know, it is just a total lack of data out there 
that is being used.
    Mr. Saxton. Thank you.
    Mr. Owletuck.
    Mr. Owletuck. Thank you. A comment made by the individual 
who was sitting on the left here, I forgot his name, but he 
made a reference to the fact that the research was being done 
without consultation of the people who live up in the area, and 
I think that is something that needs to be addressed. No 
further comments. Thank you.
    Mr. Saxton. Thank you.
    Mr. Van Tuyn.
    Mr. Van Tuyn. Mr. Chairman, the most telling thing I have 
heard in today's presentation, and in fact we have been hearing 
it from NMFS for a while, is their inability to look forward 
and create a vision for what this fishery needs to look like in 
the future to sustain itself and the health of the Bering Sea 
ecosystem. A lot of comments were made about the peer review 
report that was released two days ago. This is a perfect 
example of how the agency is not focusing on the future but 
looking backward toward the jeopardy and adverse modification 
to see what, if anything, is wrong with that opinion. Let's 
move on. Let's do something that gives us a vision for the 
future. Let's make sure that this ecosystem is protected and 
that the fishery is sustainable.
    Thank you.
    Mr. Saxton. Thank you. Mr. Van Tuyn, the pictures that you 
showed us were very telling, and they show that over--what was 
it, a 26-year period?
    Mr. Van Tuyn. Nineteen sixty nine through 1986.
    Mr. Saxton. That the population has declined, and I don't 
think that anybody takes issue that the population has 
declined. I don't think anyone takes issue with that. The 
question is why. Do you have any information to offer as to 
what the problems are?
    Mr. Van Tuyn. I believe it is actually two questions, Mr. 
Chairman. One is, why did it decline and the second very 
important question is what is inhibiting its recovery. What we 
are talking about here is the recovery of the Steller sea lion, 
and what the scientists have said is that the pollock fishery 
is inhibiting the recovery of the Steller sea lion. That is in 
essence what they are saying, and this is the food stress issue 
that has come up. In fact, if you look at the peer review, 
while it was really unnecessary, its conclusions support 100 
percent what we are saying, which is that the pollock fishery 
jeopardizes the Steller sea lion and adversely modifies its 
critical habitat, and in the context of recovery that is what 
needs to change.
    Mr. Saxton. Let me ask a question, Mr. Van Tuyn, to you 
first and anyone else can comment who wishes to. This is a 
chart which shows from 1989 through 1998 the estimated 
population of the Steller sea lion goes up to a point and then 
decreases, and by coincidence or something, the decrease in 
population seems to be synonymous with the closure of the 
fishery. Is there an explanation that you can offer for that?
    Mr. Van Tuyn. Mr. Chairman, the type of----
    Mr. Saxton. In closed areas I am reminded.
    Mr. Van Tuyn. Sure, and if you look over a significantly 
longer period of time what you see in the areas where there has 
been no trawling, in southeast Alaska, for example, the Steller 
sea lion populations have been stable for quite some time. If 
you look in the areas where there has been heavy trawling, we 
have noticed this 80-plus percent decline in Steller sea lion 
populations. Those numbers which look at over a longer period 
of time than those reflected in that chart are scientifically--
I am not the scientist, I am only the lawyer--but are 
scientifically more valid.
    Mr. Saxton. As the Chairman would say if he were still 
here, Ms. Stewart looks like she's aggravated.
    Ms. Stewart. Yes. I listened to the instructions for 
informing the Chair that I might want to respond earlier on. 
You can make a lot of loose associations between bars on a 
graph and what might have happened. I think for us, comparing 
the western/central Gulf of Alaska and the Bering Sea to the 
eastern Gulf actually raises more questions. The eastern Gulf 
has a very small pollock population. If they have the kind of 
pollock population we have, likely they would have the same 
problems with Stellers that we have is a conclusion I could 
draw. Pollock is not a significant component of the ecosystem 
in southeastern.
    Southeastern has a more stable crab population than we 
have. They have more stable herring populations than we have. 
Southeastern is apparently part of a different ecosystem, and I 
am glad for them. I live in Juneau. I get fresh seafood 
whenever I want it. That is a thrill for me. I think we noticed 
an even more interesting trend, and this is what disturbs us in 
terms of the battle that we all seem to be locked in trying to 
find somebody to blame for the current Steller sea lion 
decline.
    Among people who oppose trawling for a variety of reasons, 
it looks good to try and hang this one on the trawl industry. 
The trawl industry didn't start off at the peak of that 
population and then drive it down. Other things seemed to be in 
play. We have a long-time series of data from Pavlof Bay, which 
is the Aleutians East Borough. Pavlof Bay at one time during 
this period of time Al mentioned, during the shrimp and crab 
days, was predominated by capelin and shrimp in the biomass 
there. This is data looked at by a bird biologist at USGS 
wondering about the decline of seabirds in the same area, and 
pollock were down on that X axis, laying flat almost, right on 
the line.
    So when you watch that chart, all of the sudden you see 
this really smooth but precipitous decline of capelin. Capelin 
were not commercially fished by anybody. There were no markets 
for them or obviously people would have fished them. This 
wasn't some conscientious choice people made. Shrimp followed 
that same line downhill. Shrimp were heavily exploited at the 
same time. Their decline didn't occur any more steeply or any 
differently from the capelin decline, and as that slope went 
like this, the pollock numbers came up like this. So that 
today's data indicate for Pavlof Bay we have a roughly even 
biomass, but the construction of that biomass is inverted from 
what it was in the earlier days.
    We find these relationships interesting and certainly worth 
pursuing. If that is the problem, if there is some cyclical 
nature to pollock-salmon associations, shellfish-capelin 
association, surely those will have effects on directed 
commercial fisheries in those species and specifically on 
animals like seabirds, Steller sea lions, harbor seals, beluga 
whales that depend more heavily on those high fat, high 
energetic fish. Those are the kinds of things we want to look 
at.
    It doesn't mean that we might not want to protect the 
population of animals that Stellers are eating today. They 
can't find capelin, they have to eat something, and it may be 
pollock, but we want a better picture, a longer-term 
understanding of where we are going so that when we get into 
these cycles, we have some ability to predict what is a useful 
response, how can we act in a way that is going to be 
responsible toward sea lions, that is going to be responsible 
toward fishermen who live in the area and depend on the area, 
particularly Native fishermen, instead of deciding that we 
don't like a particular style of fishing and this looks like a 
good way to end it.
    I think that is the point all of us have been trying to 
make here. This is too important an issue to get hung up on 
simple answers where you can link up something based on very 
little data.
    Mr. Saxton. Thank you.
    Mr. Owletuck, in one of your previous statements you 
mentioned that the National Marine Fisheries Service would be 
well served to take more stock of Native knowledge. Is there 
anything in your knowledge or in Native knowledge, as you put 
it, that would indicate that there had been Steller cycles 
previously in history?
    Mr. Owletuck. Mr. Chairman, when questions of that nature 
present themselves, what comes to my mind is the fact that 
anthropologists from such esteemed universities such as Harvard 
go through the jungles of South America and they consult with, 
quote, unquote, witch doctors or elders for their 
pharmaceutical knowledge, and likewise, many Native communities 
in Alaska wish to have scientists who come into their 
communities, or biologists, consult with them and their elders 
who have generations of what scientists would call anecdotal 
observations of their environment, and their intimate knowledge 
of their environment can and has in other parts of the world 
contributed to scientific knowledge. As a matter of fact, in 
Alaska, scientists who are involved in arctic research are 
starting to publish findings that confirm what elders have been 
telling them for years prior to their published findings.
    Mr. Saxton. Thank you. But do you have any knowledge of the 
cyclical patterns that have occurred, cyclical patterns that 
data can point to? Mr. Burch is not looking aggravated.
    Mr. Burch. We had a person on Kodiak that was in charge of 
the archaeological digs on one of the traditional villages 
there on the island where the old village is. They dug back 
about 400 or 500 years in the Midden Heaps there, and there was 
a definite shift. The village would shift between salmon and 
marine mammals. Dr. Rich Kenech, he is now out in Dutch Harbor 
working in that area. I don't know if he has documented any 
food pattern shifts there, but he definitely did on Kodiak. So 
there has been prior shifts.
    Mr. Saxton. Well, thank you very much. I have learned a lot 
today, and I am sure that others have as well. I want to thank 
you all for being here and for travelling so far to do so. You 
have made a real contribution to our knowledge, and we thank 
you for that. The Members may have some additional questions, 
and if there are any, we will submit them to you in writing, 
and the hearing record will remain open for 30 days in order to 
give you adequate time to respond.
    I would also like to ask unanimous consent at this point to 
include all Members' statements in the record. Thank you very 
much for coming and the hearing is adjourned.
    [Whereupon, at 4:05 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows.]

    [The background memorandum prepared by the Subcommittee on 
Fisheries Conservation, Wildlife and Oceans follows:] 

[GRAPHIC] [TIFF OMITTED] T8051.001

 [GRAPHIC] [TIFF OMITTED] T8051.002

 [GRAPHIC] [TIFF OMITTED] T8051.003

 [GRAPHIC] [TIFF OMITTED] T8051.004

 [GRAPHIC] [TIFF OMITTED] T8051.005

 [GRAPHIC] [TIFF OMITTED] T8051.006

 [GRAPHIC] [TIFF OMITTED] T8051.007

 [GRAPHIC] [TIFF OMITTED] T8051.008

 [GRAPHIC] [TIFF OMITTED] T8051.009

    [The prepared statement of Mr. Boyd follows:]

                         STATEMENT OF I.L. BOYD

1. Preamble

    1.1. This comment is based around the questions put to the 
independent Scientific Panel that was constituted by the North 
Pacific Fisheries Management Council to review the Biological 
Opinion issued by NMFS on 3 December 1998. The Opinion 
concerned authorization of Atka mackerel and walleye pollock 
fisheries in the Bering Sea-Aleutian Islands fishing grounds 
and the walleye pollock fishery in the Gulf of Alaska. Although 
invited to participate, other commitments did not permit me to 
sit on this panel.
    1.2 The comment also forms a written response to an 
invitation to appear as a possible witness before the 
Congressional hearing of the House Resources Committee on 20 
May 1999. Again, due to other commitments, I was unable to take 
up this invitation.
    1.3. Declaration of interests. This comment is a personal 
point of view. It does not necessarily represent the views of 
my employer. There will also be no financial consequence for me 
whatever decisions are made about the fisheries management 
actions being proposed in the Opinion. I have received no 
payment for this comment and I have no affiliation, income or 
other association with any U.S. government agency, the fishing 
industry or any non-governmental organization that has an 
interest in this issue. My interests are purely academic.

Question 1. Do the best available scientific and commercial 
data in the opinion support a conclusion that the pollock 
fisheries compete with the western population of Steller sea 
lions?
    2. Sub-question 1.1 Were the best scientific and commercial 
data available considered in addressing the issue of potential 
competition between Steller sea lions and the pollock 
fisheries?
    2.1 The opinion is a reasonably thorough review of the 
literature and available data. It is built upon the twin 
pillars of opinion that Steller sea lions are suffering food 
deprivation indicated by poor body condition and that the major 
demographic impact of this is observed amongst juveniles. 
However, the Opinion could have amplified key issues relating 
to the level of confidence that one can place in supporting 
data and, in particular, it could have done a better job of 
identifying critical gaps in basic knowledge. Some of these can 
be summarized as follows:

        (i) Current estimates of Steller sea lion population trends 
        are, to an important degree, uncertain. While there is without 
        doubt a continuing overall decline in numbers in the western 
        population, the rate of decline is inconsistent among regions 
        and in some parts of the western population there would even 
        appear to be a slight increase in numbers.
        (ii) The data used to build many of the current ideas about the 
        causes of the decline in Steller sea lions (high juvenile 
        mortality, poor body condition) are now somewhat out-dated 
        (collected in the 1970s-1980s). The demographic and 
        physiological indices derived from these data have specific 
        problems associated with them, especially in relation to how 
        well they represented the population they were taken from, even 
        at the time the samples were obtained.
        (iii) The Opinion, in general, ignores evidence that does not 
        provide positive support for the main hypotheses. For example, 
        despite recent research efforts that were designed to target 
        sensitive periods of the reproductive cycle, there is no 
        evidence that adult females or their pups suffer reduced body 
        condition. Although, for practical reasons, these studies were 
        restricted to rather narrow time periods within the 
        reproductive cycle, the studies were designed around the 
        responses of related pinnipeds to known periods of food 
        deprivation. The fact that no evidence of either acute or 
        chronic food deprivation has been detected seems not to have 
        resulted in an adjustment the opinion expressed by NMFS.
        (iv) Insufficient attention may have been given to parallel 
        studies of related pinnipeds. Steller sea lions are 
        particularly difficult to study so it seems reasonable that 
        NMFS should draw as much information as possible from studies 
        of other pinnipeds that have general implications. For example, 
        information about foraging ranges shows that pinnipeds 
        generally forage over much greater distances and are apparently 
        more able to move in directed ways to foraging grounds than had 
        generally been expected in the past. Set in this context, it is 
        therefore possible that the concepts of critical habitat and 
        localized depletion as presented in the Opinion require to be 
        updated.
        (v) Although studies of diet have taken place and these are 
        useful, knowledge of the diet of Steller sea lions is still not 
        very substantial, especially from the GOA and BSAI. Diet 
        sampling is known to be biased and it could be argued that the 
        way in which diet has been assessed to date was likely to show 
        that Steller sea lions depended on pollock because samples have 
        mainly been obtained from locations adjacent to known areas of 
        pollock concentration. The important question is, how 
        representative is this of the diet of the population as a whole 
        and especially of the diet at critical phases of the annual or 
        life cycle?
        (vi) The Opinion could have done more to highlight the 
        potential interpretations of the diet information. The fact 
        that sea lions and the fishery apparently take pollock of a 
        similar size range does indeed provide evidence of overlap and 
        of potential competition, but it also could be used to suggest 
        that there is no competitive exclusion of sea lions and that 
        sea lions are not having any trouble competing with the 
        fishery. If the fishery really does deplete the major size 
        classes it takes then we would expect sea lions to concentrate 
        their predation upon the size classes that are not fished so 
        heavily. Perhaps Fig. 40b provides some supporting evidence for 
        this?
    2.2. Several important statements within section 5 of the Opinion 
appear not to be well supported by data. These include:

        P99, paragraph 2. There is general scientific agreement that 
        the decline of the western population of Steller sea lions 
        results primarily from declines in the survival of juvenile 
        Steller sea lions. While it is true that the observed 
        population decline could, in theory, be due to reduced juvenile 
        survival, there is very little evidence for this. In fact, 
        populations are more sensitive to adult female survival so 
        there are also good theoretical reasons for suggesting that a 
        smaller reduction in this parameter could have resulted in the 
        decline, although evidence is also lacking for this. Again, the 
        data used to derive this conclusion are somewhat out of date 
        and of questionable quality.
        P99, paragraph 2. There is also general scientific agreement 
        that the cause of the decline in the survival of juvenile 
        Steller sea lions probably has a dietary or nutritional cause. 
        Again, the evidence for this is lacking and, as stated above, 
        if one weighs up the evidence supporting such a statement with 
        the evidence against, it would really be impossible to derive 
        such a sweeping conclusion. However, it does remain as a 
        primary hypothesis.
        P99, paragraph 5. There seems to be general agreement in the 
        scientific community that the western population of Steller sea 
        lions would fare better on a more diverse diet consisting of 
        herring, capelin, or eulachon. Beyond a few inconclusive pilot 
        studies of captive sea lions, no evidence exists to support 
        such a strong statement.
        P101, paragraph 4. The winter months are an important foraging 
        periods for Steller sea lions because their greater metabolic 
        demands during the harsh winter period increase their energy 
        demands and make them more sensitive to reductions in prey 
        availability. Also see item (a) in paragraph 2 on page 102. The 
        energy demands of Steller sea lion in winter have never been 
        measured. I would not dispute the idea that the winter months 
        are likely to be an important foraging period, but we really do 
        not know anything about relative sensitivities to prey 
        availability at different times of year in any pinniped. These 
        types of animals exhibit behavioral and physiological 
        mechanisms that can be used to balance energy budgets 
        throughout periods of fluctuating prey abundance.
        P108, paragraph 3. . . . seem to rely on aggregations of 
        walleye pollock. While there are dietary studies that support 
        the view that Steller sea lions feed mainly on pollock in some 
        parts of their range, there is no evidence that they require 
        aggregations of pollock.
        P85, paragraph 4. . . . but the effect [of intentional take of 
        Steller sea lions] would not account for the total decline of 
        the western population. There is little evidence to support 
        this statement. If one adds up all the records of intentional 
        kill there is a shortfall and these numbers do not account for 
        all the decline. However, there appears to have been a culture 
        of extermination directed towards the Steller sea lion in 
        Alaska and we have to accept that the records of intentional 
        killing may fall well short of the true levels of killing that 
        took place through the 1960s and 1970s. Some of the anecdotal 
        descriptions of what went on are, frankly, shocking if they are 
        to be believed.
        P71, paragraph 2. I feel that the way in which the potential 
        impact of the subsistence harvest has been portrayed diminishes 
        its potential significance. There are few management options 
        available to improve the lot of the Steller sea lion. Stopping 
        the intentional killing is perhaps the most obvious, easily 
        implemented and immediate action that could be taken. The value 
        of 6 percent given in this paragraph is misleading. If one 
        considers this as a proportion of the mortality that is 
        actually causing decline then the percentage taken in a 
        subsistence harvest is closer to 15 percent.
        P102, paragraph 4. As a result, there is a high risk that the 
        western population of Steller sea lions could become extinct 
        within the foreseeable future if their decline is not abated 
        and their rate of increase is not improved. On the surface, 
        this is a reasonable statement, but it ignores some of the 
        basic principles of population regulation and, to a degree, it 
        contradicts the food-limitation hypotheses that is clearly 
        being pursued as a policy by NMFS. If food is the limiting 
        factor, then we would expect that, through the processes of 
        density-dependence, the population would self regulate to match 
        its food supply. Although unpredictable population fluctuations 
        can occur because of the intrinsic dynamics, in general, we 
        would expect the population to stabilize at a reduced level, if 
        it was being regulated by a density-dependent process. What 
        this statement in the Opinion is implying is that NMFS does not 
        believe that a density-dependent process is operating which 
        suggests to me that they believe that it is not just food 
        depletion that is responsible for the decline of Steller sea 
        lions.
    2.3. The final statement I have highlighted above in section 2.2 
indicates a further philosophical flaw. On P100, NMFS provides the 
three assumptions that, in their view, require to be addressed by the 
Opinion. To my mind, a central assumption must also be that Steller sea 
lion populations will exhibit classical density-dependence. I have 
found no acknowledgment within the Opinion that this is a possibility. 
As a result, it would appear that little research has taken place to 
examine the population data for evidence of density-dependence. In my 
view, it is remarkable that the decline in the Steller sea lion has 
continued in a sustained manner for so long. This suggests several 
possible processes:

        (i) The population is continuing to track a resource that is in 
        long-term decline.
        (ii) Because of time lags and difficulties with collecting high 
        quality population data (and perhaps because nobody has 
        looked), density-dependent recovery/stabilization of the 
        population is already under way but cannot be detected at 
        present.
        (iii) The population is being regulated by a factor that is 
        insensitive to density.
    2.4. Item (i) could result from long-term changes in the 
environment that are being tracked by sea lions or from a sustained 
increase in fishing pressure on the food resources that support Steller 
sea lions. I see no evidence for a long-term, sustained increase in 
fishing pressure, except perhaps in terms of the apparent increased 
localization of the fishery around possible critical habitat, 
especially in the BSAI region. Conversely, there is evidence of a 
proximate change in the environment, although how this impacts Steller 
sea lions is uncertain. Item (ii) requires to be eliminated by 
improving the population data and revisiting its analysis. Item (iii) 
is the most problematical possible underlying cause of the decline 
because there are few factors that are completely insensitive to 
density. Two such factors are pollution and predation by a numerous and 
powerful predator that regards Steller sea lions as a secondary or 
tertiary prey item and whose own population dynamics is unaffected by 
whether or not Steller sea lions can be hunted. The only two groups of 
predators that potentially fit this description are man and killer 
whales.
3.Sub-question 1.2 Do the available scientific and commercial data 
provide a reasonable scientific basis to conclude that the pollock 
fisheries, if left unchanged, could reasonably be expected to 
jeopardize the continued existence of the western population of Steller 
sea lions?
3.1 Based on the arguments I have made above concerning density-
dependence and the fact that the functional relationship between 
pollock and Steller sea lions is unknown, I think the answer to this 
question would have to be a qualified no.
3.2. I do not believe that food depletion caused by a viable, 
commercial and unsubsidized fishery, on its own, is likely to result in 
the extinction of the Steller sea lion. In the worst case, it could 
deplete the population to such an extent that it would then become 
vulnerable to additional stresses, including natural disasters and by-
catch, that could cause extinction. In my view, so long as the fishery 
was not subsidized, the fishery would go extinct long before the sea 
lion.
3.3. It seems most probable that Steller sea lions, like most 
pinnipeds, forage on the most abundant prey within their range. If the 
current stock assessments for pollock are to be believed, then there 
would appear to be sufficient pollock for sea lions. It is possible 
that sea lions rely on locating prey patches and if a fishery reduces 
the frequency of patches in the environment or the quality for sea 
lions (note may be different from their size), then they may have 
trouble balancing their energy budgets at critical times. However, 
there are several lines of evidence that do not support this argument, 
even though it is an area that merits much more theoretical and 
practical research. These are:

        (i) If sea lions relied on locating prey patches, we might 
        expect a strong interaction between fishing vessels and sea 
        lions (as happens between Hooker's sea lions and pelagic trawl 
        squid fisheries in New Zealand). The logic for this is that 
        fishing vessels will predate patches which should also attract 
        sea lions and also, in the eyes of a sea lion, some of the 
        densest aggregations of pollock to be found will be at the back 
        of fishing vessels. As far as I am aware there is no strong 
        interaction between fishing vessels and sea lions. An 
        explanation for this may be that, due to many decades of 
        depredation by man of sea lions around fishing vessels, there 
        has been very strong selection for vessel avoidance by sea 
        lions, assuming that such a feature could be an inherited 
        trait.
        (ii) Probably the most critical nutritional phase in the life-
        history of Steller sea lions is early lactation when mothers 
        (the reproductively active segment of the population, which is 
        critical to the dynamics of the population) are restricted to 
        foraging within a specific radius of the breeding rookeries. At 
        all other times they are free, at least in theory, to move to 
        where the food is. Thus, even if patch distribution is altered 
        to the detriment of sea lions, they have flexibility in where 
        and how they forage. Experimental studies both in pinnipeds and 
        other predators show that these predators have quite remarkable 
        flexibility and are rarely bound to a stereotypic pattern of 
        behavior. During early lactation, when this flexibility is 
        greatly reduced resulting in potentially greater sensitivity to 
        the distribution of food, the current data do not suggest that 
        mothers are encountering nutritional stress.
3.4. The Opinion did not appear to contain any statement about the 
probable social and financial costs of the proposed RPAs. In my view, 
it is very difficult to assess the validity of RPAs without these. For 
example, if the net cost to the industry of introducing the RPAs was 
negligible then, even without supporting biological data, they could be 
considered to be reasonable and prudent. Conversely, if they resulted 
in severe financial or social distress then one may not come to the 
same conclusion.
4. Sub-question 1.3 Do the available scientific and commercial data 
provide a reasonable scientific basis for the conclusion that the 
pollock fisheries, if left unchanged, could reasonably be expected to 
adversely modify the critical habitat of Steller sea lion?
4.1. Much of my response to sub-question 1.2 is also relevant to the 
assessment of effects on critical habitat. The jury is still out on 
exactly what ``critical habitat'' Steller sea lions require. Our's is 
still a very land-based view of these animals.
5. Question 2. If you conclude that the available data and analysis 
support the conclusion that the pollock fisheries could reasonably be 
expected to either jeopardize the continued existence of the Steller 
sea lion or adversely modify its critical habitat, then are the 
principles for establishing the RPAs adequately supported by the 
available scientific and commercial data?
    The Opinion provides the logic for the proposed RPAs. However, 
since little is known about how either the spatial or temporal 
distribution of pollock affects Steller sea lions then there seems to 
be little scientific evidence to underpin the RPAs. Nevertheless, if 
one wishes to adopt a cautious approach in a situation where there is 
almost no information then the RPAs, as proposed here, would appear to 
be reasonable. In particular, preventing extreme spatial and temporal 
concentration of fishing effort would appear to be a prudent action, 
even if there is little foundation for this in the scientific data.
In my view, the central questions are, what level of risk is there 
associated with continuing with the present fisheries policy and how 
would this be changed by the recommended RPAs? As I have indicated, I 
believe the level of risk associated with the current policy is likely 
to be low because there is no strong evidence linking the decline in 
Steller sea lion abundance with the pollock fishery. Unfortunately, it 
is impossible to formally quantify the risk involved.
5.3. Nevertheless, the decline in the population of Steller sea lions 
has, almost without doubt, multiple causes, with many different factors 
contributing to the decline. The strength of the contributing factors 
will also vary in space and time and it may not be sensible to imagine 
that a single dominant factor will emerge from well designed research. 
Moreover, even if such a factor did emerge, it may be beyond our 
capabilities to do much about it. Manipulating the fishery is one of 
the few tools we have available to us and the current RPAs are an 
honest attempt by NMFS to satisfy the demands of its many constituents.
5.4. As stated in 3.4, the validity of the proposed RPAs really depends 
on the financial and social cost-benefit analysis. If this has been 
done, then it does not appear to have been made available in the 
current documentation. Therefore, it really is impossible to judge the 
meaning of ``reasonable'' in the context of these RPAs.
6. Sub-question The views of the panel are solicited as to other 
approaches that could be considered by the Council for the longer term, 
and that would still be supported by the available scientific and 
commercial data?
6.1. The problem with the RPAs as they stand is that they are a shot in 
the dark. There is no way of properly assessing either if they are a 
reasonable approach or their subsequent effectiveness. They are only 
supported by simple conceptual models with no predictive capability. If 
they are implemented then it should be understood that they are being 
carried out because there is a perception that something has to be done 
to alleviate the decline of the Steller sea lion, not because they have 
a reasonable chance of succeeding in their objective. The currently 
proposed RPAs may help our consciences but they are much less likely to 
help Steller sea lions.
6.2. In reality, whatever the root cause of the decline in the Steller 
sea lion population is, there are relatively few factors that managers 
have the power to control. Since it appears that by-catch and illegal 
hunting may be under control, reducing either fishing pressure on their 
food source and legal hunting are about all that remains to be 
manipulated.
6.3. I have already gone on record as saying that the most immediate 
and reasonable prudent action that could be taken would be to stop all 
hunting of Steller sea lions. Unlike the RPAs proposed in the current 
Opinion, we know this will have an immediate impact on the number of 
Steller sea lions. If society values Steller sea lions enough, then it 
may be reasonable to compensate local peoples for the loss or 
suspension of their traditional right to hunt Steller sea lions.
6.4. In the meantime, much more could be done to examine ways of 
modelling the interactions between Steller sea lions and fisheries with 
a view to developing properly constructed management strategies that, 
if applied in the long-term, might be both effective and be seen to be 
effective. This would also provide a consistent framework within which 
the fishery could plan its investment and operational strategy.
6.5. The Steller Sea Lion Recovery Plan has manifestly failed to 
achieve its objectives, despite much investment in research. At the 
same time, one of the best regulated and most thoroughly investigated 
fisheries in the world has been managed with little formal recognition 
of the need to include competing top-food-chain predators as explicit 
parts of the pollock stock assessment models. We have the intellectual 
foundations to achieve such an integration but institutional barriers 
prevent meaningful progress. If the United States wishes science to 
begin to provide practical, strategic solutions to the problem of 
Steller sea lion interactions with pollock then it has to break these 
barriers down.
6.6. In the end, the problem of what should be done to help Steller sea 
lions out of the hole they are in is not one that science can solve. It 
is a matter for the democratic process to decide if people place a 
higher value on having Steller sea lions than cheap fish or if they are 
willing to take the risk involved in trying to have both.

                                 ______
                                 

              Statement of Rick E. Marks, Sea Lion Caucus

    1. The agency seems to have made a very sudden decision 
that the pollock fishery constitutes jeopardy to Steller sea 
lion recovery. In fact, the restrictions to the fishery were 
imposed by emergency rule. Hasn't the agency continuously 
determined that the fishery did not pose a risk to Steller 
recovery? What occurred that not only changed the agency's 
decision on jeopardy, but also did so rapidly enough that the 
agency had to act under an emergency rule?
    To date, the agency HAS NEVER explained which specific 
changes in the fishery precipitated emergency actions to 
protect the continued existence/recovery of sea lions. There 
were no apparent, significant deviations looming for the 1999 
fishery compared to other years (i.e. 1991, 1996, 1998) when 
``no jeopardy'' findings were recorded by the agency. In our 
opinion, the ONLY immediate difference was the lawsuit filed by 
the conservation community. There is simply no rational 
alternative explanation available.
    Regarding the timing issue, the agency actually had enough 
advance notice to avoid the ``emergency'' situation. In fact, 
the agency was formally served on April 15, 1998 and on notice 
prior to that when the environmental community filed an intent 
to sue. Clearly, the agency was well aware for a MINIMUM of six 
months that problems existed with the management of SSL. Yet as 
late as October 1998, the Council was not actively considering 
new SSL mitigation measures.
    2. Your testimony talks about stakeholder involvement in 
NMFS'decision-making process. Has there been any stakeholder 
process in this case?
    NMFS SSL stakeholder process is NON-EXISTENT. During the 
December Council meeting, NMFS staff was very clear, stating 
that the agency was both the ``acting'' and ``offending'' 
agency and not required to consider any outside mitigation 
alternatives. Agency staff also indicated the SSL Recovery Team 
was NOT consulted on the RPA's. The Council became involved 
only very late in the process and under such an imposing time 
constraint that it was severely restricted in what alternatives 
it could consider.
    The normal conduits for public involvement are through the 
Council public comment process and the SSL Recovery Team. Since 
both of those options were not readily available, public access 
was handicapped from the start.
    Furthermore, according to Secretarial Order #3206, the 
agency is required to work closely with Native entities to 
ensure their natural resource interests are given due 
consideration. Since there was no stakeholder process, the 
Native entities were not afforded consideration pursuant to 
this SO.
    One way to address the lack of process and public input is 
to mandate development of a ``Take Reduction Team-style'' 
approach for SSL in Alaska. TRT's were a component of the 1994 
MMPA amendments designed to address commercial fishing-mammal 
interactions. This concept, already in practice, could be 
adopted for the SSL situation. It would increase stakeholder 
input, improve communication, and ensure that all information 
is given thorough consideration.
    3. Under the normal ESA process, a Biological Opinion will 
contain an economic analysis. Does this Biological Opinion 
contain such an analysis?
    The December 3, 1998 Biological Opinion does not contain an 
economic analysis component. Section 5.0 titled ``Effects Of 
The Actions'' appears to be the appropriate section for the 
community impact analysis. However, this section is devoted 
solely to the impacts of the actions on sea lions, rather than 
a more comprehensive approach including both impacts on SSL AND 
the human environment.
    4. Your testimony discusses the Scientific and Statistical 
Committee (SSC) of the North Pacific Council. What is this 
body, and is it made up primarily of people with scientific 
backgrounds? How did the SSC feel about the NMFS research 
program and the speed of the decision that management of the 
pollock fishery needed to be changed?
    SSC's provide scientific advice to the regional management 
councils. Section 302(g) of the MSFCMA specifies that each 
council shall establish an SSC to assist in the development, 
collection, and evaluation of statistical, biological, 
economic, social, and other relevant information for 
consideration in the FMP development and amendment processes.
    The North Pacific Council's SSC is composed of thirteen 
members representing the following: NMFS' Alaska and Juneau 
Fisheries Science Centers; USU, Dept. of Economics; UAF, School 
of Fisheries/Ocean Sciences; ADF&G; USFWS; Univ. of California 
at Davis, Dept. of Agricultural Economics; UA Juneau, Center 
for Ocean Studies; Oregon Dept. of Fish & Wildlife; and the 
International Halibut Commission. Despite the impressive 
membership, this body was not consulted to any significant 
extent.
    The North Pacific Council's SSC clearly articulated its 
concerns regarding the pace of the process and lack of sound 
scientific information upon which to build sensible mitigation 
measures. Despite the fact that the fishery is managed by the 
Council with scientific input from the SSC, no scientific 
information was provided by the agency.
    The SSC minutes from the December 1998 meeting accurately 
reflect the problem--``Although the SSC was requested to 
comment on appropriate actions that might be taken at this 
meeting to meet the RPA's for the 1999 fishery, the SSC 
declines to do so. We were not presented with information to 
complete such a task.''
    At the same meeting, the SSC expressed its concerns 
regarding the quality of the data by stating ``The SSC again 
shares the general discomfort over the large amount of 
uncertainty in the data and large data gaps. Uncertainty allows 
many approaches and interpretations, none of which can be 
overwhelmingly supported by rigorous science at this time. . . 
.''
    5. In your opinion, was the agency helpful in developing 
alternatives to the ``Reasonable and Prudent Alternatives''?
    During the December 1998 Council meeting, agency 
representatives were willing to discuss mitigation measures 
with constituent groups. Unfortunately, the agency 
representatives present at the meeting were not the decision-
makers. Hence, it was very difficult to get a read on exactly 
where the agency was at with respect to mitigation proposals.
    Furthermore, members of the SSC, full Council and public 
were totally unaware of their role and the degree of 
flexibility available to them. The agency vacillated with 
respect to the Council's role and direct, clear communication 
was not evident.
    A case in point--the perceived lack of flexibility is 
evident in that the Council's RPA recommendation included a 
four-season fishing strategy for the GOA. This approach was 
previously implemented and RESCINDED by the Council due to 
management complications and ineffectiveness. If the council 
was afforded any amount of flexibility or the agency was fully 
and openly cooperative, the final RPA's would not have included 
a provision previously deemed unworkable by the Council.
    We conclude from this result the agency (a) did not fully 
inform the Council of the scope of available flexibility, and 
(b) had pre-determined to a large extent, the final RPA's.
    6. Were the goals of the RPA's clear enough that the 
Council and industry could develop alternatives which would 
accomplish the same goals as the draft RPA's?
    YES & NO. Yes, the draft RPA's were specific in that 
agency's central objective was to disperse and delay the 
spatial and temporal aspects of the fishery. Although this 
approach was developed in the absence of any direct correlation 
between fishing and SSL, the agency was clear in its intent.
    The problems occurred because there was insufficient time, 
no supporting data, and no process by which the agency, 
Council, and public could examine impacts of past and future 
measures as well as current and historical SSL distribution and 
pollock fishing patterns to aid in the development of sensible 
mitigation measures to address the main objective.
    In fact, preliminary 1999 catch and survey data already 
indicate the RPA's may have concentrated the fishery in space 
and time, exactly OPPOSITE from agency intentions. The 
groundfish fleet that was spread around Kodiak Island during 
the 1991-1998 seasons, fished in fewer areas in a more 
concentrated fashion during the first 1999 season. If this 
characteristic continues for the duration of the year, the 
RPA's will have had the opposite effect and we will be no 
closer to understanding the impacts of these measures on SSL. 
It begs the question, ``Does the agency have any clue how it is 
impacting SSL and the fishery-dependent communities?''
    7. Do you think it is appropriate that the Council was 
involved in making the decisions to alter management of the 
pollock fishery to mitigate for Steller sea lion protection?
    YES. The SSL RPA's were directed at the groundfish fishery 
and implemented as emergency amendments to the standing FMP. 
Since the Council manages the groundfish fishery, it should be 
involved in the development/implementation of RPA's. In 
addition, the Council has the necessary expertise to make such 
decisions if given adequate data and opportunity. 
Unfortunately, we do not believe the process afforded full and 
efficient Council input.
    8. Do you think that there is a problem when the ``action 
agency'' and the ``consulting agency'' involved in a Section 7 
consultation are the same agency? Do you think there should be 
some kind of peer review required in such situations?
    YES, This is a very serious problem which must be 
addressed. The SSL situation is a perfect example of how the 
system is broken. By not requiring some form of review, the 
system will continue to expose the agency to litigation.
    The agency currently has a policy (joint, with the USFWS) 
on peer review of ESA activities. In the case of SSL, NMFS 
merely chose not to follow the policy. Agency staff indicated 
the policy applies only to listing actions and no other 
activities under the Act. Clearly, the agency has 
misinterpreted their own policy, particularly in instances like 
SSL where the quality of the science is in question (see 59 FR 
34270, July 1, 1994, Section (B)(1) titled ``Special 
Circumstances'').
    In the case of SSL, this scenario allowed the agency to 
dismiss alternative hypotheses absent research and prevented 
scientific input from oceanographers, independent scientists, 
and both fishery and avian biologists. To our knowledge only 
NMFS marine mammal biologists and protected species policy 
makers were utilized in the development of the RPA's. This 
cloistered process prevents consideration of the best available 
scientific information which is in direct conflict with the 
statute.
    In our opinion, legislation which permits autonomy by a 
single department within a single Federal agency is seriously 
flawed. It exposes the agency to litigation and its 
constituency to management by whipsaw. The simple fact that the 
agency imposed a second round of intrusive management measures 
and is considering a third without ever having assessed the 
effectiveness of the first set of measures is a clear 
indication we have a serious problem.
    At a minimum, an agency in the position of ``consulting 
with itself'' should be required to consult with a second 
Federal agency to allow for appropriate checks and balances. At 
best, there should be a peer review required in all such 
situations and especially where the science is seriously in 
question.
    9. Do you believe that all haul out areas should be 
surrounded by buffer zones? If not, why not?
    NO. The agency, in setting selection criteria for haul out 
protection, has overextended its application of the 
``Precautionary Principle.'' First, rather than protect every 
single site that ever exhibited a specified level of use post-
1979, the agency should have adopted a more common-sense 
approach based on current ecosystem conditions and SSL site-
dependence, fishing activity, and SSL population trends, 
balanced with human safety and community economic concerns.
    For example, the Ugak site off the eastern edge of Kodiak 
Island has never functioned as a major SSL haul out during the 
past 40 years. In fact, since 1989, only 16 individual animals 
were observed at this site (15 in 1992, and 1 in 1994). Even 
though this site is not currently being used by SSL, it was one 
of first three sites closed by the agency's RPA's for the 1999 
fishing season. Similar situations exist for sites located at 
Cape Barnabas, Rugged Island, and Cape Ikolik haulouts slated 
for closure in the year 2000.
    There are several haul outs where SSL numbers have 
fluctuated without trend (i.e. Cape Ugat, Gull Point, Sea Lion 
Rocks) or increased (i.e. Mitrofania) in the presence of 
trawling. It is unclear how a Federal agency required to use 
the best available science could justify closing these key 
fishing areas.
    Second, closing all remaining key near shore fishing areas 
virtually eliminates all research opportunities to assess SSL-
fishing interactions. A research plan utilizing these haul outs 
should be developed to assess the efficacy of past and pending 
mitigation measures.
    10. Do you believe that the aerial surveys of selected 
rookeries adequately reflect Steller sea lion populations?
    NOT EXACTLY. The methodology for estimating population size 
for the eastern and western stocks of SSL is inconsistent. The 
eastern stock is estimated by direct counts on the rookeries. 
The western stock estimates are derived from counts on a subset 
of rookery ``trend'' sites.
    This discrepancy resulted in the November 20, 1998 
consistency recommendation by the Alaska Scientific Review 
Group to the NMFS. The AKSRG recommended that the methodology 
used to calculate the western stock be the sum of direct counts 
of adults, juveniles, and pups at all sites. The AKRSG also 
stated that the resulting population estimate should not be 
reduced for Nmin (i.e. ``Minimum population estimate'' 
calculated first by estimating the minimum stock size and then 
reducing the population estimate further to assure that true 
population size is equal to or less than, the estimate). These 
adjustments would ensure consistency between the two regions. 
There is no formal indication the agency intends to adjust the 
assessment process to reflect these recommendations.
    Members of the coastal communities have also expressed 
concerns that many animals may be unaccounted for during the 
assessment process. Members of the Native communities believe 
that NMFS, working cooperatively to incorporate local 
knowledge, will produce more accurate assessment results.
    Mr. Chairman, on behalf of the SSL Caucus, thank you for 
the opportunity to participate in this process and respond to 
your follow-up questions.
                                ------                                


    STATEMENT OF SIMEON SWETZOF, MAYOR, AND JOHN R. MERCULIEF, CITY 
         MANAGER, CITY OF SAINT PAUL, PRIBILOF ISLANDS, ALASKA

    Mr. Chairman and members of the Subcommittee, thank you for 
the opportunity to provide testimony on this issue of critical 
importance for the community of 700 Pribilof Aleuts where we 
live. The rich marine ecosystem around the Pribilofs supports 
the largest concentrations of marine mammals, seabirds, and 
fish stocks in the Northern Hemisphere. As a people whose 
traditions and survival are bound to the marine wildlife 
sustained by the Bering Sea, the Pribilof Aleuts are concerned 
about the long-term future of the Steller sea lion and the 
continued health of the Bering Sea fisheries and ecosystem. For 
generations, Steller sea lions have been an important source of 
food for Aleuts and other native peoples, and the traditions 
involved in the subsistence hunt of sea lions and other species 
are an important part of our culture.
    In recent years the community of St. Paul has developed a 
port and other infrastructure necessary to attract in-shore 
processors and allow the development of a local fishery. 
Located within 65 miles of more than 50 percent of the nation's 
commercial fisheries, St. Paul's harbor is today one of the 
busiest in Alaska and has become the second highest generator 
of fish tax revenue for the State. Our small boat commercial 
fishing fleet is one of the most successful in the State, in 
terms of its ability to harvest the species it is allowed to 
target. Improvements to the Harbor financed by the Federal, 
state, and local governments, are underway which will further 
enhance St. Paul's importance to the fishery.
    As a result, the community of St. Paul, the State of 
Alaska, and the Federal Government have an important economic 
stake in the continued health of the Bering Sea's commercial 
fisheries, the survival of threatened and endangered species 
such as the Steller sea lion, and the management measures 
implemented by the National Marine Fisheries Service (NMFS) and 
the North Pacific Fisheries Management Council (the Council) to 
regulate the fisheries and the ecosystem.
    The City of St. Paul has participated actively in recent 
Council hearings on the management changes in the Bering Sea 
pollock fishery recommended by NMFS to protect Steller sea 
lions and other issues. At these hearings the Mayor of St. Paul 
has provided testimony and community statements on behalf of 
the Pribilof Aleuts and subsistence hunters urging NMFS, and 
the Council, to act conservatively in implementing protection 
measures that could adversely impact Alaska's fishermen, its 
fishing industry, and fishery-dependent communities like St. 
Paul.
    This is particularly true when the causes impeding the 
recovery of the Steller sea lion are not fully understood and 
the scientific evidence is inconclusive. While these causes are 
not completely understood, and may never be, given the array of 
possible contributing factors, the community of St. Paul 
supports: (1) increased funding for research into ecosystem 
management, and (2) greater local participation in resource 
management, including scientific research at the local level in 
locations such as the Pribilofs that allow for the use of 
native/traditional knowledge. We believe that a critical 
component missing in NMFS' analysis and biological opinion are 
the economic, cultural, and biological impacts of their actions 
on local communities such as St. Paul, and the wealth of native 
knowledge and local input that has been bypassed by NMFS 
scientists and regulators. Focusing resources and attention on 
the above two proposals will permit the development of adequate 
responses that will possibly help to reverse the Steller sea 
lion's decline and contribute to the general health of the 
Bering Sea ecosystem. We urge you to consider them.

1. Increased Funding for Research:

    The unique hydrophysical and biological processes 
surrounding the Pribilof Islands create a marine ecosystem 
which supports the largest populations of seabirds, marine 
mammals, and fish stocks in the Northern Hemisphere. For this 
reason, St. Paul Island is an ideal location for research and 
studies on a local level to understand these processes and 
develop effective resource management policies.
    In the past, the City of St. Paul and the U.S. Department 
of State have co-sponsored studies such as The Bering Sea 
Ecosystem, a book prepared by the National Research Council in 
1996 and the Pribilof Marine Ecosystem Research Progam by Dr. 
Mikhail Flint of the Russian Academy of Sciences. Both studies 
support the conclusion that a fisheries management regime that 
considers the ecosystem as a whole, and is not framed in a 
single species context, ensures sustainable commercial 
fisheries and healthy marine mammal and seabird populations. 
The focus of an ecosystem approach to fisheries management, 
therefore, is to prevent the creation of imbalances in fish 
stocks that in turn may impact and create imbalances in 
predatory species such as Steller sea lions and affect the 
long-term viability of the commercial fisheries.
    Congress must remember that during the 1980's the City of 
St. Paul was a leading voice in the Bering Sea calling for 
ecosystem research and management. The City, in conjunction 
with the State Department and some members of the environmental 
community, faced the opposition of the fishing industry, the 
Council, and even NMFS, to push through the National Research 
Council study. Now that work is cited by everyone as the 
starting point for fisheries research and policy-making in the 
Bering Sea. The City of St. Paul has been a leader in the 
effort to understand and manage these issues, and will continue 
to be involved.
    The City of St. Paul, moreover, supports further research 
into the natural processes and dynamics of the Bering Sea and 
Gulf of Alaska ecosystems, in order to shed light on phenomena 
such as the ``regime shifts'' and predator-prey interaction. 
For example, there have been higher than usual reported 
incidences of killer whale attacks on sea lions and sea otters 
and many have attributed the declining Steller sea lion 
populations to these attacks. Very little is understood about 
these interactions and their impact on the health of the 
Steller sea lion population as a whole. Others have indicated 
that subsistence hunting has impeded the recovery of Steller 
sea lions. However, this disregards the fact that killer whales 
and Native Alaskans have consumed Steller sea lions for 
thousands of years and in doing so contributed to maintaining 
healthy sea lion populations and keeping the ecosystem in 
balance.
    The small community of St. Paul has for years spent 
considerable City funds to support studies in the 
aforementioned areas and believes that they point the direction 
as to how commercial fisheries can be sustainably managed to 
the benefit of fishermen, coastal communities, industry, and 
the ecosystem. These studies also indicate that we know very 
little about the natural processes that govern the ecosystem. 
For this reason we support and welcome increased funding by the 
State and Federal administrations for research on ecosystem-
based management and the natural processes that govern the 
ecosystem, including the area around the Pribilof Islands. Only 
by understanding how the ecosystem functions can we hope to 
develop the policies that are necessary to manage the 
commercial fisheries sustainably and protect the health of 
endangered species such as the Steller sea lion.

2. Local Participation and Use of Native/Traditional Knowledge:

    Stewardship of marine wildlife, including Steller sea 
lions, and marine fisheries must be improved by increasing 
participation of Bering Sea and Gulf of Alaska coastal 
communities in policy and decision-making affecting these 
resources. When coastal communities and their residents are 
given a stake in the health of the resources in state and 
Federal waters, long-term sustainability becomes an achievable 
goal.
    In the Pribilof Islands, the Ecosystem Conservation Office 
has formed a Pribilof Islands Marine Mammal Commission to 
promote proper subsistence hunting techniques, and encourage 
the conservation of sea lions and other marine mammals through 
traditional knowledge and scientific research. In addition, the 
Ecosystem Conservation Office has developed co-management 
agreements with NMFS to share responsibilities in the 
management of Steller sea lions and Northern fur seals. The 
people of St. Paul believe that co-management agreements may 
present an effective way of protecting Steller sea lions on the 
local level because they engage the local population in the 
management and protection of species that are culturally and 
economically valuable to the community, and allow for the 
exchange of information between members of the community and 
NMFS scientists.
    With an important cultural and economic stake in the 
protection and conservation of endangered or threatened Bering 
Sea species, the Pribilof Aleuts support efforts to incorporate 
Native concerns and knowledge into the decision-making process. 
The people of my community have an extensive, generations-long, 
body of knowledge regarding Steller sea lion behaviors, eating 
habits, foraging areas, migration patterns, and rookeries that 
has been often overlooked by NMFS and outside scientists.
    For this reason we support partnering between Federal, 
state and local agencies, environmental organizations, 
community and Native organizations and scientists to 
collaboratively develop plans to protect Steller sea lion 
populations on a local level, and particularly in critical 
habitat areas such as the Pribilof Islands. This plan must be 
tailored to the area designated for protection as the factors 
affecting sea lions may be different in diverse geographical 
areas. Moreover, protection plans should incorporate and seek 
ways of channeling, to the extent possible, the wealth of local 
and traditional knowledge which exists in most Alaskan 
communities but which is often disregarded or underutilized by 
outside scientists.

3. Management of the Bering Sea Commercial Fisheries:

    NMFS' biological opinion bases its recommended actions in 
the pollock fishery on the argument that the fishing effort is 
concentrated too intensively during the fall and winter seasons 
in certain geographic areas, which include Steller sea lion 
critical habitat and foraging areas. For this reason they 
recommended that the Council implement measures that have 
dispersed the pollock fishery temporally and spatially away 
from the Aleutian Chain towards the central Bering Sea and the 
Pribilof Islands.
    One of St. Paul's future objectives is to develop 
multispecies processing capability (including pollock) in-
shore. There are several advantages to this from the 
perspective of the fishing industry and NMFS. Multispecies 
processing capability on St. Paul Island would allow a portion 
of the fishing fleet that has been dispersed by NMFS' 
recommended actions to use St. Paul Island as a base, thereby 
reducing costs, increasing efficiency (by reducing unproductive 
delivery time), reducing dead loss, and increasing safety for 
fishermen. Use of the St. Paul Harbor allows the intensive 
fishery effort in the Bering Sea to be distributed throughout 
the entire ecosystem in a manner that has less localized impact 
on Steller sea lions, and other species, and is consistent with 
NMFS' objectives. Finally, St. Paul sees multispecies 
processing capability on the island as an important part of 
bringing processing in-shore and developing sustainable 
fisheries in a way that is consistent with the goals of the 
Sustainable Fisheries Act and the American Fisheries Act.
    Ultimately, conservation of the commercial fisheries, 
seabirds, and marine mammals of the Bering Sea will be achieved 
through management policies that promote in-shore processing, 
local stewardship and co-management, an ecosystem approach to 
the utilization of fisheries, and joint management of 
straddling and migratory fish stocks with the Russian 
Federation.
    These are issues that the people of the Pribilofs have 
advocated for years. The Pribilof Islands are literally in the 
middle of these issues and are a key piece to: (1) 
understanding the processes affecting the Bering Sea ecosystem 
and (2) gauging the success of measures implemented to protect 
the Steller sea lion and other species. The people of St. Paul 
are aware of the importance of balancing the needs of the 
subsistence hunters, the fishermen, the fishing industry, and 
the ecosystem. We have done this balancing for hundreds of 
years.
    Mr. Chairman, and distinguished members of the Fisheries 
Conservation, Wildlife, and Oceans Subcommittee, thank you for 
this opportunity to provide written testimony on behalf of the 
City of St. Paul. We look forward to discussing these issues 
with you and your staffs.


</pre></body></html>
